<html>
<title> - TERRORISM IN NORTH AFRICA: AN EXAMINATION OF THE THREAT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






        TERRORISM IN NORTH AFRICA: AN EXAMINATION OF THE THREAT

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2017

                               __________

                           Serial No. 115-11

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                              __________


                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-909 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Lou Barletta, Pennsylvania           Kathleen M. Rice, New York
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Will Hurd, Texas                     William R. Keating, Massachusetts
Mike Gallagher, Wisconsin            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
            Nicole Tisdale, Minority Staff Director/Counsel
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4

                               Witnesses

Mr. J. Peter Pham, Vice President for Research and Regional 
  Initiatives, Director for The Africa Center, Atlantic Council:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Geoff D. Porter, President, North Africa Risk Consulting, 
  Inc.:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. Laith Alkhouri, Co-Founder and Director, Flashpoint:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
Mr. Frederic Wehrey, Senior Fellow, Middle East Program, Carnegie 
  Endowment for International Peace:
  Oral Statement.................................................    37
  Prepared Statement.............................................    39

                                Appendix

Questions From Ranking Member Bennie G. Thompson for J. Peter 
  Pham...........................................................    55
Questions From Ranking Member Kathleen M. Rice for J. Peter Pham.    56
Questions From Representative Mike Gallagher for J. Peter Pham...    56
Questions From Ranking Member Bennie G. Thompson for Geoff D. 
  Porter.........................................................    58
Question From Ranking Member Kathleen M. Rice for Geoff D. Porter    58
Questions From Representative Mike Gallagher for Geoff D. Porter.    58
Questions From Ranking Member Bennie G. Thompson for Laith 
  Alkhouri.......................................................    59
Questions From Ranking Member Kathleen M. Rice for Laith Alkhouri    60
Questions From Representative Mike Gallagher for Laith Alkhouri..    61
Question From Ranking Member Bennie G. Thompson for Frederic 
  Wehrey.........................................................    62
Question From Ranking Member Kathleen M. Rice for Frederic Wehrey    63
Questions From Representative Mike Gallagher for Frederic Wehrey.    63

 
        TERRORISM IN NORTH AFRICA: AN EXAMINATION OF THE THREAT

                              ----------                              


                       Wednesday, March 29, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Peter T. King 
(Chairman of the subcommittee) presiding.
    Present: Representatives King, Hurd, Gallagher, Rice, and 
Keating.
    Mr. King. Good morning. The Committee on Homeland Security, 
Subcommittee on Counterterrorism and Intelligence will come to 
order. The subcommittee is meeting today to hear testimony from 
four experts on counterterrorism and terror groups in North 
Africa.
    I want to welcome Ranking Member Rice and any other Member 
of the subcommittee that appears this morning. I understand 
that several will be showing up. I express my appreciation to 
the witnesses who have all traveled to be here today. I 
recognize myself for an opening statement.
    During today's hearing, we will focus on terror groups 
operating in and across North Africa, their intent to attack 
the United States, and their capability to do so. While Iraq 
and Syria are the current epicenter of the Islamist extremist 
movement, that certainly has not always been the case, nor will 
it be in the future.
    The threats posed by ISIS and al-Qaeda are dynamic and are 
expected to increase as ISIS loses ground in Iraq and Syria, 
and al-Qaeda seeks to reclaim its status as the leader of the 
global jihadi movement. In this context, North Africa, which 
sits on the edge of Europe, has emerged as an important theater 
in the war on terror.
    Al-Qaida and ISIS elements are increasingly active and 
competitive, and have both expanded their reach deep into the 
continent. Earlier this month, al-Qaeda factions in the Sahel 
reconciled their internal disputes and formed a single movement 
called the ``Group for the Support of Islam and Muslims,'' 
pledging their loyalty to AQIM leader, Abdelmalek Droukdel.
    Additionally, the emergence of ISIS in the Greater Sahara, 
which was informally recognized by Abu Bakr al-Baghdadi in 
October 2016, confirmed the expansion of ISIS offshoots from 
Tunisia, Libya, and Sinai into the Sahel. Terror groups 
continue to reap the benefits of the permissive environment 
created out of political instability and large swaths of 
ungoverned space.
    As of March 6 of this year, the State Department cautioned 
that terrorist groups, including al-Qaeda in the Islamic 
Maghreb and ISIS affiliates, are very active in North Africa, 
have demonstrated the ability to conduct attacks in the region. 
Tthe U.S. Government remains, ``highly concerned about possible 
attacks against U.S. citizens, facilities, and businesses.''
    The Long War Journal reports that al-Qaeda affiliates 
launched over 250 attacks in the Maghreb and Sahel regions in 
2016, a more than 150 percent increase from the reported 106 
attacks in 2015.
    Some argue that terror groups in the region are 
nationalists and do not pose a threat to the United States. 
However, 3 months ago, the Pentagon confirmed that airstrikes 
on an ISIS stronghold in Libya were directed against, 
``external plotters, who were actively planning operations 
against our allies in Europe.''
    Additionally, the return of thousands of battle-hardened 
foreign fighters from Iraq and Syria to their home countries in 
North Africa will likely elevate the threat level in the 
region.
    The goals for today's hearings are to get a status update 
from you experts on the activities of the various terror 
groups, and the possible threat they may pose to the United 
States in the present and the future. Also to solicit your 
expert advice on what is working in our counterterrorism 
strategy and what more needs to be done as the Trump 
administration is evaluating current efforts.
    I want to thank all of you for your work in this field, for 
appearing here today. I look forward to your testimony.
    [The statement of Mr. King follows:]
            Statement of Subcommittee Chairman Peter T. King
                             March 29, 2017
    During today's hearing, we will focus on terror groups operating in 
and across North Africa, their intent to attack the United States and 
their capability to do so. While Iraq and Syria are the current 
epicenter of the Islamist extremism movement, that certainly has not 
always been the case nor will it be in the future.
    The threat posed by ISIS and al-Qaeda are dynamic and are expected 
to increase as ISIS loses ground in Iraq and Syria and al-Qaeda seeks 
to reclaim its status as the leader of the global Jihadi movement.
    In this context, North Africa, which sits on the edge of Europe, 
has emerged as an important theatre in the war on terror.
    Al-Qaeda and ISIS elements are increasingly active--and 
competitive--and have both expanded their reach deep into the 
continent. Earlier this month, al-Qaeda factions in the Sahel 
reconciled their internal disputes and formed a single movement called 
``Group for the Support of Islam and Muslims,'' pledging their loyalty 
to AQIM leader, Abdelmalik Droukdel. Additionally, the emergence of 
``ISIS in the Greater Sahara,'' which was informally recognized by Abu 
Bakr al-Baghdadi in October 2016, confirmed the expansion of ISIS 
offshoots from Tunisia, Libya, and the Sinai into the Sahel.
    Terror groups continue to reap the benefits of the permissive 
environment created out of political instability and large swaths of 
ungoverned space. As of March 6, 2017, the State Department cautioned 
that terrorist groups, including AQIM and ISIS affiliates, are very 
active in North Africa, have demonstrated the capability to conduct 
attacks in the region, and the U.S. Government remains ``highly 
concerned about possible attacks against U.S. citizens, facilities, and 
businesses.''
    The Long War Journal reports that al-Qaeda affiliates launched over 
250 attacks in the Maghreb and Sahel regions in 2016, a more than 150% 
increase from the reported 106 attacks in 2015.
    Some argue that terror groups in this region are nationalist and do 
not pose a threat to the United States. However, 3 months ago, the 
Pentagon confirmed that airstrikes on an ISIS stronghold in Libya were 
directed against, ``external plotters, who were actively planning 
operations against our allies in Europe.''
    Additionally, the return of thousands of battle-hardened foreign 
fighters from Iraq and Syria to their home countries in North Africa 
will likely elevate the threat level in the region.
    My goals for today's hearing are to get a status update from 
experts on the activities of the various terror groups and the possible 
threat they may pose to the United States in the present and future. 
And to solicit your expert advice on what's working in our 
counterterrorism strategy and what more needs to be done as the Trump 
administration is evaluating current efforts.
    I want to thank you all for your work in this field and for 
appearing here today. I look forward to your testimony.

    Mr. King. Now I present the Ranking Member, my colleague 
from New York, Kathleen Rice. Miss Rice.
    Miss Rice. Thank you, Mr. Chairman, for holding this 
hearing, and thank you to the witnesses for joining us here 
today.
    About 2 years ago I had the opportunity to travel to Africa 
on a Congressional delegation that was led by Senator Kirsten 
Gillibrand, and we were able to meet with government leaders 
and security officials in Tunisia, Chad, Djibouti, Kenya, and 
Senegal.
    That trip was just a few months after I was sworn into 
Congress and joined this committee. It was an instructive 
experience for me because while groups like ISIS may have 
dominated headlines at the time, as they often do now, it is 
critical that we never lose sight of the fact that the threat 
of terrorism doesn't start and stop with ISIS.
    That trip made it clear to me that the threat of terrorism 
emerging in Africa is very real and cannot be ignored or 
overlooked until it generates more headlines. We need to 
confront that threat head on, and our ability to do so depends 
heavily on the strength of partnerships with leaders who fight 
on the front lines against these terrorist groups every day.
    We don't have to look far to see how serious a threat we 
are dealing with in Africa, particularly in North Africa. A 
truck bomb was detonated last year near a police training 
college in Libya killing 60 policeman and wounding about 200 
others.
    A commercial plane bombing in Egypt in October 2015 killed 
224 people. An attack at a tourist resort in Tunisia in June 
2015 left 38 dead, and of course the attack on the U.S. embassy 
and CIA annex in Benghazi, Libya, which left 4 U.S. citizens 
dead, including the U.S. Ambassador to Libya, J. Christopher 
Stevens.
    While ISIS has taken credit for many recent attacks, al-
Qaeda operatives and other violent extremist groups have had a 
presence in North Africa for almost 2 decades.
    For example, al-Qaeda in the Islamic Maghreb, AQIM, had 
primarily operated in the northern coastal areas of Algeria and 
in parts of the desert regions of southern Algeria, but in 
recent years has expanded into Libya and Tunisia.
    AQIM claimed responsibility for many terror attacks in the 
region, and has been responsible for kidnappings for ransom and 
smuggling. Most concerning, according to U.S. officials, AQIM 
has focused on local and Western targets in North and West 
Africa, including U.S. interests and personnel by often urging 
supporters to target U.S. embassies and U.S. Ambassadors.
    Earlier this month, the head of the U.S. Africa Command 
testified before the Senate and characterized the instability 
in Libya and North Africa as potentially the most significant 
near-term threat to U.S. and allies' interests on the 
continent.
    Protecting our assets and people in this region is 
absolutely a National security priority for our country right 
now, but I am concerned that this administration doesn't seem 
to recognize that.
    President Trump's so-called America First budget seems to 
put Africa last, proposing deep budget cuts to the continent. 
In fact, many have speculated that confronting the threat of 
terrorism in Libya and throughout the region will be a low 
priority for this administration.
    By proposing to cut the Department of State's international 
affairs funding by one-third, President Trump has signaled that 
he is not interested in maintaining long-standing international 
partnerships, which are crucial for U.S. diplomacy and 
development across the globe, including in North Africa.
    As I said, I believe that our success in confronting the 
threat in Africa depends on the success of our partners leading 
this fight on the ground. And while President Trump may not 
have a sophisticated understanding of the value of diplomacy, 
we cannot allow that to jeopardize the partnerships we have 
built in North Africa.
    The terrorist threat to the U.S. homeland since 9/11 has 
continued to evolve, and our counterterrorism policies must 
evolve as well. They cannot be singularly focused on prevention 
only within our borders.
    It is imperative that the United States works with our 
allies to improve counterterrorism and intelligence efforts in 
North Africa, as well as investing in education, economic 
development, and free and open civil societies in order to root 
out many of the drivers of violent extremism in the region.
    The level of U.S. funding, resources, and personnel 
dedicated to these efforts must continue, if not increase, in 
order to limit the risk and progress of terrorist groups in the 
region.
    Again, we cannot underestimate the value of building and 
strengthening local and international partnerships to combat 
terrorism and radicalization in North Africa. International 
cooperation and partnerships are the foundation of our 
counterterrorism efforts.
    I look forward to a robust discussion with our witnesses 
today about the threat of terrorism and radicalization in North 
Africa and how we can shape U.S. policy to support our partners 
and defeat our enemies.
    Thank you, Mr. Chairman, and I yield back.
    [The statement of Ranking Member Rice follows:]
              Statement of Ranking Member Kathleen M. Rice
                             March 29, 2017
    Thank you, Mr. Chairman, for holding this hearing. And thank you to 
the witnesses for joining us today.
    About 2 years ago, I had the opportunity to travel to Africa on a 
Congressional delegation led by Senator Kirsten Gillibrand, and meet 
with government leaders and security officials in Tunisia, Chad, 
Djibouti, Kenya, and Senegal.
    That trip was just a few months after I was sworn in to Congress 
and joined this committee, and it was an instructive experience for me. 
Because while groups like ISIS may have dominated headlines at the 
time, as they often do now, it's critical that we never lose sight of 
the fact that the threat of terrorism doesn't start and stop with ISIS.
    That trip made it clear to me that the threat of terrorism emerging 
in Africa is very real and cannot be ignored or overlooked until it 
generates more headlines. We need to confront that threat head-on, and 
our ability to do so depends heavily on the strength of partnerships 
with leaders who fight on the front lines against these terrorist 
groups every day.
    We don't have to look far to see how serious of a threat we're 
dealing with in Africa, particularly in North Africa.
    A truck bomb was detonated last year near a police training college 
in Libya, killing 60 policemen and wounding about 200 others. A 
commercial plane bombing in Egypt in October 2015 killed 224 people. An 
attack at a tourist resort in Tunisia in June 2015 left 38 dead. And of 
course, the attack on the U.S. Embassy and CIA annex in Benghazi, Libya 
which left four U.S. citizens dead, including the U.S. Ambassador to 
Libya, J. Christopher Stevens.
    While ISIS has taken credit for many recent attacks, al-Qaeda 
operatives and other violent extremists groups have had a presence in 
North Africa for almost 2 decades.
    For example, al-Qaeda in the Islamic Magreb--AQIM--had primarily 
operated in the northern coastal areas of Algeria and in parts of the 
desert regions of southern Algeria, but in recent years has expanded 
into Libya and Tunisia.\1\ AQIM claimed responsibility for many terror 
attacks in the region and has been responsible for kidnappings for 
ransom and smuggling.\2\
---------------------------------------------------------------------------
    \1\ Al-Qa'ida in the Lands of the Islamic Maghreb (AQIM), National 
Counterterrorism Center, https://www.nctc.gov/site/groups/aqim.html.
    \2\ Al-Qaeda in the Islamic Maghreb (AQIM) and Al Murabitoun. 
Alexis Arieff & Tomas F. Husted. Congressional Research Service. 25 
November 2015.
---------------------------------------------------------------------------
    Most concerning, according to U.S. officials, AQIM has focused on 
local and Western targets in North and West Africa, including U.S. 
interests and personnel, by often urging supporters to target U.S. 
embassies and U.S. ambassadors.\3\ \4\
---------------------------------------------------------------------------
    \3\ Id.
    \4\ Id.
---------------------------------------------------------------------------
    Earlier this month, the head of the U.S. Africa Command, testified 
before the Senate and characterized the instability in Libya and North 
Africa as potentially ``the most significant near-term threat to U.S. 
and allies' interests on the continent . . .''.
    Protecting our assets and people in this region is absolutely a 
National security priority for our country right now--but I'm concerned 
that this administration doesn't seem to recognize that.
    President Trump's so-called ``America First'' budget seems to put 
Africa last, proposing deep budget cuts to the continent. In fact, many 
have speculated that confronting the threat of terrorism in Libya and 
throughout the region will be low priority for this administration.
    By proposing to cut the Department of State's international affairs 
funding by one third, President Trump has signaled that he is not 
interested in maintaining longstanding international partnerships, 
which are crucial for U.S. diplomacy and development across the globe, 
including in North Africa.
    As I said, I believe that our success in confronting the threat in 
Africa depends on the success of our partners leading this fight on the 
ground. And while President Trump may not have a sophisticated 
understanding of the value of diplomacy, we cannot allow that to 
jeopardize the partnerships we've built in North Africa.
    The terrorist threat to the U.S. homeland since 9/11 has continued 
to evolve, and our counterterrorism policies must evolve as well--they 
cannot be singularly focused on prevention only within our borders.
    It is imperative that the United States works with our allies to 
improve counterterrorism and intelligence efforts in North Africa--as 
well as investing in education, economic development, and free and open 
civil societies--in order to root out many of the drivers of violent 
extremism in the region.
    The level of U.S. funding, resources, and personnel dedicated to 
these efforts must continue, if not increase, in order to limit the 
risk and progress of terrorist groups in the region.
    Again, we cannot underestimate the value of building and 
strengthening local and international partnerships to combat terrorism 
and radicalization in North Africa. International cooperation and 
partnerships are the foundation of our counterterrorism efforts.
    I look forward to a robust discussion with our witnesses today 
about the threat of terrorism and radicalization in North Africa and 
how we can shape U.S. policy to support our partners and defeat our 
enemies.
    Thank you, Mr. Chairman. I yield back.

    Mr. King. Thank you, Ranking Member.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record. We are pleased to 
have, as I mentioned before, a distinguished panel of witnesses 
before us today on this important topic. All the witnesses are 
reminded that their written statement will be submitted for the 
record.
    Our first witness is Dr. J. Peter Pham. Dr. Pham is vice 
president for Research and Regional Initiatives at the Atlantic 
Council, as well as director of the Council's Africa Center. 
Prior to joining the council in 2011, Dr. Pham was a tenured 
associate professor of justice studies, political science, and 
Africana studies at James Madison University where he was 
director of the Nelson Institute for International and Public 
Affairs.
    He is the author of more than 300 essays and books. He 
contributes to a number of a publications and regularly appears 
as a commentator on U.S. and international broadcasts and print 
media.
    Dr. Pham served as head of Africa and Development Issues 
for the Presidential campaign of Senator McCain in 2008 and co-
chair of the Africa Policy team for the Presidential campaign 
of Governor Romney in 2012. He currently serves as chair of the 
Africa Working Group of the John Hay Initiative.
    Dr. Pham has been a trusted advisor to this committee, and 
has testified several times on critical security issues in 
Africa. Dr. Pham, it is great to have you back, and you are now 
recognized for your testimony.

  STATEMENT OF J. PETER PHAM, VICE PRESIDENT FOR RESEARCH AND 
REGIONAL INITIATIVES, DIRECTOR FOR THE AFRICA CENTER, ATLANTIC 
                            COUNCIL

    Mr. Pham. Thank you very much, Mr. Chairman.
    Mr. Chairman, Ranking Member Rice, and distinguished 
Members of the subcommittee, I would like to begin by thanking 
you not only for the specific opportunity to testify before you 
today on the subject of terrorism in North Africa, but also for 
the sustained attention which the U.S. House of 
Representatives, and this panel in particular, has given to 
this challenge.
    In its oversight capacity, you have been very much ahead of 
the curve over the course of the last decade-and-a-half, and it 
has been my singular privilege to have contributed, however 
modestly, to this important effort.
    Since my esteemed colleagues will be delving deeply into 
the threat in North Africa posed by al-Qaeda, the so-called 
Islamic State and their affiliates, I will concentrate 
primarily on the threat from North Africa, focusing on the 
danger posed by these groups in and of themselves, as well as 
in their competition with each other.
    The continuing threat posed by the various jihadist groups 
operating in the Sahel is the result of their exploitation of 
local conflicts, including socioeconomic and political 
marginalization, as well as the fragile condition of the many 
states affected.
    In some cases, setbacks spur the extremists to adapt new 
strategies that result in renewed vigor. A good example being 
the fragmentation of AQIM's organization in the Sahel in the 
wake of the French-led intervention in Mali, and the subsequent 
multiplication of factions, some of which are organized along 
ethnic lines, that facilitate both the members blending into 
local populations, and their making further inroads among them.
    Arguably, the Sahel, rather than the Maghreb, where, with 
the exception of Libya, there are strong states that have shown 
their ability to resist al-Qaeda and ISIS encroachments, the 
Sahel is the region in Africa most at risk; especially if 
hordes of battle-hardened fighters return to the continent from 
the short-lived caliphate in the Levant and linked up with 
others of their ilk displaced from Sirte and other places on 
the Mediterranean littoral, and increasingly make their way 
into the Fezzan and other points south.
    It is no accident that the Sahel is, if not the poorest, 
certainly one of the poorest majority Muslim regions in the 
world. It is also home to the largest expanse of contiguous 
ungoverned spaces on the African continent.
    Many of the governments in the region are weak in their 
capacity to asset authority, much less provide real services 
beyond their capital cities and a smattering of urban centers 
is extremely limited.
    These fragile states present the jihadist both a 
vulnerability to exploit in the short term and an opportunity 
to create a new hub for operations in the long term, a 
characteristic shared not only by ISIS-aligned groups in 
Africa, like Boko Haram, but also al-Qaeda affiliates on the 
continent like AQIM and further afield, Somalia's al-Shabaab, 
is their almost uncanny resilience founded in part on the 
flexibility with which they can put aside differences and join 
forces in ever shifting combinations.
    Moreover, apparent splits among the extremist groups can 
perversely lead to increased violence, heightening the threat.
    For example, the much-valued schism within Boko Haram, 
formally aligned with ISIS since early 2015, between those 
militants loyal to long-time leader Abubakar Shekau and those 
following Abu Musab al-Barnawi, whom ISIS appointed as the new 
Governor of its West Africa province last August may, as I saw 
in November when I traveled to the battle front in northeastern 
Nigeria with former AFRICOM commander General Carter Ham and 
others embedded within Nigerian armor units.
    That this may be contributing to the intensification rather 
than the diminution of violence as both factions try to outdo 
each other in staging attacks, with al-Barnawi's faction 
gaining momentum, not only because of the defeats of Shekau's 
faction suffered at the hands of Nigerian forces, but also 
because of foreign fighters and other resources flowing in 
thanks to the ISIS affiliation.
    A similar phenomenon may also be at work in the competition 
between al-Qaeda-linked groups and ISIS in the Sahel. In late 
October, for example, ISIS confirmed they had accepted the 
allegiance of Abu Walid al-Sahrawi, a one-time commander within 
AQIM's al-Murabitun, who along with a group of fighters pledged 
themselves to Abu Bakr al-Baghdadi, who designated them his 
greater Sahara division.
    What is interesting is that al-Sahrawi first made bay'a to 
the self-styled caliph more than a year ago, but his oath of 
fealty was only accepted after he carried out a string of 
attacks in the border lands of Burkina Faso, Mali, and Niger.
    This broad survey permits us to draw a number of 
conclusions about U.S. response to terrorism in Africa and the 
possible threats posed to U.S. persons and interests abroad, as 
well as to the American homeland, especially from jihadists 
coming out of North Africa and penetrating Europe.
    Mr. Chairman, Ranking Member, and Members of the 
subcommittee, there is no doubt that ISIS and al-Qaeda-
affiliated groups in the northern part of Africa are poised to 
wreak considerable havoc across the continent as they seek to 
regroup in the ungoverned spaces of the Sahel, threatening not 
only the countries immediately impacted, but also affecting the 
interests and security of the United States and its allies 
across the region.
    Mr. Chairman, I thank you and the Members of the 
subcommittee for your attention. I look forward to your 
questions. Thank you.
    [The prepared statement of Dr. Pham follows:]
                  Prepared Statement of J. Peter Pham
                             March 29, 2015
    Mr. Chairman, Ranking Member Rice, distinguished Members of the 
subcommittee: I would like to begin by thanking you not only for the 
specific opportunity to testify before you today on the subject of 
terrorism in North Africa, but also for the sustained attention the 
U.S. House of Representatives has, in general, given to this challenge. 
In its oversight capacity, the House has been very much ahead of the 
curve over the course of the last decade-and-a-half and it has been my 
singular privilege to have contributed, however modestly, to this 
important effort.
    It was at a 2005 briefing organized by the Subcommittee on 
International Terrorism and Nonproliferation of the then-Committee on 
International Relations, that al-Shabaab was first mentioned as a 
threat not only to the security of Somalia, but also to the wider East 
Africa region and, indeed, the United States. The following year, a 
joint hearing of the same Subcommittee on International Terrorism and 
Nonproliferation and the Subcommittee on Africa, Global Human Rights, 
and International Operations was among the very first instances of 
public recognition by one of the two political branches of our 
government of the expanding crisis in the Horn of Africa occasioned by 
the takeover of Somalia by Islamist forces, including al-Shabaab.
    And, of course, it was this Subcommittee on Intelligence and 
Counterterrorism of the Committee on Homeland Security that, in 2011, 
convened the very first Congressional hearing on Boko Haram. I also had 
the privilege of testifying on that occasion when, once again, the 
Legislative branch used its oversight prerogatives to shine a light on 
what was then a poorly understood threat. At that time, Boko Haram was 
considered so obscure that the all the participants at the event, held 
to discuss a bipartisan report by the subcommittee staff on the threat 
posed by the militant group, could have convened in the proverbial 
broom closet. Sadly, our analysis proved prescient and, rather than 
fading away as some dismissively suggested that it would, Boko Haram 
went on to pose an even greater menace, not only to Nigeria and its 
people, but to their neighbors in West Africa as well as to 
international security writ large.
    In each of these cases and, indeed, others that could be cited, 
there is a recurring trope that emerges time and again: Terrorism in 
Africa generally gets short shrift and, when attention is focused on 
specific groups or situations that appear to be emerging challenges, 
the threat is either dismissed entirely or minimized--until the 
``unthinkable'' happens and tragedy strikes.
the context of terrorism in africa and the threat to the united states 
                           and its interests
    In considering the dynamic threat posed by al-Qaeda, the so-called 
Islamic State (ISIS), their various affiliates, and other jihadist 
groups in Africa, it is worth recalling that Africa had been a theater 
for terrorist operations, including those directed against the United 
States, long before the attacks of September 11, 2001, on the homeland 
focused attention on what had hitherto been regions seemingly 
peripheral to the strategic landscape, at least as most American policy 
makers and analysts perceived it.
    If one takes as a definition of terrorism the broadly accepted 
description offered by the United Nations General Assembly 1 year after 
the East Africa bombings--``criminal acts intended or calculated to 
provoke a state of terror in the general public, a group of persons or 
particular persons for political purposes''--terrorism can be said to 
be wide-spread in Africa, although it has largely been a domestic, 
rather than transnational, affair. However, just because the majority 
of actors and the incidents they are responsible for are domestic to 
African countries does not mean that they cannot and do not evolve into 
international threats when, in fact, that is the trajectory many, if 
not most, aspire to and which quite a few have indeed succeeded in 
achieving in recent years.
    The first post-9/11 iteration of the National Security Strategy of 
the United States of America, released a year after the attacks on the 
American homeland, raised the specter that ``weak states . . . can pose 
as great a danger to our National interests as strong states. Poverty 
does not make poor people into terrorists and murderers. Yet poverty, 
weak institutions, and corruption can make weak states vulnerable to 
terrorist networks and drug cartels within their borders.''\1\ 
Extremism, however, requires opportunity if it is to translate radical 
intentionality into terrorist effect. One leading African security 
analyst succinctly summarized the situation in the following manner:
---------------------------------------------------------------------------
    \1\ The most recent iteration of the National Security Strategy of 
the United States of America, released February 6, 2015, by the 
previous administration couched U.S. strategic objectives in Africa 
largely in terms of broader development goals, rather than traditional 
security concerns which were emphasized in earlier documents: ``Africa 
is rising. Many countries in Africa are making steady progress in 
growing their economies, improving democratic governance and rule of 
law, and supporting human rights and basic freedoms. Urbanization and a 
burgeoning youth population are changing the region's demographics, and 
young people are increasingly making their voices heard. But there are 
still many countries where the transition to democracy is uneven and 
slow with some leaders clinging to power. Corruption is endemic and 
public health systems are broken in too many places. And too many 
governments are responding to the expansion of civil society and free 
press by passing laws and adopting policies that erode that progress. 
On-going conflicts in Sudan, South Sudan, the Democratic Republic of 
the Congo, and the Central African Republic, as well as violent 
extremists fighting governments in Somalia, Nigeria, and across the 
Sahel all pose threats to innocent civilians, regional stability, and 
our National security.''

``The opportunity targets presented by peacekeepers, aid and 
humanitarian workers, donors and Western NGO's active in the continent 
are lucrative targets of subnational terrorism and international 
terrorism. Africa is also replete with potentially much higher-value 
targets ranging from the massive oil investments (often by U.S. 
companies) in the Gulf of Guinea to the burgeoning tourist industry in 
South Africa.''\2\
---------------------------------------------------------------------------
    \2\ Jakkie Cilliers, ``Terrorism and Africa,'' African Security 
Review 12, no. 4 (2003): 100.

    Thus there is a very real terrorist risk to U.S. persons and 
interests--a risk that is increasing with time if one looks at its 
three constituent elements: Threat, the frequency or likelihood of 
adverse events; vulnerability, the likelihood of success of a 
particular threat category against a particular target; and cost, the 
total impact of a particular threat experienced by a vulnerable target, 
including both the ``hard costs'' of actual damages and the ``soft 
costs'' to production, the markets, reputation, etc. In short, the 
combination of these three factors--threat, vulnerability, and cost--
ought to elevate not inconsiderably the overall risk assessment in 
Africa.
    And this last point is not lost upon those who wish us harm. Dating 
back to at least the period when Osama bin Laden himself found refuge 
in Sudan, the leading strategists of Islamist terrorism have speculated 
about the potential opportunities to establish cells, recruit members, 
obtain financing, and find safe haven offered by the weak governance 
capacities and other vulnerabilities of African states. In fact, it has 
been noted that al-Qaeda's first act against the United States came 
several years before the embassy bombings when it attempted to insert 
itself in the fight against the American-led humanitarian mission in 
Somalia. Moreover, one of the most systematic expositions of the 
particular allure of the continent to terrorists came from al-Qaeda's 
on-line magazine, Sada al-Jihad (``Echo of Jihad''). The June 2006 
issue of that publication featured an article by one Abu Azzam al-
Ansari entitled ``Al-Qaeda is Moving to Africa,'' in which the author 
asserted:

``There is no doubt that al-Qaeda and the holy warriors appreciate the 
significance of the African regions for the military campaigns against 
the Crusaders. Many people sense that this continent has not yet found 
its proper and expected role and the next stages of the conflict will 
see Africa as the battlefield.''

    With a certain analytical rigor, Abu Azzam then proceeded to 
enumerate and evaluate what he perceived to be significant advantages 
to al-Qaeda shifting terrorist operations to Africa, including: The 
fact that jihadist doctrines have already been spread within the Muslim 
communities of many African countries; the political and military 
weakness of African governments; the wide availability of weapons; the 
geographical position of Africa vis-a-vis international trade routes; 
the proximity to old conflicts against ``Jews and Crusaders'' in the 
Middle East as well as new ones like Darfur, where the author almost 
gleefully welcomed the possibility of Western intervention; the poverty 
of Africa which ``will enable the holy warriors to provide some finance 
and welfare, thus, posting there some of their influential 
operatives''; the technical and scientific skills that potential 
African recruits would bring to the jihadist cause; the presence of 
large Muslim communities, including ones already embroiled conflict 
with Christians or adherents of traditional African religions; the 
links to Europe through North Africa ``which facilitates the move from 
there to carry out attacks''; and the fact that Africa has a wealth of 
natural resources, including hydrocarbons and other raw materials, 
which are ``very useful for the holy warriors in the intermediate and 
long term.'' Abu Azzam concluded his assessment by sounding an ominous 
note:

``In general, this continent has an immense significance. Whoever looks 
at Africa can see that it does not enjoy the interest, efforts, and 
activity it deserves in the war against the Crusaders. This is a 
continent with many potential advantages and exploiting this potential 
will greatly advance the jihad. It will promote achieving the expected 
targets of Jihad. Africa is a fertile soil for the advance of jihad and 
the jihadi cause.''

    While much has been made by some academics about the supposed lack 
of appeal which the jihadist ideology and approaches of al-Qaeda and 
ISIS exercise among different African peoples and communities, it is my 
contention that this analysis underestimates the attractive power of 
the reputation of these jihadist movements, especially when the 
extremist doctrine--for which years of ample propaganda by missionaries 
funded from abroad has prepared the terrain, however intentionally or 
unintentionally is associated with the apparent battlefield success--as 
was the case, for example, early on for ISIS--and harnessed to local 
grievances. In fact, the conflation of local concerns and global 
narratives has been an important milestone in the evolution of various 
African militant groups, providing the leaders with a platform 
whereupon to seek support and legitimacy above and beyond the confines 
of the struggle they had hitherto been engaged. This has clearly been 
the case with the transformation of the Algerian Groupe Salafiste pour 
la Predication et le Combat (GSPC, ``Salafist Group for Preaching and 
Combat'') into al-Qaeda in the Islamic Maghreb (AQIM)\3\ and Boko 
Haram's decision to pledge allegiance to ISIS and brand itself as 
Wilayat al Sudan al Gharbi (``[Islamic State] Province in the West Land 
of the Blacks,'' or ``Islamic State West Africa Province,'' ISWAP).\4\
---------------------------------------------------------------------------
    \3\ See J. Peter Pham, ``Foreign Influences and Shifting Horizons: 
The Ongoing Evolution of al-Qaeda in the Islamic Maghreb,'' Orbis 55, 
no. 2 (Spring 2011): 240-254; and idem, ``The Dangerous `Pragmatism' of 
Al-Qaeda in the Islamic Maghreb,'' Journal of the Middle East and 
Africa 2, no. 1 (January-June 2011): 15-29.
    \4\ See idem, ``Boko Haram: The Strategic Evolution of the Islamic 
State's West Africa Province,'' Journal of the Middle East and Africa 
7, no. 1 (2016): 1-18.
---------------------------------------------------------------------------
    It was clearly a mistake for many a decade ago to have dismissed 
Abu Azzam's analysis as devoid of operational effect and it would 
certainly be foolhardy to do so now. In fact, we are here today not 
only because this subcommittee has been commendably diligent in 
maintaining its vigilance, but because, in point of fact, Abu Azzam was 
very correct: Africa is indeed ``fertile soil for the advance of jihad 
and the jihadi cause.''
                  the current threat from north africa
    Since my esteemed colleagues whom the subcommittee has invited will 
delve deeply into the threat in North Africa posed by al-Qaeda, ISIS, 
and the affiliates, I will concentrate primarily on the threat from 
North Africa, focusing on the danger posed by these groups in and of 
themselves as well as in their competition with each other.
    With respect to North Africa itself, the Maghreb is home to some of 
the longest-running terrorist campaigns on the African continent, a 
situation that has become all the more combustible in recent years with 
the emergence of ISIS ``provinces'' amid the disintegration of Libya, 
alongside preexisting groups like AQIM and still other Islamist bands 
which emerged in the wake of the collapse of Muammar Gaddafi's 
dictatorship. The presence of jihadist entities on the very shores of 
the Mediterranean Sea is not just happenstance but also serves to 
emphasize--as, no doubt, the terrorists intend to underscore--not only 
the threat posed to the vital, but narrow, sea lanes nearby, but also 
the proximity of the violence to Europe itself. It is certainly a point 
that America and the other top advanced economies, when they convene 
for the Group of Seven (G7) summit in May, which meeting is focused on 
Africa this year, would do well to recall--and not simply, as some of 
our European partners would like, discuss the challenges of migration.
    Fortunately, commensurate with the challenges in this region, the 
international community also has solid allies with which to work on not 
just combatting terrorism, but countering its extremist roots. Notable 
among these partners is Morocco, a long-standing ``major non-NATO 
ally'' of the United States, whose aggressive, multi-pronged approach 
to countering radical ideology and terrorism has much to commend it as 
does the kingdom's efforts to assist other countries in North and West 
Africa in the same fight. The potential of the U.S.-Morocco Framework 
for Cooperation, signed during the U.S.-Africa Leaders Summit in 2014 
and aimed at developing Moroccan training experts as well as jointly 
training civilian security and counterterrorism forces with other 
partners in the Maghreb and the Sahel in recognizing a ``triangular'' 
approach, needs to be better appreciated and developed.
    Beyond the Maghreb itself, the Sahel, the belt connecting North 
Africa and West Africa, stretching from the Atlantic Ocean to the Red 
Sea and straddling ancient trade and migration routes, is an almost 
ideal environment for extremist groups with transnational ambitions, 
whether ISIS fighters smarting from defeats on the battlefields of Iraq 
and Syria or al-Qaeda militants seeking to reassert the preeminence of 
the organization within the global jihadist movement. The region is 
strategically important for several reasons, including its role as a 
bridge between the Arab Maghreb and black Sub-Saharan Africa as well as 
its important energy reserves, both renewable and non-renewable, and 
other natural resources. Moreover, the Sahel touches several 
countries--including Algeria, Nigeria, and Sudan--with serious security 
challenges of their own that could easily spill over their borders. In 
fact, some scholars have argued that the Sahara and the Sahel form ``a 
single space of movement'' which, for purposes of the geography of 
terrorism, ``should be considered as a continuum, something that the 
territorial approach of states and geopolitics prevents us from 
understanding''\5\--a point which policy makers and analysts would do 
well to take to heart. In point of fact, not only has the Sahel been 
for centuries literally the conduit over which arms, fighters, and 
ideologies have flowed back and forth across the Sahara, but it has 
clearly emerged in recent times as a battlespace in its own right.
---------------------------------------------------------------------------
    \5\ Olivier Walther and Denis Retaille, Sahara or Sahel? The Fuzzy 
Geography of Terrorism in West Africa (Luxembourg: CEPS/INSTEAD, 2010), 
11.
---------------------------------------------------------------------------
    The continuing threat posed by the various jihadist groups 
operating in the Sahel is the result of their exploitation of local 
conflicts, including social, economic, and political marginalization, 
as well as the fragile condition of many of the states affected, which 
is often manifested both in low capacity to resist overall and a 
tendency toward ham-fisted responses that aggravate grievances. In some 
cases, defeat spurs the extremists to adapt new strategies that result 
in renewed vigor, a good example being the fragmentation of AQIM's 
organization in the Sahel in the wake of the French-led intervention in 
Mali and the subsequent multiplication of factions, some of which, like 
the ethnic-Fulani (or Peul) Macina Liberation Front which freed nearly 
a hundred detained militants in a jailbreak in early December, are 
organized along ethnic lines that facilitate both the members' blending 
into local populations and their making further inroads among them.\6\ 
In other instances, the manifest failure to achieve political 
settlements propel the resurgence of otherwise weakened militant 
groups.
---------------------------------------------------------------------------
    \6\ The rise in militancy among some Fulani is not limited to the 
Sahel proper. There is growing evidence of a significant acceleration 
in attacks in Nigeria's Middle Belt. See 21st Century Wilberforce 
Initiative, Nigeria: Fractured and Forgotten (2016), available at 
http://www.standwithnigeria.org/wp-content/uploads/2016/06/Nigeria-
Fractured-and-Forgotten.pdf.
---------------------------------------------------------------------------
    Arguably the Sahel, rather than the Maghreb where, with the 
exception of Libya, there are strong states that have shown their 
ability to resist not only al-Qaeda, but also ISIS, encroachments, is 
the region in Africa most at risk, especially if hordes of battle-
hardened fighters return to the continent from the short-lived 
``caliphate'' in the Levant and link up with others of their ilk 
displaced from Sirte and other places on the Mediterranean littoral and 
increasingly making their way to the Fezzan and other points south.
    It is no accident that the Sahel is, if not the poorest, certainly 
one of the poorest majority-Muslim regions in the world. It is also 
home to the largest expanse of contiguous ungoverned spaces on the 
African continent: Many of the governments in the region are weak and 
their capacity to assert authority--much less provide real services--
beyond their capital cities and a smattering of urban centers is 
extremely limited. These fragile states present the jihadists both a 
vulnerability to exploit in the short term and an opportunity to create 
a new hub for operations over the long term.
    In Mali, for example, what started in late 2011 and early 2012 as a 
rebellion by the disaffected Tuareg population led to the overthrow of 
state authority in the country's three northernmost provinces with a 
combined territory the size of France and, following the 
marginalization of the ethnic separatists by their erstwhile allies 
from several jihadist groups, the entire area falling under the sway of 
AQIM. Only a timely French-led military intervention in early 2013 
forestalled the total collapse of the Malian state, although again, the 
situation remains fragile as the fact that the United Nations 
peacekeeping mission in the country is the deadliest on-going blue-
helmeted operation in the world underscores. Despite being mauled by 
Operation Serval and, subsequently, hounded by French and U.S. Special 
Operations Forces in the region, AQIM has bounced back to stage a 
series of deadly attacks last year, including spectacular hits on 
luxury hotels in two neighboring countries, Burkina Faso and Cote 
d'Ivoire, that had previously not been hit by terrorists. Burkina Faso 
suffered another attack in mid-December, with 12 members of the 
country's special anti-terrorism unit killed in an assault on a 
military base near the Malian border. Even where they may not currently 
pose an existential threat to the states affected, these attacks from 
deep in the Sahel can nonetheless have a disproportionate impact on 
their fortunes. Cote d'Ivoire may be heralded as Africa's new economic 
powerhouse, with a diversified economy and growth in 2016 of 8.5 
percent, the second-highest in the world, but more attacks like the one 
in last year by AQIM can still scare off foreign investors who are just 
beginning to discover the country's potential.
    The stakes are even higher for country like Nigeria. Africa's most 
populous country slipped into recession last year, losing the 
distinction it gained only 3 years ago as the continent's biggest 
economy, and continued insecurity from jihadist threats certainly do 
not help. After years of ceding ground to Boko Haram, so much so that 
by 2014 the group had consolidated its hold over a territory larger 
than Belgium and proclaimed a self-styled ``emirate,'' the Nigerian 
armed forces adopted a new strategy and began fighting back. While the 
counterattack began in the waning days of former President Goodluck 
Jonathan's administration, things really began to change after 
Muhammadu Buhari, a retired major-general and former military ruler, 
won a historic (and decisive) election victory over the incumbent in 
March 2015, in part by promising to defeat the militants. Cashiering 
his predecessor's military chiefs shortly after taking office, Buhari 
installed new commanders, including a chief of army staff, Lieutenant-
General Tukur Yusuf Buratai, who is a native of Borno, the epicenter of 
the insurgency, and moved command headquarters close to the fighting. 
Since then, in concert with a multinational force from neighboring 
countries, the Nigerian military has pursued an aggressive strategy, 
combining an intensive air campaign with a surge of troops on the 
ground, that gradually pushed Boko Haram out of the towns it had 
previously occupied and, increasingly, in remote hideouts like ``Camp 
Zero,'' the base in the remote Sambisa Forest that fell to government 
forces 2 days before Christmas last year.
    Along the way, as I had the opportunity to witness first-hand last 
November when I toured the battlefront, the Nigerian army also took on 
the task of not only providing security to the populations it liberated 
from the militants' dominion, but also, until aid groups and 
development organizations returned, providing humanitarian relief, 
medical assistance, and even education and livelihood training. For 
example, the civil-military operations carried out by battalion I spent 
time with in Pulka, a key crossroads town just a few kilometers from 
what were at the time Boko Haram positions in the Sambisa Forest, were 
critical not only to the well-being of the community, but served to 
rally the population to support the government's push against the 
militant group.
    Nevertheless, notwithstanding the success of the military 
operations, Boko Haram remains a force to be reckoned with. In response 
to the military defeats it has suffered, the militants shifted tactics, 
expanding their use of suicide bombings, most of which have targeted 
the civilian population. Meanwhile, the schism within Boko Haram, 
formally aligned with ISIS since early 2015, between those loyal to 
long-time leader Abubakar Shekau and those following Abu Musab al-
Barnawi, whom ISIS appointed as the new ``Governor'' (wali) of its 
``province'' last August, may be contributing to the intensification, 
rather than diminution, of violence as both factions try to outdo each 
other in staging attacks. In fact, there are strong indications that 
Barnawi's faction may be gaining momentum, aided not only by the 
defeats Shekau's factions have suffered at the hands of Nigerian 
forces, but also by fighters and other resources flowing to it thanks 
to the ISIS affiliation. Furthermore, to the extent that the militants 
have been weakened in Nigeria, they have spilled into neighboring 
countries, causing Cameroon and Niger, for example, to rise in the 2016 
edition of the Global Terrorism Index to 13th place and 16th place, 
respectively.
    A characteristic shared not only by ISIS-aligned groups in Africa 
like Boko Haram, but also al-Qaeda affiliates on the continent like 
AQIM and, further afield, Somalia's al-Shabaab, is their almost uncanny 
resilience, founded in part on the flexibility with which they can put 
aside differences and join forces in ever-shifting combinations. Just 
earlier this month, for example, several jihadist factions operating in 
Mali--Ansar Dine (``defenders of the faith''), the Sahara and al-
Murabitun (``people of the garrison'') branches of AQIM, and the Macina 
Liberation Front--announced their merger and pledged their allegiance 
to al-Qaeda leader Ayman al-Zawahiri. The new group, named Jama'at 
Nusrat al-Islam wal-Muslimeen (``group for the support of Islam and 
Muslims''), is to be headed by an ``emir,'' Iyad ag Ghaly, formerly 
leader of Ansar Dine and, before that, a leader in Tuareg rebellions 
against the Malian government going back to the 1980's. A week later, 
al-Zawahiri issued a statement of ``approval and blessing'' on the new 
group and expressed his hope that it would constitute ``an impregnable 
fortress against the enemies of Islam who have seen a reversal of the 
fortunes of the partisans of Islam and jihad.''
    While al-Qaeda-linked groups in the region have resisted ISIS 
incursions into territory they have long viewed as their own, there 
have been instances in which factions within the former have sought to 
align themselves with the latter. In late October 2016, for example, 
ISIS confirmed that it had accepted the allegiance of Abu Walid al-
Sahrawi, a former commander within al-Murabitun, who, along with 40 of 
his fighters, pledged themselves to Abubakar al-Baghdadi, who 
designated them his ``Greater Sahara'' division. What is interesting is 
that al-Sahrawi first made bay`a to the self-styled caliph more than a 
year earlier, but his oath of fealty was only accepted after he carried 
out string of attacks in the borderlands of Burkina Faso, Mali, and 
Niger. Thus an increase in violence could be the result as al-Qaeda and 
ISIS literally compete to outdo each other in the Sahel in the hopes of 
attracting recruits and other resources.
           recommendations for a comprehensive u.s. response
    This broad survey permits the drawing of several conclusions about 
the U.S. response to terrorism in Africa and the possible threats posed 
to U.S. persons and interests abroad as well as the American homeland, 
especially from jihadists coming out of North Africa.
    First, time and again, the mistake has been made to underestimate--
if not to discount entirely the threat faced. Part of this is 
attributable to an analytical bias to limit future possibilities to 
extrapolations from the past, a hermeneutical choice which ignores the 
dynamic potential which many terrorist organizations, especially in 
Africa, have exhibited time and again. Another part of the explanation 
is even more basic: The sheer lack of resources for Africa-related 
intelligence and analysis across the whole of the U.S. Government. 
Given the geopolitical, economic, and security stakes, the failure to 
invest more in dedicated institutions, personnel, training, and 
strategic focus as well as materiel and other resources is incredibly 
shortsighted.
    Second, with the exception of the Department of Defense, across the 
U.S. Government there is an artificial division of the continent that, 
quite frankly, is rejected not only by Africans, but is also unhelpful, 
a point I have consistently made.\7\ If one looks, for example, at the 
North African States which are usually grouped with those in the Near 
East, there are few compelling geopolitical, economic, or strategic 
reasons to do so except perhaps for Egypt. In point of fact, the 
overwhelming majority of the regional political, security, and 
commercial links extending to and from the other four countries of the 
Maghreb go north-south across the Sahara, not east-west toward the 
Levant. The adhesion of Morocco to the African Union earlier this 
year--itself the culmination of a long-time diplomatic effort and 
economic engagement--as well as the kingdom's request to join the 
Economic Community of West African States (ECOWAS) further reinforce 
the case for treating Africa as a whole within the U.S. Government. The 
reorganization of the National Security Council in the current 
administration, with the transfer of responsibility for the Maghrebi 
countries to the senior director for Africa, is a commendable move that 
needs to be followed across the whole of government.
---------------------------------------------------------------------------
    \7\ See J. Peter Pham, A Measured US Strategy for the New Africa, 
with a foreword by James L. Jones, Jr. (Washington, DC: Atlantic 
Council, 2016), available at http://www.atlanticcouncil.org/
publications/reports/a-measured-us-strategy-for-the-new-africa.
---------------------------------------------------------------------------
    Third, the U.S. Africa Command (AFRICOM), the geographic command 
responsible for implementing whatever military operations, including 
counterterrorism operations, are eventually deemed necessary on the 
African continent, whether by assisting African partners or taking 
direct action, has since its establishment been hampered to varying 
degrees by not-quite-adequate resources to carry out its ordinary 
assigned mission, to say nothing of extraordinary challenges which have 
arisen in recent years within its area of responsibility. While the 
successive AFRICOM commanders have stewarded what they had heroically, 
often adroitly juggling resources and priorities, clearly a more 
sustainable approach is required, even in the current challenging 
fiscal climate.
    Fourth, even accepting the necessary economies in areas other than 
military and homeland security as signaled in the administration's 
recent budget blueprint, it is still nothing short of mind-boggling 
that in Nigeria there is no U.S. diplomatic presence north of the 
capital of Abuja, which is located in that country's geographical 
center. Thus, the northern part of the West African country, home to 
more than 90 million predominantly Muslim people who would, by 
themselves, constitute Africa's third-most-populous country--and in the 
middle of the geopolitically sensitive Sahel region at that--has been 
entirely bereft of U.S. diplomatic presence (and the on-going 
intelligence and other monitoring capabilities that come with such a 
mission) ever since the consulate in Kaduna was closed in 1991, the 
exception being on those rare occasions when, with appropriate security 
assured, ad hoc forays from the embassy are authorized.
    Fifth, closely related to terrorism is the danger posed by lack of 
effective sovereignty that bedevils many African governments. Often the 
challenge first manifests itself in criminality, whether in the form of 
piracy and other brigandage or in that of trafficking, human or 
material. Moreover, the Sahel has seen an explosion in narco-
trafficking, both in terms of transshipments bound for Europe and other 
destinations and, even more worrisome, of deliveries for local 
consumption. For the United States, all this means that increasing 
vigilance against terrorism in Africa also requires greater investments 
in law enforcement capabilities focused on the continent, including 
enhanced analytical resources at home, more liaison personnel posted 
abroad, and stepping up efforts to build the capacity of our partners 
on the continent.
    Sixth, as America's relationships--diplomatic, security, economic, 
and cultural--with Africa as a whole and the individual countries on 
the continent expand and deepen--a positive development to be sure--an 
unfortunate downside is that the potential risk to U.S. persons and 
interests as well as to the homeland necessarily increases. Quite 
simply, the threats are there and, by its very nature, more engagement 
also increases exposure and vulnerability. The answer is not to curtail 
engagement since there are clear strategic imperatives for seeking to 
build these links, but to ensure that adequate resources are mustered 
to cope with the meet the rising demand across a whole range of sectors 
from civil aviation to ports to customs and immigration, etc., for 
intelligence about and security against threats originating in this 
dynamic region.
    Seventh, the challenge of African terrorism, especially out of 
North Africa, and any derivative threat to the United States cannot be 
addressed except in an integrated fashion, with solutions that embrace 
a broader notion of human security writ large--encompassing social, 
economic, and political development--which, often enough, also must 
transcend national and other artificial boundaries. This obviously is 
not and should not be a task for the United States alone, but is one 
which it is in America's strategic interest to play its part.
                               conclusion
    There is no doubt that ISIS--and al-Qaeda-affiliated groups in the 
northern part of Africa are poised to wreak considerable havoc across 
the continent as they seek to regroup in the ungoverned spaces of the 
Sahel, threatening not only the countries immediately impacted, but 
also affecting the interests and security of the United States and its 
allies across the region.
    Ironically, this comes at a time when the narrative on Africa in 
the United States has increasingly shifted toward a greater focus on 
the extraordinary opportunities on the continent. However, if this 
momentum is to be maintained and those opportunities grasped, the 
United States needs to redouble its own efforts and also work closely 
with its African partners to manage the challenges and overcome 
terrorism and other the threats to security which stand in the way to 
an incredibly promising future. As the President has repeatedly 
declared, halting the spread of radical Islamism and jihadist violence 
should be a cornerstone of the foreign policy of the United States and 
that ``all actions should be oriented around this goal, and any country 
which shares this goal will be our ally.''

    Mr. King. Dr. Pham, thank you once again for your testimony 
and very much appreciate it.
    Now our second witness is Dr. Geoff Porter. Dr. Porter is 
the president of North Africa Risk Consulting, a political and 
security risk analysis firm specializing exclusively in North 
Africa.
    From 2013 to 2016, Dr. Porter was an assistant professor at 
the U.S. Military Academy at West Point. He has made more than 
three dozen trips to Morocco, Algeria, and Tunisia, as well as 
multiple trips to Libya before and after the 2011 revolution 
that resulted in the overthrow of Colonel Gaddafi's regime.
    Dr. Porter has also briefed U.S. Ambassadors to Algeria, 
Tunisia, and Libya regarding political and security 
developments in those countries prior to assuming their posts.
    Dr. Porter, welcome you today, and you are recognized for 
your testimony. Thank you very much.

  STATEMENT OF GEOFF D. PORTER, PRESIDENT, NORTH AFRICA RISK 
                        CONSULTING, INC.

    Mr. Porter. Thank you, Chairman King.
    Chairman King, Ranking Member Rice, distinguished Members 
of the subcommittee, thank you for the opportunity to testify 
before you today. It is an honor to share with you my analysis 
of the threat posed by North African terrorism to the homeland 
and to U.S. National interests overseas.
    Terrorism in North Africa in recent years is entirely 
salafi jihadi in nature, or jihadi salafi in nature depending 
on how you want to define that term. The goal of these jihadi 
salafi organizations is to oust the political frameworks and 
leadership in the nation-states in which they operate.
    In addition, they want to erode the influence of the United 
States and its European allies in North Africa. The persistence 
of jihadi salafi terrorist organizations in North Africa poses 
a direct threat to U.S. interests abroad and an indirect and 
longer term threat to the homeland here in the United States.
    Jihadi salafi terrorist groups in North Africa can be 
divided into two large rubrics. There are those allied with al-
Qaeda and those that have pledged allegiance to the Islamic 
State. For al-Qaeda-affiliated groups and the Islamic State 
allies alike, the United States remains the enemy.
    With its on-going operations in Tunisia and its regroupment 
in the Sahara and the Sahel, al-Qaeda in the Islamic Maghreb is 
now the strongest terrorist organization in North Africa and 
poses the greatest threat to U.S. National interests in the 
region.
    The Islamic State suffered a severe setback in North Africa 
due to the loss of its bastion in Sirte, Libya. There 
reportedly have been fewer squirters from the Sirte offensive 
than anticipated. Those that did escape are dispersed 
throughout Libya and northern Niger. In addition, there are 
Islamic State sympathizers in Morocco and Mali.
    Although North Africa and the Sahara are not strategic 
regions for the United States, jihadi salafi terrorist 
organizations threaten the United States in three ways. North 
African terrorist organizations will target the U.S. Government 
when they can. In addition to the U.S. diplomatic corps, the 
United States has soldiers, sailors, Marines, and airmen in 
North Africa who are high-value targets for jihadi salafi 
terrorists.
    In addition to government personnel, jihadi salafi groups 
threaten U.S. citizens in North Africa. AQIM and the Islamic 
State's willingness to kill civilians is well-documented. It is 
due to a combination of vacationing patterns, limited U.S. 
foreign direct investment in North Africa, and sheer luck that 
more Americans have not been killed by salafi jihadi groups in 
North Africa.
    The operations of U.S. companies in North Africa are also 
vulnerable to jihadi salafi terrorism. Numerous U.S. companies 
have investments and activities in North Africa, particularly 
in the oil and gas sector, but also in petrochemicals, 
telecoms, defense, pharmaceuticals, and renewables.
    A terrorist attack, regardless of whether it directly 
targets a U.S. company or the private sector in general, 
disrupts commercial activity and erodes value of U.S. 
corporations.
    Nevertheless, the threat posed by North African terrorist 
organizations to Europe is greater than the threat they pose to 
the United States because of geographic proximity, colonial 
legacies, linguistic facility, and the commonality of dual 
nationalities among European and North African countries.
    Even so, like any other group around the globe, jihadi 
salafis are mobile. What this means is that even though jihadi 
salafi groups in North Africa may not pose a direct threat to 
the United States because they do not have the operational 
capacity to do so, or because it is not a strategic priority 
for them, individual North African jihadi salafis can 
contribute to the capabilities of other jihadi salafi groups 
outside North Africa that do have the capacity and the 
intention to target the United States.
    Moreover, if groups are left unmolested, they will evolve 
to the--and their capacity to plan and train will grow, 
potentially to the point where attacking the U.S. homeland is 
not out of reach.
    Since 2013, the United States has employed a new model for 
counterterrorism operations in North Africa that relies on 
logistical and ISR support to allies, BPC programs, and the 
limited use of SOF to advise, assist, and accompany local 
forces, and find, fix, and finish high-value targets.
    This approach's constant pressure slows the evolution of 
terrorist groups and prevents them from gaining the 
capabilities that could ultimately allow them to target the 
homelands. Despite the new approach's advantages, military 
solutions never eliminate terrorism.
    It is equally important to address the underlying 
conditions that lead to the emergence and continuation of 
terrorist organizations in North Africa. One of the fundamental 
drivers of jihadi salafi terrorism is the sense of injustice 
and the belief that the implementation of a salafi 
interpretation of Islam via jihad will ensure Muslim social 
justice.
    There is a justifiable and a quantifiable perception that 
the playing field in North Africa, the Sahara, and the Sahel is 
uneven. If injustice fuels the jihadi salafi narrative, then 
that narrative burns bright in North Africa. Considering its 
historical commitment to justice and good governance, the 
United States should work through aid and development programs 
to reduce North African deficits in those areas.
    Removing terrorists from the battlefield downrange only 
retards the group's evolution. To truly secure the homelands, 
the United States must address the underlying causes of North 
African terrorism, chief among of them injustice and lack of 
rule of law. Thank you very much.
    [The prepared statement of Dr. Porter follows:]
                 Prepared Statement of Geoff D. Porter
                             March 29, 2017
    Chairman King, Ranking Member Rice, and distinguished Members of 
the subcommittee, thank you for the opportunity to testify before you 
today. My name is Geoff Porter. I am the president of North Africa Risk 
Consulting, the political and security risk analysis firm specializing 
exclusively in North Africa. North Africa Risk Consulting provides 
analysis of evolving political and security contexts in Algeria, Libya, 
Mauritania, Morocco, and Tunisia to private sector corporations and 
different U.S. Government agencies and departments. In addition, from 
2013-2016, I was an assistant professor at the United States Military 
Academy at West Point in the Department of Social Sciences and an 
instructor with the Combating Terrorism Center. In my capacity as 
president of North Africa Risk Consulting and previously as a faculty 
member at West Point, I made more than three dozen trips to Morocco, 
Algeria, and Tunisia, as well as multiple trips to Libya before and 
after the 2011 revolution that resulted in the overthrow of Col. 
Muammar Qadhafi's regime. I have had the good fortune of having briefed 
U.S. Ambassadors to Algeria, Tunisia, and Libya regarding political and 
security developments in those countries prior to their assuming their 
posts. It is a privilege and an honor to share my analysis of the 
threat posed by terrorism in North Africa with you.
                       terrorism in north africa
    Terrorism in North Africa in recent years is entirely jihadi salafi 
in nature. Although there are differences among jihadi salafi terrorist 
organizations, they all stem from an interpretation of Islam that 
argues that there is a very narrow canon from which Islamic tenets and 
duties should be derived and that among those tenets and obligations is 
the duty to confront by any means necessary non-Muslims or Muslims that 
these organizations deem to be insufficiently religious. The goal of 
these jihadi salafi organizations is inherently political. They want to 
oust the political leadership in the nation-states in which they 
operate because that leadership does not share their same 
interpretation of how political systems should operate. In addition, 
they want to erode the influence of the United States and its European 
allies in areas in which they operate.
    The persistence of jihadi salafi terrorist organizations in North 
Africa poses a direct threat to U.S. National interests overseas and an 
indirect and longer-term threat to the homeland. For al-Qaeda 
affiliated groups and Islamic State allies alike, the United States 
remains the enemy.
    Jihadi salafi terrorist groups in North Africa can be divided into 
two large rubrics. There are those allied with al-Qaeda, which 
continues to be led by Ayman al-Zawahiri. And there are those who have 
pledged allegiance to the Islamic State under the leadership of Abu 
Bakr al-Baghdadi. Tactical disagreements and different loyalties keep 
these two groups apart, but there is slippage between them and 
individuals and affiliates move back and forth.\1\
---------------------------------------------------------------------------
    \1\ Thomas, Dominique, ``Etat islamique vs. Al-Qaida : autopsie 
d'une lutte fratricide,'' Politique etrangere, N. 1, printemps 2016.
---------------------------------------------------------------------------
Defining North Africa
    The definition of North Africa can vary from one institution to 
another. For some U.S. agencies, North Africa includes not only the 
conventional Maghreb countries (Algeria, Libya, Mauritania, Morocco, 
Tunisia), but also Saharan and Sahelian countries (Burkina Faso, Chad, 
Mali, Niger, Nigeria, Senegal). For the purposes of this examination of 
the threat posed by terrorism in North Africa, the definition of North 
Africa will be a hybrid of regional stakeholders' own definition of 
North Africa as ``the Maghreb'' and North African terrorist 
organizations' definition of their area of operations, which includes 
Burkina Faso, Chad, Mali, and Niger.\2\ This definition accommodates 
the cross-border, transnational nature of terrorist organizations and 
of the diplomatic and military approaches adopted to combat it by the 
United States, France, and regional governments.
---------------------------------------------------------------------------
    \2\ http://www.maghrebarabe.org/ar/.
---------------------------------------------------------------------------
Al-Qaeda and Affiliated Groups
    In January 2017, al-Qaeda's regional affiliation, al-Qaeda in the 
Islamic Maghreb, or AQIM, marked its 10th anniversary. AQIM emerged in 
moment of desperation out of a pre-existing salafi nationalist 
terrorist organization (the Salafist Group for Preaching and Combat, or 
GSPC) that was increasingly without a viable mission.\3\ The GSPC was 
dedicated to fighting the Algerian government allegedly in order to 
restore the aborted 1991 legislative elections. By 2004, the government 
and the Algerian population had moved on and were focused on restoring 
peace and stability. The GSPC's leader in 2005, Abdelmalek Droukdel, 
initiated the process whereby the GSPC first became formally affiliated 
with al-Qaeda, and then in 2007 announced that it had become AQIM.\4\ 
Over the course of the last 10 years, AQIM's strategy, tactics, and 
area of operations have evolved, responding to changes in the broader 
jihadi movement and to political and security developments in the 
region.
---------------------------------------------------------------------------
    \3\ Porter, Geoff D., ``AQIM Ten Years On,'' The Cipher Brief, 12 
January 2017.
    \4\ Tawil, Camille, Brothers in Arms: The Story of al-Qa`ida and 
the Arab Jihadists (London: Saqi, 2011), trans. Robin Bray.
---------------------------------------------------------------------------
    Droukdel remains the organization's leader, but it has expanded its 
operations beyond just Algeria to include a broad swath of North 
Africa. In fact, its operations in Algeria itself are curtailed and the 
group has struggled recently to remain relevant in the Algerian 
context. That being said, as evinced by the 18 March 2016 attack 
against the In Salah Gas asset at Krechba, AQIM retains some domestic 
support in Algeria and still has the capacity to carry out episodic 
strikes against high-value targets, especially far from urban centers 
where security measures are less rigorous.\5\
---------------------------------------------------------------------------
    \5\ Hadjer Guenanfa, ``Attaque contre le site gazier de Krechba: la 
piste d'un terroriste de la region,'' Tout sur l'Algerie, 22 March 
2016.
---------------------------------------------------------------------------
    AQIM's evolution has not been seamless and the organization has 
experienced schisms and leadership fracture. In particular, in 2012 
Droukdel quarreled with one of his commanders in northern Mali, and 
that commander, Mokhtar Belmokhtar, quit AQIM to form his own 
organization, al-Mourabitoun, made up of AQIM fighters as well as 
fighters from the Movement for Unity in Jihad in West Africa or MUJAO 
(Fr. Mouvement pour l'unicite et le jihad en Afrique de l'Ouest.)\6\ 
Four months after its formation, a heavily-armed platoon of al-
Mourabitoun fighters attacked the Tigantourine Gas Plant at In Amenas 
in Algeria. The attackers originated in northern Mali, transited 
eastward across the country, passed through northeastern Niger, and 
entered southwestern Libya where they staged their operation. The 
attackers subsequently crossed Algeria's border and attacked the gas 
facility. More than 3 dozen expatriates were killed at the site, 
including 3 U.S. citizens.\7\
---------------------------------------------------------------------------
    \6\ Ould Salem, Lamine, Ben Laden du Sahara. Sur les traces du 
jihadiste Mokhtar Belmokhtar (ed. de La Martiniere, 2014).
    \7\ Statoil, In Amenas Investigation Report (2013).
---------------------------------------------------------------------------
    Following the In Amenas attack, al-Mourabitoun went to ground, 
possibly as a result of having lost so many men in the attack, but also 
because it was being doggedly hunted. From January 2013 to July 2014, 
France had deployed roughly 4,000 troops as part of Operation Serval 
whose objective was to stabilize northern Mali in the wake of a jihadi 
salafi offensive. The French presence on the ground and its assets in 
the air hindered Belmokhtar and al-Mourabitoun's movements.
    In the aftermath of the 2011 Libyan revolution, AQIM also tried to 
make inroads among jihadi salafi groups in Libya, including with Ansar 
al-Sharia, the jihadi salafi group involved in the attack against the 
U.S. compound in Benghazi.\8\ Belmokhtar was allegedly charged with 
initiating relations between AQIM and Ansar al-Sharia.\9\ While 
Belmokhtar's overtures were likely well-received, they did not result 
in any operational coordination between AQIM and Ansar al-Sharia. Ansar 
al-Sharia itself has since been absorbed into other jihadi salafi 
organizations in Libya, including the Mujahids' Shura Council Darna and 
the Mujahids' Shura Council Benghazi.\10\ Libya's descent into civil 
war by late 2014 and the emergence of the Islamic State in Sirte in 
2015 both undermined Ansar al-Sharia's on-going viability. As a result, 
AQIM does not have a sustained presence in northern Libya. It is 
likely, though, that al-Mourabitoun continue to have a limited presence 
in southwestern Libya.\11\
---------------------------------------------------------------------------
    \8\ Rogers, Mike, and Ruppersberger, Dutch, Investigative Report on 
the Terrorist Attacks on U.S. Facilities in Benghazi, Libya, September 
11-12, 2012, U.S. House of Representatives Permanent Select Committee 
on Intelligence, 21 November 2014.
    \9\ Remi Carayol, ``Mokhtar Belmokhtar, le parrain du Sahelistan,'' 
Jeune Afrique, 4 February 2015.
    \10\ Lacher, Wolfram, ``Libya: A Jihadist Growth Market,'' in 
Jihadism in Africa: local causes, regional expansion, international 
alliances, Steinberg, Guido and Weber, Annette, eds. Stiftung 
Wissenschaft und Politik-SWP-Deutsches Institut fur Internationale 
Politik und Sicherheit, 2015.
    \11\ ``al-Barghathi; 'Daech' yu'amalu 'ala `i'ada tajmu'a sufufahu 
wa tamarkazatahu fi janub libiya,'' khabar libiya, 4 March 2017.
---------------------------------------------------------------------------
    While AQIM failed to maintain a presence in Libya, it has had 
greater success with its Tunisian affiliate, the Uqba Ibn Nafi Brigade, 
which was established by an emissary who had been sent to Tunisia by 
Droukdel in 2011. The Uqba Ibn Nafi Brigade is contained in western 
Tunisia along the border with Algeria and it closely adheres to AQIM's 
tactics, techniques, and procedures, avoiding attacks on civilians and 
targeting Tunisian security services.
    In November of 2015, al-Mourabitoun rejoined AQIM, although a 
faction of al-Mourabitoun led by Abu Walid al-Sahraoui had earlier 
pledged allegiance to the Islamic State and created the Islamic State 
of the Grand Sahara.\12\ The return of al-Mourabitoun was a triumph for 
Droukdel and it reestablished AQIM's prominence as the leading jihadi 
salafi organization in North Africa, the Sahara, and the Sahel.
---------------------------------------------------------------------------
    \12\ Memier, Marc, ``AQMI et al-Mourabitoun: Le djihad sahelien 
reunifie'' Etudes de l'Ifri, January 2017.
---------------------------------------------------------------------------
    Droukdel has recently further consolidated AQIM's position in 
Saharan and Sahelian countries. A communique on 2 March 2017 announced 
the regrouping of disparate but related jihadi salafi groups in North 
Africa. The announcement was made by Iyad Ag Ghali, the leader of Ansar 
Dine, a local front for AQIM in Mali. Ag Ghali was accompanied by AQIM 
commander Yahya Abu Hammam, al-Mourabitoun second-in-command Hassan al-
Ansari, Amadou Koufa, the leader of the Macina Brigade (Ansar Dine's 
Peul battalion), and Abderrahmane Sanhaji, an AQIM legal scholar.\13\ 
Ag Ghali declared that the group was now ``Islam and Muslims' Victory 
Group'' and that it remained loyal to al-Qaeda's leader Ayman Zawahiri 
and AQIM's emir Abdelmalik Droukdel.\14\ With the regrouping, AQIM is 
able to reestablish its unified presence in Algeria, Burkina Faso, 
Chad, Libya, Mali, Niger, and Tunisia.\15\
---------------------------------------------------------------------------
    \13\ Mohamed Fall Oumere, ``De la naissance d'un nouveau 
`djihadistan` au Sahel,'' Le Monde, 10 March 2017.
    \14\ Amin Muhammad `Amad, ``ikhtiyar iyad agh ghali 'amiran li 
jama'a 'jama'a nusrah al-islam wa al-muslimin,'' al-salam al-yum, 4 
March 2017.
    \15\ ``iyad agh ghali `mullah `umar' mantiqah al-sahil wa al-
sahra','' al-'akhbar al-mauritaniyah 6 March 2017.
---------------------------------------------------------------------------
The Islamic State and Affiliated Groups
    In 2013, Abu Bakr al-Baghdadi, the leader of the Islamic State, 
sent a mission to Libya to assess the possibility of establishing an 
Islamic State presence in the country.\16\ By 2014, a coalition of 
different jihadi salafi groups in Derna pledged allegiance to the 
Islamic State and by June 2015, the Islamic State controlled most of 
the central coastal city of Sirte.\17\ Reports regarding the number of 
Islamic State fighters in Sirte varied considerably with some sources 
citing 3,000 fighters and others as many as 12,000.\18\ While in 
control of Sirte, the Islamic State tried to impose its own perverse 
interpretation of Islamic law on the town's population, but the Islamic 
State in Libya was never self-sufficient and remained dependent upon 
the Islamic State in Iraq and Syria for financial support.\19\
---------------------------------------------------------------------------
    \16\ Porter, Geoff D. ``How Realistic is Libya as an Islamic State 
`Fallback' '' CTC Sentinel, Vol. 9 Issue 3, March 2016.
    \17\ Ibid.
    \18\ Ibid.
    \19\ Ibid.
---------------------------------------------------------------------------
    The Islamic State had also attempted to make inroads elsewhere in 
North Africa. In September 2014, a new group, the Caliphate's Soldiers 
in the Land of Algeria, captured a French tourist in the mountains to 
the southeast of the capital Algiers. The group announced its 
allegiance with the Islamic State and declared that it would kill its 
hostage if its demands were not met. Algeria does not negotiate with 
terrorists and the group murdered the Frenchman. While Algeria has 
reckoned with AQIM for more than 10 years, it would not tolerate the 
emergence of an Islamic State ally within its borders. By December 
2014, Algerian security services had largely eradicated the group, 
including eliminating its leader Khaled Abou Suleimane.\20\ There have 
been intermittent attempts to carry out attacks in subsequent years by 
individuals and cells claiming to be Islamic State members, but these 
have been largely unsuccessful. The most recent attack in the eastern 
Algerian city of Constantine was foiled.\21\
---------------------------------------------------------------------------
    \20\ Imene Brahimi, ``RECIT. Abdelmalek El Gouri: trois mois de 
traque sans relache,'' Tout sur l'Algerie, 23 December 2014.
    \21\ Faycal Metaoui, ``Attentat a Constantine: Le terroriste 
abattu,'' El Watan, 26 February 2017.
---------------------------------------------------------------------------
    There was also an uneven attempt to establish an Islamic State 
group in Tunisia which labeled itself the Caliphate's Soldiers. In 
March 2015, three Islamic State gunmen attacked the Bardo Museum in 
Tunis.\22\ The Islamic State also claimed responsibility for an attack 
carried out by a lone gunman in June 2015 near the resort town of 
Sousse and for an attack on the Presidential guard in Tunis, 
Tunisia.\23\ In March 2016, there was a 3-day gun battle in the 
Tunisian border town of Ben Guerdane that seems to have been 
precipitated by the U.S. bombing of an Islamic State training camp in 
Sabratha, Libya.\24\ Tunisian members of the Islamic State in Libya had 
been planning to capture and hold Ben Guerdane but may have accelerated 
their attack in the aftermath of the Sabratha bombing.
---------------------------------------------------------------------------
    \22\ ``Tunisie: les terrorists auraient ete formes par le groupe El 
en Libye,'' RFI Afrique, 20 March 2015.
    \23\ ``l'Etat islamique revendique l'attentat contre la police en 
Tunisie,'' Le Monde, 25 November 2015.
    \24\ Declan Walsh, Ben Hubbard, and Eric Schmitt, ``U.S. Bombing in 
Libya Reveals Limits of Strategy Against ISIS,'' The New York Times, 19 
February 2016.
---------------------------------------------------------------------------
    The battle of Ben Guerdane, however, underscores an important 
aspect of the Islamic State threat in Tunisia: Almost all Islamic State 
activities in Tunisia have had a Libyan component. Since the Ben 
Guerdane assault and the Islamic State's subsequent loss of Sirte, 
Libya, the Islamic State's activities in Tunisia have been more 
sporadic and the group's capacity in Tunisia is diminished. Recent 
Islamic State attacks in Tunisia have focused on the Tunisian security 
services and Tunisia has not suffered a large-scale Islamic State 
attack in more than a year.
    At the same time, however, the Islamic State has expanded 
southward, at least in name. In May 2015, a former MUJAO leader in 
Mali, Adnane Abou Walid el-Sahraoui, who had joined al-Mourabitoun, 
split with Belmokhtar, pledged allegiance to Abu Bakr al-Baghdadi and 
formed the Islamic State in the Grand Sahara.\25\ In the following 
months, el-Sahraoui was quiet, some suspecting he had been wounded in a 
clash with al-Mourabitoun loyalists.\26\ El-Sahraoui re-emerged in May 
2016, threatening to undertake attacks against Morocco and U.N. 
personnel stationed in the disputed territory of Western Sahara.\27\ No 
such attack ever transpired and over the last 6 months el-Sahraoui's 
group has carried out only a handful of small-scale attacks against 
soft targets in Burkina Faso and Mali.
---------------------------------------------------------------------------
    \25\ ``Sahel: un chef d'Al-Mourabitoun prete allegegance a 
l'organisation de l'Etat islamique,'' France24, 15 May 2015.
    \26\ Aziz M., ``Urgent: L'emir d'al-Mourabitoun gravement blesse 
dans des affrontements,'' El Watan, 17 June 2015.
    \27\ Imad Stitou, ``Qui est Abou Walid as-Sahraoui qui menace de 
terroriser le Maroc,'' Le Desk, 4 May 2016.
---------------------------------------------------------------------------
    El-Sahraoui's inability to hit Morocco is all the more curious 
because there appears to be a deep well of sympathy for the Islamic 
State in Morocco. Moroccans constituted the third-largest nationality 
to join the Islamic State in Iraq and Syria (smaller only than Saudi 
Arabia and Tunisia).\28\ At home, Moroccan security services have 
disrupted an Islamic State plot or arrested an alleged Islamic State 
cell almost once a month, every month for the last 2 years. Why there 
is so much support for the Islamic State in Morocco may be due to the 
monarchy's overt effort to enforce a state version of Islam. Islamic 
State supporters bristle at a monarch who they view as corrupt claiming 
the mantle ``Commander of the Faithful'' and imposing an interpretation 
of Islam on them.\29\ The Islamic State's Moroccan appeal extends 
beyond Morocco's borders into Europe. The November 2015 Paris attacks 
and the March 2016 Brussels attacks, both claimed by the Islamic State, 
each had Moroccan elements.\30\
---------------------------------------------------------------------------
    \28\ Dodwell, Brian, Milton, Daniel, & Rassler, Don, The 
Caliphate's Global Workforce: An Inside Look at the Islamic State's 
Foreign Fighter Paper Trail, The Combating Terrorism Center at West 
Point, April 2016.
    \29\ Ilhem Rachidi, ``Mohamed Tozy: `Le Maroc a parie sur une sorte 
de salafisme implicite','' Le Desk, 22 July 2016.
    \30\ Paul Cruickshank, ``The inside story of the Paris and Brussels 
attacks,'' CNN, 30 March 2016.
---------------------------------------------------------------------------
                          assessing the threat
    Jihadi salafi terrorist groups in North Africa undoubtedly pose a 
threat to U.S. National interests overseas and, even though they pose 
no immediate risk to U.S. homeland, they could threaten the homeland 
over the longer term. Importantly, as is true of all terrorist 
organizations, neither al-Qaeda allied groups nor Islamic State 
affiliates distinguish between civilian and official targets. U.S. 
Government personnel, U.S. citizens, and U.S. corporations are all seen 
as legitimate targets.
The Threat to National Interests Overseas
    With its on-going operations in Algeria and Tunisia and its 
``regroupment'' in the Sahara and Sahel, AQIM is now the strongest 
terrorist organization in North Africa with the biggest footprint and 
poses the greatest threat to U.S. National interests in the region. Its 
``regroupment'' theoretically allows it to eliminate redundancies among 
formerly disparate groups, conserve and share resources, and coordinate 
training and planning.
    In contrast, the Islamic State suffered a severe setback in North 
Africa due to the loss of its bastion in Sirte. There have reportedly 
been fewer ``squirters'' from the Sirte offensive than anticipated and 
smaller numbers of Islamic State fighters managed to escape the city 
than was expected. Those that did escape are dispersed throughout Libya 
and northern Niger. Their current capabilities are uncertain, but they 
lost or expended a large amount of materiel in their campaign to defend 
Sirte and in subsequent airstrikes against training camps and other 
locations.\31\ In addition, it will take them time to establish 
networks in new local communities that will enable them to function 
more fluidly. That being said, there is no doubt that Islamic State 
fighters cling to jihadi salafi ideology and still harbor a desire to 
attack U.S. and U.S.-related targets. For the moment, though, Islamic 
State attacks in North Africa will be more opportunistic than 
calibrated.
---------------------------------------------------------------------------
    \31\ North Africa Risk Consulting, NARCO Analysis: Why the US 
bombed ISIS in Libya, 19 January 2017.
---------------------------------------------------------------------------
    Although North Africa and the Sahara are not strategic regions for 
the United States, there are three main categories where U.S. National 
interest can be endangered by terrorist organizations: U.S. Government 
personnel, U.S. private citizens, and U.S. businesses.
            U.S. Government Personnel
    In 2012, Ansar al-Sharia participated in an attack in Benghazi, 
Libya that resulted in the deaths of four U.S. Government 
personnel.\32\ Although the circumstances around the attack are 
unlikely to be replicated elsewhere in North Africa, it was a sharp 
reminder that North African terrorist organizations will target the 
U.S. Government when they can. In addition to the U.S. diplomatic 
corps, the United States has soldiers, sailors, marines, and airmen in 
North Africa who are high-value targets for jihadi salafi groups. The 
risks to U.S. service members were underscored in an episode in 
December 2015 during which a team of U.S. Special Forces was 
interdicted by a Libyan militia.\33\ The militia was not a terrorist 
organization and the team exfiltrated the country without further 
incident, but the confrontation could have easily ended very 
differently. Further to the south in Niger, a U.S. soldier died while 
supporting Nigerien counterterrorism operations.\34\
---------------------------------------------------------------------------
    \32\ Op Cit., Ft. 7.
    \33\ Chris Stephen, ``Secret US mission in Libya revealed after air 
force posted pictures,'' The Guardian, 17 December 2015.
    \34\ Alex Horton, ``Special Forces soldier dies in accident in 
Niger,'' Stars and Stripes, 11 February 2017.
---------------------------------------------------------------------------
            U.S. Citizens
    In addition to U.S. diplomats and members of the armed services, 
the on-going presence of jihadi salafi groups in North Africa threatens 
U.S. citizens in the region. AQIM and the Islamic State's willingness 
to kill civilians is well-documented. In April 2011, a jihadi salafi 
bomber in Marrakech, Morocco killed 17 civilians, including 15 
Europeans.\35\ In January 2013, 37 expatriates were killed, including 
three U.S. citizens, when al-Mourabitoun attacked the Tigantourine Gas 
Facility at In Amenas, Algeria.\36\ In January 2015, a U.S. citizen 
(and U.S. Marine veteran) was killed in an Islamic State attack in 
Tripoli, Libya.\37\ In March 2015, Islamic State gunmen killed 22 
civilians, including 21 from Europe, Japan, and Latin America, at the 
Bardo Museum in Tunis, Tunisia.\38\ In June 2015, an Islamic State 
gunman killed 38 civilians and wounded 37 at Port El Kantaoui, Tunisia. 
The victims were predominantly from the United Kingdom.\39\ On 20 
November 2015, AQIM and al-Mourabitoun attacked a hotel in Bamako, 
Mali, killing 20 civilians, including a U.S. citizen.\40\ In January 
2016, AQIM attacked a hotel and cafe in Ouagadougou, Burkina Faso, 
killing 30 civilians, including one U.S. citizen.\41\ In March 2016, 
AQIM attacked a beachfront hotel in Grand-Bassam, Ivory Coast, killing 
19 civilians.\42\ It is due to a combination of vacationing patterns, 
limited U.S. foreign direct investment in the region, and luck that 
more U.S. citizens have not been killed by jihadi salafi organizations 
in North Africa over the last decade.
---------------------------------------------------------------------------
    \35\ ``Attentat de Marrakech: au moins six Francais tues'' Le 
Monde, 29 April 2011.
    \36\ Porter, Geoff D., ``The Eradicateurs'' Foreign Policy, 18 
January 2013.
    \37\ ``RIP to a friend--MARSOC Marine'' SOCNET, The Special 
Operations Community Network.
    \38\ Frida Dahmani, ``Attentat du Bardo: le musee de l'horreur,'' 
Jeune Afrique, 24 March 2015.
    \39\ The Tunisia Inquests (2017).
    \40\ ``L'attentat de Bamako reveille le spectre de 
`l'insaisissable' Mokhtar Belmokhtar,'' France24 23 November 2015.
    \41\ ``Ce que l'on sait de l'attaque terroriste a Ouagadougou,'' Le 
Monde 15 January 2016.
    \42\ ``Cote d'Ivoire: Aqmi devoile les objectifs de son attentat a 
Grand-Bassam,'' RFI, 15 March 2016,
---------------------------------------------------------------------------
            U.S. Corporations
    The operations of U.S. companies in North Africa are also 
vulnerable to jihadi salafi terrorism.\43\ Numerous U.S. companies have 
investments and activities in North Africa, particularly in the oil and 
gas sector. ExxonMobil has oil and gas assets in Libya and Chad. A 
consortium of three other prominent U.S. oil companies also operates in 
Libya.\44\ Still other U.S. energy companies have assets in 
Algeria.\45\ In addition, a U.S. energy company recently made a 
promising gas discovery in Mauritania.\46\ U.S. companies are also 
involved in other sectors throughout North Africa, including 
petrochemicals, telecoms, defense, pharmaceuticals, and renewables.
---------------------------------------------------------------------------
    \43\ Porter, Geoff D., ``Terrorist Targeting of the Libyan Oil and 
Gas Sector,'' CTC Sentinel, Vol. 8, Issue 2, February 2015.
    \44\ U.S. Energy Information Administration, Libya, https://
www.eia.gov/beta/international/country.cfm?iso=LBY.
    \45\ U.S. Energy Information Administration, Algeria, https://
www.eia.gov/beta/international/country.cfm?iso=DZA.
    \46\ Michael Stothard, ``Gas find on Mauritania-Senegal border 
comes with challenges,'' Financial Times, 15 April 2016.
---------------------------------------------------------------------------
    Although the value of U.S. corporate activity in North Africa is 
dwarfed by that in Central America or South East Asia, North Africa is 
nonetheless an important market that creates value for American 
enterprises. A terrorist attack, regardless of whether it directly 
targets U.S. companies or the private sector in general, disrupts 
commercial activity and erodes value for U.S. corporations. There is 
the possibility of the loss of life and the destruction of hard assets. 
There are costs associated with lost productivity due to country 
evacuations in the wake of terrorist attack. Finally, the existence of 
a terrorist threat compels corporations to shoulder additional security 
and insurance costs. If the threat is deemed serious enough, costs 
become unsustainable and U.S. companies will abandon opportunities in 
North Africa.
The Threat to the Homeland
    Threat posed by North African terrorist organizations to Europe is 
greater than the threat they pose to the United States. There are 
multiple reasons for this having to do with geographic proximity, 
colonial legacies, linguistic facility, and the commonality of dual-
nationality among European and North African countries.\47\
---------------------------------------------------------------------------
    \47\ Reinares, Fernando, ``Avatares del terrorismo yihadista en 
Espana,'' Real Instituto Elcano, 3 February 2017.
---------------------------------------------------------------------------
    No terrorist organization in North Africa currently has the 
capacity to undertake attacks in the United States. Jihadi salafi 
terrorist organizations in many senses are no different than any other 
organization, terrorist or otherwise. Jihadi salafi groups calculate 
the most effective ways to allocate finite resources with the greatest 
likelihood of success. In the case of North African terrorist 
organizations, this means that if they do intend to carry out attacks 
against targets outside their area of operations, then they are most 
likely to attempt attacks in Europe. In fact, given the target-rich 
environment in which they operate in North Africa and given the 
proximity of Europe, jihadi salafi terrorist organizations in North 
Africa are more likely to carry out attacks in North Africa and Europe 
than they are in the United States.
    Because of the historical legacy of colonial occupation by France, 
North African jihadi salafis from Algeria, Mali, Mauritania, Morocco, 
Niger, and Tunisia are likely to have greater familiarity with French 
than English and are more likely to be able to establish networks among 
North African diaspora communities in Europe than they are in the 
United States. In fact, in a communique commending the formation of 
``The Islam and Muslims' Victory Group'' earlier in March 2017, 
Abdelmalek Droukdel, the commander of AQIM, declared that ``Muslims 
want to export war from their lands to France.''\48\
---------------------------------------------------------------------------
    \48\ ``AQMI menace `d'exporter la guerre en France,'' 
alakhbar.info, 17 March 2017.
---------------------------------------------------------------------------
    Similarly, because of Italy's colonial presence in Libya and the 
subsequent U.K. presence after World War II, Libyan jihadi salafis are 
more likely to have familiarity with and potential networks in Italy 
and the United Kingdom rather than in the United States. Last, because 
of its geographic proximity and because of the size of the Moroccan 
diaspora population, Moroccan jihadi salafis are also more likely to 
privilege Spanish over American targets.\49\
---------------------------------------------------------------------------
    \49\ ``Tres detenidos en Barcelona y Valencia en un Nuevo golpe 
contra el yihadismo,'' El Pais, 22 March 2017.
---------------------------------------------------------------------------
    Nevertheless, like any other group around the globe, jihadi salafis 
are mobile. Individuals from one group in one region join another group 
in another region. The 2009 plot to explode an airplane over Detroit, 
Michigan was undertaken by a Nigerian from Kaduna who had joined al-
Qaeda in the Arabian Peninsula in Yemen and was being directed by the 
American Anwar al-Awlaki.\50\ In 2012, Libyans who had traveled to 
Syria formed the Battar Brigade, which later pledged allegiance to the 
Islamic State. They subsequently traveled back to Libya where they were 
joined by an Islamic State delegation from Yemen and Saudi Arabia.\51\ 
Later in 2015 and 2016, Iraqis and Saudis traveled to Libya to oversee 
the Islamic State's activities there.\52\ A recent video from Abu Bakr 
Shekau, the embattled leader of Boko Haram in Nigeria, featured a 
French speaker in predominantly Anglophone Nigeria, suggesting that 
Boko Haram is recruiting in Francophone Sahelian countries.\53\ What 
this means is that even though jihadi salafi groups in North Africa may 
not pose a direct threat to the United States because they do not have 
the operational capacity to hit the United States or because it is not 
a strategic priority for them, individual North African and Saharan 
jihadi salafis could contribute to the capabilities of other jihadi 
salafi groups outside North Africa that do have the capacity and the 
intention to target the United States.
---------------------------------------------------------------------------
    \50\ Peter Finn, ``Al-Awlaki directed Christmas `underwear bomber' 
plot, Justice Department memo says,'' The Washington Post, 10 February 
2012.
    \51\ Wehrey, Frederic, Alrababa`h, Ala`, ``Rising Out of Chaos: The 
Islamic State in Libya,'' Carnegie Middle East Center, 5 March 2015.
    \52\ Op. Cit. Ft. 16.
    \53\ Allain Jules, ``Boko Haram: reapparition de Abubakar Shekau 
qui accuse le Cameroun de `mensonge`,'' mamaafrika.tv, 17 March 2017.
---------------------------------------------------------------------------
    Moreover, if groups are left unmolested, even if they do not 
presently pose a direct threat to the U.S. homeland, they will evolve 
and their capacity to plan and train will grow, potentially to the 
point where attacking the U.S. homeland is no longer practically 
infeasible. This was the case with al-Qaeda and Usama bin Laden in 
Khartoum, Sudan in the 1990's and it is potentially the case today for 
al-Qaeda and Islamic State groups in North Africa, the Sahara, and the 
Sahel.\54\
---------------------------------------------------------------------------
    \54\ Wright, Lawrence, The Looming Tower: Al Qaeda and the Road to 
9/11 (New York: Knopf, 2006).
---------------------------------------------------------------------------
                  current counterterrorism approaches
    In counterterrorism, there is no ``Mission Accomplished.'' There is 
only ``continuing to accomplish the mission.'' There is no winning. 
There is only managing the risk to tolerable levels. Doing that is 
complicated, involving a continuum of military and non-military 
solutions.
Military Counterterrorism Approaches in North Africa
    Since 2013, the United States has employed a new model for 
counterterrorism operations in North Africa and the Sahara and 
Sahel.\55\ The model relies on logistical and intelligence, 
surveillance, and reconnaissance support to U.S. allies, building 
partner capacity (BPC) programs, and the limited use of U.S. Special 
Forces to advise, assist, and accompany local forces and pursue high-
value targets (HVTs).\56\ This approach has advantages and 
disadvantages.
---------------------------------------------------------------------------
    \55\ Porter, Geoff D. and Sheehan, Michael, ``The Future Role of US 
Counterterrorism Operations in Africa'' CTC Sentinel, Vol. 7, Issue 2, 
February 2014.
    \56\ Eric Schmitt, ``Using Special Forces Against Terrorism, Trump 
Seeks to Avoid Big Ground Wars,'' The New York Times, 19 March 2017.
---------------------------------------------------------------------------
    Among its advantages, it is less costly than large scale military 
deployments; it limits U.S. personnel exposure to risks on the ground; 
it allows for the wider projection of U.S. power; and it is potentially 
less diplomatically disruptive to the pursuit of other U.S. National 
non-security related interests. By training local partners, it builds a 
more enduring counterterrorism presence in the region. Perhaps most 
importantly, this approach does not aim to eliminate terrorism or 
defeat terrorist groups in North Africa: Its objective is to degrade 
them. The constant pressure that results from this approach slows the 
evolution of terrorist groups and prevents them from gaining the 
capabilities that could ultimately allow them to target the homeland.
    Nevertheless, there is no counterterrorism silver bullet and the 
new model is not without its shortcomings. Although over the long run 
leadership decapitation of terrorist groups and eliminating HVTs 
quantifiably shortens a group's life span, they also can have 
unintended consequences.\57\ For example, removing the leader of one 
group can result in the merger of two groups that had previously been 
hostile to one another, thereby creating a new group that has greater 
capabilities than either of the two pre-existing groups.\58\ 
Alternately, eliminating HVTs and leadership decapitation can result in 
schisms within terrorists organizations that can result in competition 
for prominence among factions, a phenomenon known as 
``outbidding.''\59\ One of the ways in which outbidding can manifest 
itself is through an increased pace of terrorist attacks or more 
``spectacular'' terrorist attacks. In short, eliminating HVTs or 
leadership decapitation can inadvertently increase the lethality of a 
terrorist organization in the near term.
---------------------------------------------------------------------------
    \57\ Price, Bryan C., ``Targeting Top Terrorists: How Leadership 
Decapitation Contributes to Counterterrorism,'' International Security, 
Vol. 36, No. 4 (Spring 2012), pp. 9-46.
    \58\ Porter, Geoff D., ``The Drone War Goes Awry in Africa,'' 
Foreign Policy, 20 January 2016.
    \59\ Porter, Geoff D., ``Terrorist Outbidding: The In Amenas 
Attack,'' CTC Sentinel, Vol. 8, Issue 5 (May 2015).
---------------------------------------------------------------------------
    A second problem with the new approach to counterterrorism in North 
Africa is that BPC efforts need to be consistent and sustained in order 
for them to work. Ad hoc or intermittent training engagements with 
partner nations mean local forces retain some of the skills acquired 
through BPC programs for a period of time, but there is no long-term 
capacity improvement and the United States runs the risk of repeating 
efforts ad infinitum.\60\
---------------------------------------------------------------------------
    \60\ Powelson, Simon J., Enduring Engagement Yes, Episodic 
Engagement No: Lessons for SOF from Mali, Master's Thesis, Naval 
Postgraduate School, December 2013.
---------------------------------------------------------------------------
    Last, the United States needs to be mindful that political 
circumstances in partner countries may not be conducive to BPC. U.S. 
training of local militaries that have poor reputations in host 
countries or are politically problematic can contribute to broader 
animosity toward the United States and fuel the jihadi salafi anti-
American narrative. For example, while U.S. efforts in Chad have 
increased Chadian forces counterterrorism capabilities, it has come at 
the cost of the United States being perceived as supporting President 
Idriss Deby's authoritarian regime.\61\ In Niger's Diffa region, the 
local population blames the deterioration of the security environment 
as much on Boko Haram as on the abusive Nigerien forces combating the 
terrorist group.\62\ The problem is more difficult in Libya where, in 
the absence of a functioning government, it is hard to even identify 
the proper military units to be trained.\63\
---------------------------------------------------------------------------
    \61\ Nickels, Benjamin P., and Shorey, Margot, ``Chad: A Precarious 
Counterterrorism Partner,'' CTC Sentinel, Vol. 8, Issue 4 (April 2015).
    \62\ Niger and Boko Haram: Beyond Counter-insurgency, International 
Crisis Group, Report Number 245, 27 February 2017.
    \63\ Carla Babb, ``Friend or Foe? Doubts Plague US Military in 
Libya Training,'' Voice of America, 18 May 2016.
---------------------------------------------------------------------------
Non-military Approaches to Countering Terrorism in North Africa
    Despite the new counterterrorism approach's advantages, military 
solutions are never enough to limit the threat that terrorism poses to 
U.S. National interest abroad and to the homeland. It is equally 
important to address the underlying conditions that lead to the 
emergence and continuation of terrorist organizations in North Africa. 
Because terrorism is by definition political and because jihadi salafi 
terrorism is about destroying and reshaping political structures in 
predominantly Muslim parts of the globe, it is critical to engage 
regional political institutions to ensure that they are upholding the 
obligations inherent in the state-society relationship. 
Misunderstanding the political dimension or ignoring it entirely does a 
disservice to counterterrorism efforts.
    One of the fundamental drivers of jihadi salafi terrorism is the 
perception of injustice and the belief that the implementation of a 
salafi interpretation of Islam via jihad would ensure Muslims social 
justice.\64\
---------------------------------------------------------------------------
    \64\ Turner, John A., Religious Ideology and the Roots of Global 
Jihad: Salafi Jihadism and International Order (New York: Springer, 
2014).
---------------------------------------------------------------------------
    There is quantitative evidence that indicates that North African, 
Saharan, and Sahelian countries have a justice deficit. Excepting 
Tunisia, all the countries in the region fall in the bottom half of 
Transparency International's Corruption Perceptions Index 2016.\65\ 
Libya is ranked 170th of out 176 countries. Chad is 159th and Mali is 
116. The World Justice Project's Rule of Law Index 2016 ranked Tunisia 
58th out of 113 countries. Morocco was 60th, Burkina Faso 79th, and 
Nigeria 96th.\66\ The 2016 Ibrahim Index of African Governance which 
ranks Africa's 54 countries also indicates inadequate governance and 
rule of law in North Africa.\67\ For its ``Overall Governance'' 
ranking, Libya was ranked 51 out of 54 countries. Chad was 48, Niger 
27, Mali 25, and Algeria 20. There is a justifiable and overwhelming 
perception that the playing field in North Africa, the Sahara, and 
Sahel is uneven. If injustice fuels the jihadi salafi narrative, then 
the narrative burns bright in North Africa and the Sahara.
---------------------------------------------------------------------------
    \65\ Corruption Perceptions Index 2016, Transparency International, 
25 January 2017.
    \66\ World Justice Project (WJP) Rule of Law Index 2016, The World 
Justice Project (2016). Algeria, Libya, Chad, Niger, and Mali were not 
included in the index because the World Justice Project was unable to 
conduct household polling.
    \67\ A Decade of African Governance 2006-2015: 2016 Ibrahim Index 
of African Governance, Mo Ibrahim Foundation (October 2016).
---------------------------------------------------------------------------
    There is also quantifiable evidence that North African and Saharan 
and Sahelian countries may not just be unwilling to ensure justice for 
their populations, but they may be unable to. Every country in the 
region is listed as being at risk according to the Fund for Peace's 
Fragile States Index: Fragility in the World 2016.\68\ Even the most 
stable countries in the region--Algeria, Morocco, and Tunisia--receive 
``Elevated Warnings.'' Chad's status is categorized as ``Very High 
Alert,'' and Cameroon, Libya, Mali, and Niger are listed as ``Alerts.'' 
When states are fragile or they fail, they no longer have the capacity 
to provide services ranging from education to security for their 
populations. The collapse of governance, let alone implementing of good 
governance, creates space for jihadi salafi terrorist groups to act.
---------------------------------------------------------------------------
    \68\ Messner, J.J., and Haken, Nate, et al. Fragile States Index 
2016: The Book (June 2016).
---------------------------------------------------------------------------
    Considering its historical commitment to justice and good 
governance, the United States should work to reduce North African 
deficits in those areas. Military approaches to counterterrorism can 
diminish existing threats but they cannot address the conditions that 
allow terrorist groups to emerge, sustain themselves, or revitalize 
themselves. Through aid and development programs, the United States can 
shore up fragile North African and Saharan States. Doing so is as vital 
a counterterrorism tool as are BPC programs and eliminating HVTs.
    Mitigating the threat posed by North African jihadi salafi 
terrorists to U.S. interests abroad and to the homeland requires a 
nuanced combination of military and non-military approaches. North 
African terrorist organizations do not presently pose a threat to the 
homeland. However, removing terrorists from the battlefield downrange 
only slows their groups' evolution. To truly secure the homeland, the 
United States must address the underlying causes of North African 
terrorism, chief among them injustice and rule of law.

    Mr. King. Thank you, Dr. Porter.
    Our next witness is Mr. Laith Alkhouri, who is a co-founder 
and director of counterterrorism research at Flashpoint, which 
is a business risk intelligence company. He directs 
Flashpoint's jihadist threat intelligence service and serves as 
the lead on all primary source research into deep and dark Web 
networks used by terrorist groups.
    He has researched and translated thousands of jihadist 
documents and videos, analyzing jihadi terrorist activities 
across the Middle East, North Africa, and central and Southeast 
Asia. Mr. Alkhouri has presented his findings to several 
Cabinet agencies, the Council on Foreign Relations, the New 
York City Police Department, and a number of academic 
institutions.
    Mr. Alkhouri, thank you for being here today, and you are 
recognized for your testimony. Thank you very much.

     STATEMENT OF LAITH ALKHOURI, CO-FOUNDER AND DIRECTOR, 
                           FLASHPOINT

    Mr. Alkhouri. Thank you, Chairman King, Ranking Member 
Rice, and distinguished committee Members.
    Today, both al-Qaeda and ISIS operate in major parts of 
North Africa and pose a significant threat. They also pose a 
significant threat to Western civilians and interests. 
Throughout the past decade, al-Qaeda in the Islamic Maghreb has 
kidnapped and killed Westerners and attacked Western economic 
interests.
    Its record is heavy with such incidents starting as early 
as 2007, including at least 16 incidents of kidnapping 
Westerners at gunpoint, a number of whom were executed in 
Algeria, Mauritania, Niger, Mali, Burkina Faso, and other 
countries.
    AQIM poses a significant threat to gas and oil facilities 
and hotels, among other Western economic interests. The most 
notable example is the group's January 2013 hostage crisis at 
the Tigantourine gas and oil extraction facility in Algeria's 
In Amenas town where 3 Americans and over 2 dozen other Western 
nationals employed there were killed. Other attacks targeted 
hotels and killed Westerners in Mali, Burkina Faso, and Ivory 
Coast in 2016.
    Al-Qaeda has exponentially grown in North Africa and the 
Sahel. This March, AQIM unified jihadi factions in north Mali 
under its banner, effectively inflating its ranks across the 
Sahel and Sahara at a time when many believe that it has 
largely been diminished.
    The emergence and rise of ISIS, arguably today's most 
significant global threat, has amplified the pre-existing sense 
of insecurity and instability. ISIS has captured significant 
territory and aggressively expanded across Sirte, has heavily 
operated in Derna, Benghazi, Tripoli, Misrata, and other cities 
amid a political turmoil in Libya.
    ISIS operates not only in Libya, but also in Algeria and 
Tunisia, and it has killed dozens of tourists. It has set up 
camps in Algeria in 2014 and networked with jihadist cells in 
Tunisia, dispatching operatives to kill tourists in Tunisia. 
Two of these attacks killed over 40 Westerners combined in 
March and June 2015. It has recently launched its first suicide 
bombing in Algeria.
    ISIS has orchestrated and inspired attacks in the West. It 
directed major terror attacks in Paris and Brussels and 
inspired the worst mass shooting in U.S. history at the Pulse 
Nightclub in Orlando, Florida.
    Part of its M.O. is, yes, launching suicide bombing against 
security forces, but importantly, its leadership's explicit 
threats to and orchestration of attacks in Europe and the 
United States are part of its branch in Libya's agenda.
    Its branch in Libya has verbalized threats to the United 
States. It not only expressed threats to attack beyond the 
Mediterranean, but also vowed attacks in Washington and New 
York in its official propaganda.
    ISIS has exerted influence among jihadists in the West and 
incited them to launch attacks. The group has influenced 
radicals in the United States and Europe, who are encouraged to 
attack in their home countries instead of actually join the 
group on the ground. This has been explicitly encouraged by 
ISIS leaders in official propaganda.
    Libya is poised to become a launching pad for operations in 
the West. As ISIS struggles to maintain control of its 
territory in Iraq and Syria, it will likely up the ante in 
inciting and plotting external operations in the West.
    Its branch in Libya is poised to welcome many of its 
foreign fighters already in its ranks in the Middle East, which 
might turn Libya into the biggest ISIS camp for foreign 
fighters outside of Iraq and Syria. Fighters from at least 10 
nationalities so far have been fighting with ISIS in Libya, 
featured in its propaganda.
    Both groups seek to dominate the jihadi landscape with 
mutual focus on Westerners. AQIM and ISIS oppose each other. 
ISIS' emergence has not only exacerbated the terror threats but 
also polarized the jihadi movement in the region, effectively 
creating a competitive landscape that raises the threat 
prospects against the West.
    AQIM has concentrated on condemning France. Each group 
seeks to reassert itself as the main jihadi leader in the 
region, and both groups see Westerners as enemy No. 1.
    ISIS has a more powerful recruitment strategy than AQIM. 
While both groups pose a threat to the West, ISIS appears to 
have developed a stronger radicalization and indoctrination 
agenda than its competitor.
    ISIS' external operations facilitators appear to have 
developed a more inclusive and aggressive call to launch 
attacks by all means necessary, unlike AQIM, which has not 
heavily focused on calls for external attacks overseas.
    The returnees to the United States and Europe, those who 
have gained experience in militant tactics in ISIS camps, as 
well as self-radicalized individuals, likely pose the most 
significant jihadist threat to the West today. Thank you so 
much.
    [The prepared statement of Mr. Alkhouri follows:]
                  Prepared Statement of Laith Alkhouri
                             March 29, 2017
                              introduction
    North Africa has conventionally been the backyard of major al-Qaeda 
terror activity, predominantly al-Qaeda in the Islamic Maghreb (AQIM)--
and to this day the group poses a significant threat to the region and 
to Western civilians and interests. The terror threats have created a 
sense of insecurity in major parts of the region, and AQIM has been the 
primary perpetrator. Indeed, it has a long record of bombing and 
kidnapping attacks against Westerners, extending its reach from Algeria 
to Tunisia, Mali, and other countries.
    The region has also witnessed the emergence of The Islamic State 
(ISIS/ISIL), further amplifying the preexisting sense of insecurity and 
instability, particularly in light of its seizure of a major territory 
in Libya. It has played the role of a de facto governing body in 
Libya's Sirte City, affording it a comfortable launching pad for 
attacks across other Libyan cities, and transnationally in Algeria and 
Tunisia--and potentially in the West.
    ISIS and AQIM are highly adversarial toward the West in general and 
the United States in particular. They possess a long track record of 
issuing threats and carrying out attacks aimed at Western civilians and 
economic interests. Albeit both upholding the jihadist ideology, AQIM 
and ISIS are highly oppositional toward each other. Their potential 
competition for dominance drives each group to reassert its influence 
over the jihadi landscape in North Africa, which significantly raises 
the threat prospects against Westerners.
    In addition, these groups thrive on being in the spotlight, and 
targeting Westerners brings them considerable PR value. Looking at 
today's jihadi landscape in North Africa and the record of these 
groups, I believe that they will continue to pose a significant threat 
to the West in the future, regionally and internationally.
                         picture of the threat
    On March 6, 2017, al-Zalaqa Media Foundation, a jihadi media unit 
affiliated with al-Qaeda, released a video featuring the leaders of the 
Mali-based jihadi groups Ansar al-Dine, al-Murabitoune, Macina 
Liberation Front, and the Sahara Region. In the video, Iyad Ag Ghali, 
the top leader of Ansar al-Dine, announced the creation of ``The Group 
for Support of Islam and Muslims,'' a new jihadi collective 
encompassing the aforementioned groups, declaring the new collective's 
allegiance to al-Qaeda's top leader Dr. Ayman al-Zawahiri. Henceforth, 
these groups will be operating under the umbrella of al-Qaeda in the 
Islamic Maghreb (AQIM), the terror group's North Africa and Sahel 
faction.
    On March 19, al-Qaeda Central Command issued a statement accepting 
the pledge of allegiance, indicating that the new collective is:

an extension to what Qaida't al-Jihad [al-Qaeda] has taken as approach 
since its inception, in uniting the Islamic Ummah, unifying its ranks, 
to seek the establishment of Allah's Sharia, upholding justice, and 
fighting injustice and tyranny; Allah has graced our brothers in the 
jihadi groups in Mali to unite under the banner of one group.\1\
---------------------------------------------------------------------------
    \1\ https://justpaste.it/14mlp.

    The latest announcement constitutes a new milestone in the growth 
of al-Qaeda's presence and operations at a time when the group behind 
the 9/11 attacks appears to have been significantly diminished. 
Although al-Qaeda has been mostly decimated in large parts of 
Afghanistan, Pakistan, and Yemen, its North Africa and Sahel networks 
appear to have exponentially grown, increasing their tempo of terror 
attacks and establishing links in North and West Africa.
    Throughout most of its existence, AQIM operated in central-east and 
northern Algeria, but in the past several years it has expanded its 
operations to Tunisia and Mali, making AQIM one of the most active al-
Qaeda branches. In Tunisia, the group's faction ``Uqba bin Nafae' 
Brigade''--designated a terrorist group by the Tunisian government--has 
carried out a number of attacks against security forces, most notably 
in the Chaambi Mountains, which overlook Kasserine City in west-central 
Tunisia. In Mali, its faction al-Murabitoune--a group affiliated with 
the notorious Mukhtar Belmokhtar's ``Signatories in Blood Brigade,'' 
responsible for the 2013 hostage crisis in In Amenas, Algeria--as well 
as other jihadi groups, have merged under its leadership. On multiple 
occasions, al-Murabitoune has kidnapped Westerners and targeted Western 
economic interests.
    AQIM has demonstrated its will and intent to target Western 
nationals and interests. It has kidnapped and killed European and 
American civilians, and targeted Western gas and oil extraction plants. 
A number of the group's hostage operations were kidnap-for-ransom, and 
reportedly brought the group significant sums of money.
    Over the past 3 years, North Africa has witnessed the rise of the 
Islamic State (ISIS/ISIL), most notably in Libya's Sirte City, and to a 
lesser extent in the cities of Darna and Benghazi in northeastern 
Libya. ISIS has also established a small branch in Algeria and 
connected with jihadists in Tunisia. Unlike AQIM, whose attacks mostly 
consist of hit-and-runs, kidnappings, and bombing operations, ISIS has 
been able to capture territory and implement its form of governance in 
Sirte, recruiting from the population under its rule, and conducting 
beheadings in the largely arid Fezzan region in central Libya.
    ISIS in North Africa continues to operate mostly in Libya. Security 
forces have only recently succeeded in pushing the group to the 
outskirts of Sirte and recapturing many of its vital sites. However, 
recent reports suggest that ISIS is regrouping, and possibly gaining 
enough manpower to recapture Sirte.\2\
---------------------------------------------------------------------------
    \2\ https://www.nytimes.com/2017/03/21/world/africa/libya-
isis.html.
---------------------------------------------------------------------------
    Both AQIM and ISIS's Libya faction have launched significant 
operations in the past 2 years; such attacks garnered global attention 
and positioned both groups as leaders of global jihad. AQIM fighters 
have targeted multiple hotels and killed Western tourists and locals 
alike in Mali, Ivory Coast, and Burkina Faso. Meanwhile, ISIS has 
focused on targeting government forces and Christian laborers; it has 
conducted gruesome beheadings of Egyptian Coptic and Ethiopian workers, 
as well as multiple bombings in Tripoli. I believe that both groups 
pose a threat to the West: AQIM's threat is directed at Western 
nationals and interests in its primary operational territories, rarely, 
if ever, targeting Western countries, while ISIS's threat to Western 
homelands is significantly higher, via orchestrated and inspired 
attacks.
                   will and intent to target the west
    Al-Qaeda's top leader Dr. Ayman Al-Zawahiri has indicated that al-
Qaeda's main focus remains targeting the United States--most notably in 
his 2013 manifesto, ``General Guidelines for Jihadi Work.''\3\ 
Zawahiri's manifesto laid out the military agenda for all al-Qaeda 
affiliates--indeed, all jihadists--around the world. In other words, 
his document dictated the priorities jihadi groups are meant to follow, 
placing the United States at the top of al-Qaeda's military targets. 
The document stated:
---------------------------------------------------------------------------
    \3\ https://ia800408.us.archive.org/27/items/tawjeh_ayman/
tawjeh_ayman.pdf.

The military work is to target firstly the head of global infidels 
America, and her ally Israel, and then her local allies who rule our 
countries. Targeting America aims at exhausting and hemorrhaging it, in 
order for it to end like the Soviet Union did, and isolate itself due 
to its military, human, and economic losses, and subsequently ease its 
grip on our countries, and its allies to begin falling one after 
---------------------------------------------------------------------------
another.

    ISIS leaders regularly and vocally urge the group's followers to 
target the United States and Europe. Since 2014, the group has released 
a range of missives and videos urging jihadists in the West to kill 
Americans and Europeans. ISIS's late spokesman, Abu Muhammad al-Adnani, 
made this a focal point of his speeches:

If you can kill a disbelieving American or European--especially the 
spiteful and filthy French--or an Australian, or a Canadian, or any 
other disbelievers waging war, including the citizens of the countries 
that entered into a coalition against the Islamic State, then rely upon 
Allah and kill him in any manner or way.\4\
---------------------------------------------------------------------------
    \4\ http://www.independent.co.uk/news/world/middle-east/isis-urges-
more-attacks-on-western-disbelievers-9749512.html.

    Moreover, ISIS features individuals in its propaganda who represent 
and parrot the group's threats to the West and suggest that their goal 
is to strike beyond North Africa, to ``conquer Rumiyah,'' in reference 
to Europe and North America. In a February 2015 video released by ISIS 
---------------------------------------------------------------------------
media in Libya, an English-speaking masked man threatened:

The sea you have hidden Sheikh Osama bin Laden's body in, we swear to 
Allah, we will mix it with your blood.\5\
---------------------------------------------------------------------------
    \5\ http://www.cnn.com/2015/04/19/africa/libya-isis-executions-
ethiopian-christians/.

    ISIS has inspired a number of attacks in the West--and capitalized 
on these attacks with its official propaganda releases designed to 
inspire even more attacks--including the Pulse Nightclub massacre in 
Orlando, Florida. Furthermore, ISIS has orchestrated a number of deadly 
attacks in Europe, including the November 2015 attacks at the Bataclan 
theatre and the Stade de France in Paris, and the March 2016 attack at 
Brussels' Zaventem Airport, among others.
                      isis and aqim are different
    There are differences, however, between AQIM and ISIS, the most 
obvious of which is their proclaimed ideological differences--
especially after Zawahiri disowned ISIS in February 2014. 
Organizationally, AQIM is more decentralized in its approach and sees 
North Africa and the Sahel as the primary geographic region for its 
operations. Quite rarely does the group invite foreign fighters or 
recruits from outside the Maghreb and Sahel regions into its ranks. Its 
political statements have largely focused on ``tyrannical'' regimes in 
Morocco, Tunisia, Algeria, and Mali and its aims are very much North 
Africa-centric.
    ISIS, on the other hand, including its branch in Libya, has 
specifically called on Muslims to migrate to territories under its 
control. Its ranks in Libya have swelled with the arrival of fighters 
from Sudan, Somalia, Ghana, and Mali, among other countries. It has 
operated in a more centralized fashion, consistently adhering to the 
language and methodology of ISIS central command in Iraq and Syria. Its 
messages mostly ignore the politics of North African countries, instead 
concentrating on illustrating jihad in North Africa as part of the 
overall structure of the proclaimed ``Caliphate,'' as provinces under 
ISIS leader Abu Bakr al-Baghdadi's rule. These messages specifically 
urge jihadists to pledge allegiance to ISIS. When ISIS's propaganda has 
focused on North and West Africa, it invites jihadists who are 
operating in al-Qaeda's backyard to pledge allegiance to Baghdadi, the 
self-proclaimed ``Caliph'' of the Islamic State.
    AQIM's rhetoric has largely focused on France as its primary 
nemesis, referring to the French invasion of Mali and France's 
historical interest in North Africa. Meanwhile, ISIS's enemies are 
lumped into one--what is referred to as ``Fustat al-Kufr,'' or ``the 
party of infidels.''
                 al-qaeda in the islamic maghreb (aqim)
    AQIM was formally established in February 2007. Its predecessor, 
``The Salafist Group for Preaching and Combat'' (GSPC), formally 
pledged allegiance to al-Qaeda on September 11, 2006:\6\ it has sought 
the establishment of Islamic Sharia governance and the targeting of 
Western nationals and interests.
---------------------------------------------------------------------------
    \6\ http://www.aph.gov.au/parliamentary_business/committees/
house_of_representatives_- committees?url=pjcis/
aqap_6%20terrorist%20orgs/report/appendix%20e.pdf.
---------------------------------------------------------------------------
    GSPC's declaration of allegiance to al-Qaeda not only appears to 
have transpired for the sake of relevancy; affiliating with al-Qaeda 
effectively placed the group in the spotlight as the leader of jihadi 
efforts across North Africa and the Sahel region. More importantly, 
GSPC declared that its allegiance to Usama bin Laden was ``part of the 
international jihad''\7\--in reference to al-Qaeda's 1998 declaration 
of war on the United States. In other words, GSPC adhered to the 
ideology of al-Qaeda, positioned itself as part of the global jihadi 
movement, and as no longer exclusive to Algeria.
---------------------------------------------------------------------------
    \7\ http://www.aph.gov.au/parliamentary_business/committees/
house_of_representatives_- committees?url=pjcis/
aqap_6%20terrorist%20orgs/report/appendix%20e.pdf.
---------------------------------------------------------------------------
    Though it operates mostly in Algeria, AQIM portrayed itself as the 
top jihadi group for North African jihadists--a point that it addressed 
in numerous audio and video recordings. Led by Algerian national 
Abdulmalik Droukdel (also known as Abu Musaab Abdulwadoud), many of 
AQIM's operations have specifically targeted Western nationals and 
interests, to include the kidnapping and killing of numerous Western 
victims.
    AQIM views North African governments as ``an extension'' of Western 
powers and interests. The group believes that there is a new type of 
imperialistic, ``Crusader'' campaign that aims at fighting and 
uprooting Islam. Thus, for AQIM, targeting the governments of Algeria 
and neighboring countries is in line with targeting U.S. and European 
interests. The West, according to AQIM, must be confronted--and if not 
directly, then through the targeting of its citizens and interests.
    In a 2009 audio release titled ``A Message to Our Ummah in the 
Islamic Maghreb,'' Abdulwadoud discussed these points, stating:

I return briefy to show the danger of the new imperialistic attack, 
which is an extension to the old campaign, which aims to target our 
Ummah in its dearest of spiritual components and even its existential 
principles, and the principles of its continuity, and also to show the 
dirty role of these apostate and traitor regimes in our Maghreb 
countries for the interests of the countries that have imperialistic 
goals and expansionist interests like America, the European Union, and 
Israel, so perhaps that our Ummah would get ready and prepare to fight 
its inevitable existential battle, that, if it does not fight today, 
will inevitably fight it tomorrow.\8\
---------------------------------------------------------------------------
    \8\ https://archive.org/details/Archieve-to-almagreb-mojahdeen.

    AQIM claims to fight the Algerian government because it views it as 
``part of the declared Crusader campaign,'' in reference to the U.S. 
wars in Afghanistan and Iraq. In a 2010 video, AQIM indicated that the 
``evil government'' of Algeria is a direct participant in the 
---------------------------------------------------------------------------
``Crusader war,'' because it:

confessed to occupying Iraq via diplomatic representation; [by] 
imprisoning and torturing the Muslim youths who join their brothers in 
Iraq, [and] participating in the war on Somalia by sending military 
supply aircraft in support of its Crusader masters . . . to appease the 
American master.\9\
---------------------------------------------------------------------------
    \9\ https://archive.org/details/badrmagrib.

Zawahiri later underscored these points in his ``General Guidelines for 
---------------------------------------------------------------------------
Jihadi Work'' manifesto, stating:

In Algeria, where the American presence is small and unnoticeable, the 
struggle against the regime is for the sake of weakening it and to 
spread the jihadi influence across the Islamic Maghreb, the West 
African Sahel, and South Saharan countries, and in these regions the 
signs of [mujahideen] confrontation with the Americans and their allies 
have started . . . [sic] All the mujahideen brothers should consider 
targeting the Western Crusader Zionist coalition's interests in any 
location in the world the most important of their duties, and to seek 
it to the best of their ability.\10\
---------------------------------------------------------------------------
    \10\ https://ia800408.us.archive.org/27/items/tawjeh_ayman/
tawjeh_ayman.pdf.

    Zawahiri sees Algeria, and North Africa in general, as a new front 
to weaken the United States, but not necessarily a launching pad for 
operations in the West. This is important because it underscores AQIM's 
methodology: it is easier to target the West in AQIM's operational 
reach than to train and dispatch operatives overseas.
               targeting western civilians and interests
    Although AQIM has not yet claimed responsibility for terrorist 
operations in the West, it has underscored that one of its goals is to 
target Western citizens and interests. Its narrative includes 
grievances such as the ``French invasion of Mali,'' which the group 
sees as part of the new ``Crusader imperialism.'' Indeed, of all the 
Western nations, France is AQIM's primary adversary, a theme deeply 
rooted in North Africa's history--and AQIM has expressed its grievances 
against France's stance in North Africa since the group's inception. 
AQIM's rhetoric, nonetheless, is confrontational toward the West at 
large, as it views Western and ``Zionist'' influence as having 
negatively impacted Muslims, portraying them as persecuted, threatened, 
and targeted. Therefore, its selection of targets is not limited to 
nationalistic borders, and its threat is not limited to French citizens 
and interests.
    AQIM sees its fight against the West as part of a larger battle; 
this point is highlighted in a number of its communiques. In March 
2016, AQIM claimed responsibility for the armed assault on the Grand 
Bassam Hotel in Abidjan, Ivory Coast, which killed a number of 
Westerners, including German and French nationals. In its claim of 
responsibility, released after the attack,\11\ the group said:
---------------------------------------------------------------------------
    \11\ http://www.bbc.com/news/world-africa_35798502.

The goal from these [operations] include a reminder to the Crusaders 
that their continuous crimes against the Muslims and their Mujahideen 
brothers will beg a response of targeting the leaders of their crimes 
and their interests. Our message to the Western populaces is that our 
actions are a response to the crimes of your armies and governments 
against our Ummah in Palestine, Afghanistan, Iraq, Syria, Yemen, 
Somalia, Libya, Mali, and Central Africa . . . you either leave us safe 
in our homelands, or we will spill your security and the security of 
your citizens.\12\
---------------------------------------------------------------------------
    \12\ https://telegram.me/Al_Andalus.

                     a threat to economic interests
    Furthermore, AQIM poses a significant threat to Western economic 
interests, most notably gas and oil plants and facilities. In January 
2013, Mukhtar Belmokhtar's Signatories in Blood Brigade (also known as 
al-Mulathamin) attacked the Tigantourine gas extraction facility in In 
Amenas town, eastern Algeria, which is jointly operated by an Algerian 
national company and BP/Statoil. The ensuing hostage crisis lasted for 
over a day, and concluded with the death of over 30 hostages, including 
American, British, Norwegian, and French nationals, among others. 
Reports indicated that a number of the hostage-takers were Libyan and 
Malian fighters, suggesting a higher level of transnational 
coordination between AQIM's affliates.
    A few months later, Belmokhtar's group attacked the French Uranium 
mine Areva and nearby military barracks in Arlit town, in Niger's 
northwestern city of Agadez. A spokesman for the group explained, 
``[we] attacked France, [as well as] Niger because of its cooperation 
with France,'' further underscoring AQIM's focus on targeting French 
interests.\13\
---------------------------------------------------------------------------
    \13\ http://www.bbc.com/news/world-africa_22637084.
---------------------------------------------------------------------------
    AQIM's threat to Western gas and oil companies was further 
underscored in the March 2016 rocket attack on BP/Statoil facilities in 
Algeria's In Saleh region. The group's statement referenced the In 
Amenas attack 3 years earlier, and stated its will and intent to target 
Western interests in the future, saying:

We chose the British Petroleum base in In Saleh area, and it is the 
same company that we targeted at Tigantourine compound, to send, 
through this operation, a number of messages . . . We announce to all 
the Western companies that are investing in rock gas that we will 
target you directly, and we will use every ability to repel you from 
these projects that harm our environment, rejected in our society.\14\
---------------------------------------------------------------------------
    \14\ https://justpaste.it/Algeria_AQMI_2016.

    AQIM's fixation on France came further into focus on March 17, 
2017, when Abdulwadoud released an audio message in which he accepted 
the allegiance from ``The Group for Support of Islam and Muslims'' and 
addressed France, suggesting that the mujahideen will seek to strike in 
---------------------------------------------------------------------------
France:

[France's] injustice and aggression against the populaces and tribes of 
the Sahel and Sahara will only increase these tribes' brotherhood, 
coalescence, and unity . . . [they will] be determined to wage jihad 
and resist against the aggressors, and this will only add to the 
determination of Muslims to transfer the war from our land to her land 
and from our cities to her cities so it can live in fear that our 
people in the occupied lands are living.\15\
---------------------------------------------------------------------------
    \15\ https://soundcloud.com/user-903507653/8cg8ayogbe4v.

             kidnapping operations \16\ \17\ \18\ \19\ \20\
---------------------------------------------------------------------------
    \16\ http://www.csmonitor.com/World/Africa/Africa-Monitor/2011/
0119/AQIM-kidnapping-and-murder-a-brief-history.
    \17\ http://www.longwarjournal.org/archives/2016/01/aqim-takes-
australian-couple-hostage-in-northern-burkina-faso.php.
    \18\ http://www.gctat.org/analysis/29-ranoc/236-the-forgotten-
three-the-fate-of-aqim-timbuktu-hostages-and-their-captor-
belkacemzouadi.html.
    \19\ http://www.telegraph.co.uk/news/worldnews/al-qaeda/11693716/
New-British-front-man-for-jihadist-videos-revealed.html.
    \20\ http://af.reuters.com/article/maliNews/idAFL8N1500DA.
---------------------------------------------------------------------------
    AQIM's primary source of funding and influence is the kidnapping of 
Westerners, going as far back as 2007. Kidnapping operations not only 
provide major propaganda value, but also reportedly earn the group 
significant sums of money, which it uses to finance various other 
operations.
    The incomplete list of AQIM kidnapping operations provided below 
clearly demonstrates that the group is constantly pursuing Western 
nationals. Since its inception, AQIM has kidnapped Westerners in 
Mauritania, Niger, and Mali. The group has reportedly, at times, 
negotiated with foreign governments to release hostages in exchange for 
ransom sums. Some estimates indicate that by 2012, AQIM was making 
about $3 million USD per hostage released.\21\ In other instances, the 
group has demanded the release of militants from prison--a tactic that 
has likely helped swell its ranks.
---------------------------------------------------------------------------
    \21\ https://www.stratfor.com/analysis/mali-al-qaeda-islamic-
maghrebs-ransom-revenue.
---------------------------------------------------------------------------
  <bullet> On December 24, 2007, four French nationals were killed in 
        Mauritania. The Mauritanian government charged and sentenced 
        three AQIM members to death.
  <bullet> On February 22, 2008, Austrian citizens Wolfgang Ebner and 
        Andrea Kloiber were kidnapped in Tunisia and transferred to an 
        unknown location in Mali. They were reportedly released after a 
        ransom was paid.
  <bullet> On December 14, 2008, Canadian diplomats Robert Fowler and 
        Louis Guay were kidnapped in Niger, and later released on April 
        22, 2010.
  <bullet> On January 22, 2009, Edwin Dyer, Marianne Petzold, Gabriella 
        Greitner, and Werner Greiner were kidnapped in Mali near the 
        Niger border. AQIM killed Dyer on May 31 while reportedly 
        releasing the others after alleged AQIM members were released 
        from prison.
  <bullet> In June 2009, U.S. national Christopher Leggett was murdered 
        in Nouakchott, Mauritania.
  <bullet> On November 14, 2009, AQIM attempted to kidnap U.S. embassy 
        personnel in Tahoua, Niger.
  <bullet> On November 25, 2009, French citizen Pierre Camatte was 
        kidnapped in Mali near the Niger border. Mali released four 
        AQIM militants while AQIM released Camatte in return.
  <bullet> On November 29, 2009, Spanish citizens Albert Vilalta, Roque 
        Pascual, and Alicia Gamez were kidnapped near Nouadhibou, 
        Mauritania. AQIM later released Gamez after the Spanish 
        government allegedly paid a ransom. AQIM released Vilalta and 
        Pascual on August 22, 2010.
  <bullet> On December 18, 2009, Italian citizens Nicola Sergio Cicala 
        and Philomen Kabouree were kidnapped in Mauritania. AQIM later 
        released Cicala and Kabouree; it remains unclear whether a 
        ransom was paid.
  <bullet> On April 19, 2010, French citizen Michel Germaneau was 
        kidnapped in northern Niger and then moved to Mali. AQIM 
        demanded the release of its members from prison. French and 
        Mauritanian security forces raided AQIM members in Mali, 
        killing six of them. AQIM announced it had killed Germaneau on 
        July 25.
  <bullet> In September 2010, five French nationals were kidnapped in 
        northern Niger. AQIM still holds them hostage to this day.
  <bullet> In January 2011, French aid worker Antoine De Leocour and 
        French citizen Vincent Delory were kidnapped in Niger. De 
        Leocour and Delory were killed during a rescue attempt.
  <bullet> In 2011, AQIM kidnapped Swedish national Johan Gustaffson 
        and South African national Stephen McGowan. In 2012, they were 
        featured in an AQIM video with another hostage, Dutch national 
        Sjaak Rijke, who has since been rescued. In June 2015, the two 
        other hostages appeared in an AQIM video in which a British-
        accented militant informed them that their governments were not 
        negotiating for their release.
  <bullet> In December 2015, Swiss nun Beatrice Stockley was kidnapped 
        from her residence in Timbuktu, Mali. Stockley was previously 
        kidnapped and released in 2012, but upon her return to Mali, 
        AQIM militants from the Sahara faction took her hostage and 
        accused her of conducting missionary campaigns.
  <bullet> In January 2016, an Australian couple--a doctor and his 
        wife--was kidnapped by AQIM militants following the terror 
        group's attack on a hotel in Burkina Faso. They were reportedly 
        kidnapped in the country's north and brought into Mali across 
        the border.
                   uqba bin nafae' brigade in tunisia
    AQIM's affiliate in Tunisia appears to have begun operating in the 
country in the summer of 2014. The group's operations have primarily 
targeted security forces, namely in Kasserine City. In September 2014, 
2 months after Uqba bin Nafae' militants targeted security forces in 
Hanshir at-Talla in the Chaambi Mountains in west central Tunisia, a 
spokesman for the group threatened the Tunisian government in a video, 
stating:

Without introductions . . . O tyrants of Tunisia, await glad tidings of 
what harm you, as the silence of the mujahideen of Uqba bin Nafea' 
Brigade before your crimes will not last long.\22\
---------------------------------------------------------------------------
    \22\ https://www.youtube.com/watch?v=lDwXDnoeJLc&feature=youtu.be.

    The group has since carried out a range of attacks against police 
and army units.
    Additionally, there is evidence to suggest a higher level of 
coordination between Tunisian and Algerian AQIM fighters. AQIM recently 
released the bio of one of its since-killed Algerian commanders who 
purportedly traveled between Tunisia and Algeria to coordinate with the 
group's affiliates.
    Although the Chaambi Mountains appear to be the group's main 
hideout, a jihadi media unit known as Efriqia Media released a 
statement in April 2015 indicating that Uqba bin Nafae' Brigade has:

cells and its soldiers are present on all the Tunisian soil and in its 
various provinces, and has history in jihadi work and in training a big 
number of Muslim youths and supplying weapons.\23\
---------------------------------------------------------------------------
    \23\ https://shamikh1.info/vb/showthread.php?t=235486.

    Uqba bin Nafae' Brigade poses a serious threat to Tunisia's 
stability, and should be considered a threat to Western nationals 
traveling through inadequately governed areas of western Tunisia near 
the Algerian border.
              the islamic state (isis/isil) in libya \24\
---------------------------------------------------------------------------
    \24\ It is worth mentioning that this report does not discuss ISIS 
in Egypt. ISIS's branch in Egypt's North Sinai is a highly active 
group, and it has operated in that region for over five years 
(previously allegiant to al-Qaeda). Most of its attacks have targeted 
Israeli territories and Egyptian security forces. While the group does 
not appear to have hosted foreign fighters or dispatched operatives to 
the West, its targeting and downing of the Russian Metrojet Airliner in 
October 2015 spotlighted the group as a serious threat to tourists and 
the aviation industry. It is unlikely that ISIS in Egypt will be the 
next destination for fighters from the West; however, Western tourists 
and interests--especially in the North Sinai--are at risk from 
potential attacks in the future.
---------------------------------------------------------------------------
    Previously known as the Islamic State of Iraq (ISI), the Islamic 
State of Iraq and Syria (ISIS) is the evolution of what was once known 
as al-Qaeda in Iraq (AQI). After expanding into Syria and rebelling 
against al-Qaeda, ISIS shocked the world with scenes of brutality, 
including the videotaped beheadings of at least three Americans. The 
global terror group seized Raqqa, Syria and shortly thereafter took 
control of Iraq's second largest city, Mosul. Over the course of 
several months, the group seized control of cities, towns, and villages 
in several Syrian and Iraqi provinces, and quickly expanded into the 
schismatic political atmosphere of Libya.
    In the spring of 2015, ISIS captured the city of Sirte, effectively 
establishing a North African stronghold where it is able to host 
fighters from other countries.\25\ \26\ The group established strong 
fighting fronts in Darna and Benghazi and launched attacks targeting 
Libyan Forces and rival rebel factions, as well as government buildings 
in Tripoli and Misrata. Moreover, ISIS attempted and temporarily 
succeeded in laying control over gas and oil plants.
---------------------------------------------------------------------------
    \25\ https://ia600405.us.archive.org/35/items/
jamalalqudsy_yahoo_20160530_1211/[ . . .  ].gov.
    \26\ https://ia801504.us.archive.org/28/items/rs_ta/r11.mp4.
---------------------------------------------------------------------------
    ISIS's branch in Libya--comprising ``Tripoli, Barqa and Fezzan'' 
provinces\27\--is arguably one of its strongest and most reliable 
factions. The post-Qaddafi political turmoil in Libya has afforded ISIS 
a more fiexible environment in which to operate, especially prior to 
the creation of the Government of National Accord (GAN) in December 
2015. Libyan Forces recently scored victories against ISIS in Sirte, 
but the group is quickly regrouping and maintains a wide network of 
operatives and large caches of weapons.
---------------------------------------------------------------------------
    \27\ Areas of ISIS operations in Libya: Fezzan (Phazania) region in 
south west Libya is mostly a desert region. Barqa (Cyrenaica) Province 
includes the cities of Darna and Benghazi. Tripoli denotes the capital 
Tripoli, Sirte, and Misrata.
---------------------------------------------------------------------------
                         the west as adversary
    ISIS in Libya has not just been adversarial toward the Libyan 
Forces; it has sent a direct message to the ``Crusaders'' with its 
release of footage showing the grisly beheadings of 21 Egyptian 
laborers in southwestern Libya. Released in February 2015, the video 
featured an English-speaking masked militant whose message echoes 
ISIS's will and intent to strike beyond North Africa:

You have seen us on the hills of al-Sham and on Dabiq's plains, 
chopping off the heads of those carrying the cross who have been living 
a long time, filled of spite against Islam and Muslims. And today, 
we're in the south of Rome, on the land of Islam, Libya, sending 
another message. O Crusaders, safety for you will be only wishes, 
especially when you're fighting us altogether. Therefore, we will fight 
you altogether.\28\
---------------------------------------------------------------------------
    \28\ http://justpaste.it/jfg4.

    In April 2015, the same English-speaking fighter appears in a video 
featuring the executions of two groups of Ethiopian Christian workers, 
directing a message to the ``nations of the Cross,'' in reference to 
---------------------------------------------------------------------------
the West. His message was similar to the earlier one:

To the nations of the Cross, we're back again on the sands where the 
companions of the Prophet have stepped on before, telling you Muslim 
blood that was shed under the hands of your religion is not cheap. In 
fact, their blood is the purest blood because there is a nation behind 
them inherits revenge. And we swear to Allah . . . you will not have 
safety even in your dreams until you embrace Islam.\29\
---------------------------------------------------------------------------
    \29\ https://dump.to/albayyinah.

    Such threats to the West are in lieu of ISIS's main external 
operations goals: To strike in the United States and Europe--goals that 
its leaders verbalized the intent to accomplish on multiple occasions. 
ISIS in Libya as an entity, however, does not appear to have succeeded 
in orchestrating attacks in Western countries--at least not yet. 
However, its operatives have targeted Western tourists, namely in 
Tunisia.
    Unlike AQIM, however, which operates in a more decentralized 
fashion, ISIS is highly centralized and the goals of its Libyan faction 
are not confined to North Africa. On a number of occasions, ISIS 
fighters have appeared in videos to threaten (or even celebrate) an 
attack and name other cities they wish to target. After the November 
2015 attacks in Paris, ISIS in Libya released a video, titled ``From 
Barqa to Paris,'' featuring fighters who vowed more attacks against 
``Crusaders'' in the future. One foreign fighter, whose country of 
origin was not specified, threatened:

France was the beginning, and tomorrow it will be in Washington, New 
York, and Moscow . . . you will have no haven from our guns, bullets, 
and explosives; we will come to you.\30\
---------------------------------------------------------------------------
    \30\ https://archive.org/details/WilayatBarqahFromBarqahToParis.

    ISIS's targeting of Christians--whom ISIS deems a part of the 
global ``Crusade''--is directly addressing the West and challenging 
Western countries to intervene. If ISIS's operatives are unable to 
strike overseas, the group appears to be urging Western armies to bring 
to it a ground war--an action that would afford ISIS significant 
attention and amplify its recruitment efforts. ISIS has used this 
rhetoric since the U.S.-led coalition began its aerial campaign against 
the group in Iraq and Syria.
                isis in libya recruits foreign nationals
    ISIS has reportedly recruited from more than 80 countries around 
the world.\31\ Its branch in Libya brought in fighters from north, 
west, and east Africa, and from across the Sahel region. ISIS in Libya 
has featured fighters urging others to join its ranks, including those 
from Mali, Somalia, Ghana, Mali, Tunisia, Nigeria, Egypt, and Sudan. 
The group has also featured English-speakers, although their countries 
of origin remain unknown.
---------------------------------------------------------------------------
    \31\ https://www.nytimes.com/2015/09/27/world/middleeast/thousands-
enter-syria-to-join-isis-despite-global-efforts.html?_r=0.
---------------------------------------------------------------------------
    In a video from its media office in Tripoli, ISIS featured fighters 
who addressed Muslims across Africa, urging them to pledge allegiance 
and join ISIS:

Brothers, it is time to pledge allegiance to the state of the 
Caliphate; I say to the youths, jihad is obligatory in our current 
time, and I urge those from my brothers who have no excuse to depart 
for jihad.\32\
---------------------------------------------------------------------------
    \32\ https://ia601301.us.archive.org/5/items/CopyOf001_20150910/
Copy%20of%20001%20-%20[sic].ogv.

    Another fighter delivered a message to ``my brothers and sister 
everywhere: we are now in the Islamic State, and I call upon you to 
migrate to it.'' He called upon the Tuareg tribe in North Mali--the 
tribe one of AQIM's most senior leaders, Iyad Ag Ghali, belongs to--to 
``migrate to the Islamic State.''
    Nonetheless, for ISIS, it has remained of critical importance to 
strike in the West while simultaneously recruiting fighters to its 
ranks. ISIS leadership believes that inspiring so-called ``lone 
wolves'' to strike in the United States and Europe will generate higher 
propaganda value. For ISIS, attacks in the West are preferable; they 
turn the attention away from its losses in Iraq and Syria while 
maintaining the spotlight on the group. Abu Muhammad al-Adnani 
addressed this point in a May 2016 speech, in which he called on 
jihadists in the West to launch operations in their home cities rather 
than migrate to ISIS territory:

Open in their faces the door of jihad and return their deeds against 
them in regret, and the smallest action you carry out in their 
homelands is better and more favored by us from the biggest of actions 
in our midst; it is more successful for us and more brutalizing to 
them. And if one of you wishes and seeks to reach the Islamic State 
[i.e. here in the Middle East], one of us wishes to be in your location 
[i.e. in the West] to brutalize the Crusaders.\33\
---------------------------------------------------------------------------
    \33\ https://archive.org/download/KalemtSHabaan/
kalemt%20SHa%60baan.mp3.

---------------------------------------------------------------------------
    To justify the targeting of civilians, Adnani added:

We've heard that some of you cannot work [i.e. to attack] for being 
unable to reach military targets, and is hesitant from targeting the 
so-called civilians, avoiding them because he doubts the permissibility 
and legitimacy. Know that in the heart of the warring Crusaders' lands 
there is no immunity of blood and no presence to the so-called 
innocents . . . at least from the notion of treating others in the same 
way; their aircraft do not distinguish between our armed or unarmed, 
man and woman. Know that targeting so-called civilians is more beloved 
to us . . . more brutalizing and painful to them and more repulsing.

                      isis's resurgence in algeria
    ISIS established a faction under the initial name of ``Jund al-
Khilafah in Algeria'' in September 2014, now called ``Algeria 
Province.'' A week after declaring allegiance to Baghdadi, the faction 
kidnapped and beheaded a French national. The group is believed to be 
comprised of a few dozen members, and for the past 2 years it has 
remained mostly inactive. That changed on March 2, 2017, when the group 
launched its first suicide attack, targeting a police station in Bab 
el-Kantara area of Constantine City in northeastern Algeria.
    Although the faction remains in a fragile state and lacks 
organizational support and a programmatic agenda, ISIS fighters in 
Algeria--operating mostly in the vicinity of Tizi Ouzou--will likely 
attempt to strike again, as they appear to be re-organizing their 
ranks. The likely targets will continue to be security forces; however, 
Western nationals traveling in certain parts of northern and eastern 
Algeria could be easy targets for kidnapping operations.
               isis operations in tunisia a main concern
    ISIS has failed to seize territory and establish a strong fighting 
front in Tunisia, though it has attracted many Tunisians to its ranks 
in Iraq and Syria. This is partly due to the Tunisian government's 
crackdown on jihadists, even those who have no allegiance to any 
specific group, such as Ansar al-Sharia in Tunisia, which has been 
designated a terrorist group by the government.
    Two significant ISIS attacks in Tunisia that targeted Westerners 
took place in 2015; in March, two ISIS operatives attacked tourists 
outside the Bardo Museum in Tunis City, killing a total of 22 people, 
including Italian, French, Spanish, British, and Belgian nationals, 
among others. The attacker, according to the Tunisian government, 
trained with ISIS's branch in Libya, underscoring the threat ISIS in 
Libya poses to Western nationals. Three months later, an ISIS operative 
using an automatic rifle killed over 35 tourists, most of them British, 
at a resort beach hotel in Port al-Kantaoui, north of Sousse City.\34\
---------------------------------------------------------------------------
    \34\ http://www.bbc.com/news/world-africa-33304897.
---------------------------------------------------------------------------
    While fairly infrequent, these operations generate significant 
media attention for the terror group; as ISIS continues to face 
challenges in its Middle Eastern strongholds, ISIS-orchestrated attacks 
against Westerners in Tunisia may be more likely in the future.
              tackling the jihadist threat in north africa
    According to various media reports, the emphasis of U.S. and 
European counterterrorism operations in North Africa and the Sahel has 
been limited. U.S. special forces have reportedly conducted a number of 
air strikes and other operations against jihadists in Libya.
    Part of the issue appears to be that the United States is 
preoccupied with fighting ISIS in its main strongholds in Iraq and 
Syria, likely viewing ISIS's Libya branch as a lesser threat vis-a-vis 
Western nationals and interests. Another reason may be that U.S. and 
European security forces see the greatest threat from ISIS to the West 
as directly emerging from its Iraqi and Syrian strongholds--where the 
group's top leadership is in hideout.
    In other words, the conventional wisdom seems to be that ISIS 
directs external operations from Iraq and Syria. While that might be 
true today, there is a high likelihood that the group will decentralize 
its command-and-control in the future, and its branch in Libya is 
poised to become the main destination where many of its fighters will 
end up. There is a higher likelihood that ISIS in Libya will fund and 
direct external operations as its Syrian and Iraqi branches are under 
immense pressure to defend what remains of the territory under their 
control.
    For AQIM, its affiliates in North Mali have recently coalesced into 
one group; one of the new collective's key goals is to continue 
fighting French forces in Gao and other places.
    AQIM's Algeria faction--where its top leader Abdulwadoud is 
believed to be hiding--has faced a number of setbacks over the past 2 
years, and its operations have been highly subdued. This is part of the 
reason for the increased activity from its factions in Mali and 
Tunisia. It is thus imperative that Western governments provide further 
military and intelligence support to Tunisian, Algerian, and Malian 
forces as they tackle the jihadist activity in their respective 
countries.
                              conclusions
    Given AQIM and ISIS's respective records of targeting Westerners, 
it is clear that both groups pose a significant threat. AQIM's focus 
continues to be on targeting Western citizens and economic interests 
mainly in North Africa and the Sahel regions. There is a significant 
focus on France and its influence in North and West Africa, which may 
be a driving force for North African jihadists in France to launch 
attacks in the country on behalf of AQIM.
    Gas and oil facilities have been AQIM's primary economic targets, 
especially given that many Westerners work at these plants. AQIM's 
preferred methods of attack against such sites will involve suicide 
bombers, hostage taking, and rocket attacks. Though France appears to 
be AQIM's primary adversary, the terror group has targeted various 
Western nationals, and, while the viability of AQIM attacks in the 
United States is low, its interest in targeting the U.S. homeland is 
high--especially given that al-Qaeda's leadership has designated the 
United States as al-Qaeda's primary target.
    Notorious AQIM commander Mukhtar Belmokhtar--who was reported to 
have been killed several times over the past 4 years--was confirmed 
killed by senior al-Qaeda Central leader Hussam Abdulra'oof in an 
October 2015 recording.\35\ Various reports indicate that he may have 
been killed as early as June 2015 in Libya.\36\ His reported presence 
in Libya is further indicative of transnational cooperation between 
AQIM affiliates across North Africa.
---------------------------------------------------------------------------
    \35\ https://twitter.com/menastream/status/651179105832955905.
    \36\ http://www.telegraph.co.uk/news/worldnews/
africaandindianocean/libya/11674616/The-Uncatchable-one-eyed-jihadi-
MokhtarBelmokhtar.html.
---------------------------------------------------------------------------
    AQIM never confirmed Belmokhtar's death, but it is safe to say that 
the commander left behind a powerful faction in the Sahel capable of 
conducting attacks against Westerners for years to come.
    It is worth noting that al-Qaeda and ISIS oppose each other--not 
only ideologically, but also in their geographic areas of interest. 
This does not mean, however, that jihadists allegiant to both groups do 
not have room for cooperation. Indeed, there is evidence to suggest 
that jihadists who are specifically inspired by both groups might find 
a cooperative environment provided they have the same enemy. The 
January 2015 attacks in Paris, France at the offices of the magazine 
Charlie Hebdo by pro al-Qaeda operatives, and at a Kosher deli by a 
pro-ISIS jihadist, pointed to some level of cooperation between the 
perpetrators, particularly in obtaining weapons.
    In light of the wave of ISIS-inspired and orchestrated attacks in 
the United States and Europe in 2015 and 2016, and given the on-going 
U.S.-led military mission in Iraq and Syria, the likelihood is that 
ISIS will continue to incite, inspire, and plot similar attacks against 
civilians and soft targets. Stabbing, ramming, armed assault, and 
bombing attacks will likely continue to be the methods of choice for 
future attackers.
    ISIS's strongholds in Iraq and Syria are under siege. The group has 
lost significant territory and in the coming months, it is poised to 
lose Mosul and most of its control in Aleppo. Foreign fighters, 
including those from the West who may not wish to go home, may end up 
connecting with ISIS's faction in Libya, invigorating the group's North 
Africa ranks. Fighters from at least ten nationalities so far have been 
fighting with ISIS in Libya.
    Given Libya's close proximity to Europe, ISIS fighters in Libya who 
wish to target the West may travel to European countries instead of the 
United States.
    Furthermore, ISIS has expressed on multiple occasions its will and 
intent to orchestrate attacks in the West, and its operations in Paris 
and Brussels denote the group's ability to dispatch skilled fighters 
with the know-how to plot and strike. The group has also exerted 
influence among jihadists in the United States and Europe who are 
encouraged to attack in their countries on behalf of the group, rather 
than join ISIS's ranks.
    Westerners traveling or residing in insecure areas of Libya, 
Tunisia, and Algeria will likely continue to face threats from ISIS-
inspired and directed attacks.
    ISIS appears to have a more powerful recruitment and indoctrination 
strategy in the West than AQIM. ISIS's external operations facilitators 
appear to have developed a more inclusive and aggressive call to target 
the West by all means necessary--unlike AQIM, which has not focused on 
calls for external attacks overseas.
    Returnees to the United States and Europe--those who have gained 
experience in militant tactics in ISIS camps--as well as self-
radicalized individuals, likely pose the most significant jihadist 
threat to the West.

    Mr. King. Thank you, Mr. Alkhouri.
    Our final witness is Dr. Frederic Wehrey. He is a senior 
fellow in the Middle East Program at the Carnegie Endowment for 
International Peace. He specializes in post-conflict 
transitions, armed groups, and identity politics with a focus 
on Libya, North Africa, and the Gulf.
    His commentary and articles appeared in numerous 
publications. He routinely briefs U.S. and European government 
officials on Middle East affairs. Dr. Wehrey is a 21-year 
veteran of the active and reserve components of the U.S. Air 
Force, with tours across the Middle East and North Africa.
    Dr. Wehrey, you are recognized for your testimony. Thank 
you.

   STATEMENT OF FREDERIC WEHREY, SENIOR FELLOW, MIDDLE EAST 
      PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Wehrey. Thank you, Mr. Chairman.
    Chairman King, Ranking Member Rice, committee Members, I am 
grateful for this opportunity to speak with you today about the 
extremist threat from North Africa. The challenge here is 
especially dire given the numbers of fighters who fought abroad 
with ISIS and al-Qaeda and who are now returning.
    But beyond the threat of returning jihadists, it is the 
weakness of states in the region that is the most important 
driver of extremism. Many states here are increasingly unable 
to meet the demands of their citizens and are facing mounting 
economic pressures in an era of low oil prices.
    Faced with rising, expectations and diminished futures, 
some youth in the region have fallen prey to the appeal of 
jihad peddled by ISIS and al-Qaeda. Critiques of corruption, 
social injustice, and police abuses feature prominently in the 
jihadists' appeal.
    Heavy-handed policies by North African governments have 
often fueled the very radicalism they purport to quash. Added 
to this are the region's ungoverned spaces and porous borders 
where extremists have negotiated access with marginalized 
tribes or co-opted smuggling networks.
    Finally, a key enabler of jihadism is the outbreak of armed 
conflict. Any time there is an insurgency or civil war, we can 
expect to see transnational jihadists arrive, often with 
superior motivation, funding, and firepower.
    I will focus my remarks on Libya, a country that embodies 
many of these afflictions and that I visited repeatedly over 
the past several years, including Sirte last year. It is a 
failed state that presents the most immediate extremist 
challenge.
    Despite the successful Libyan-led campaign against ISIS in 
Sirte and other successes in the west and the east last year, 
the country remains at risk. Scattered ISIS members are 
regrouping in Sabratha near the Tunisian border, in cells in 
and around the capital of Tripoli, and in the south where they 
have easy transit into the Sahel.
    Also, some al-Qaeda-affiliated fighters who defected to 
ISIS are now returning back to a reconstituted and expanded al-
Qaeda in the Islamic Maghreb. But more importantly, I want to 
emphasize that it is Libya's worsening political crisis that 
has pushed it to the brink of open conflict, and this could 
create a vacuum for terrorists to reemerge.
    The recent campaign against ISIS has helped embolden 
General Khalifa Haftar and his forces in the east to push for 
national domination, capturing oil facilities, and threatening 
to topple the U.N.-backed government in Tripoli. If this were 
to happen, it would invariably throw the country into civil 
war, creating yet another vacuum for ISIS, al-Qaeda, or some 
new permutation of jihadism to emerge.
    It is a looming danger, Mr. Chairman, that demands a 
redoubling of diplomatic engagement by the United States. This 
could entail several efforts; first, deterring moves toward 
escalation by exerting pressure on the warring parties to 
include the threat of sanctions; second, brokering a dialog 
among regional and concerned states with interests in Libya.
    But beyond the task of forging a new political compact in 
Libya, the United States must stand ready to assist the 
capacity of whatever Libyan government emerges.
    This should focus on the following areas: Rationalizing the 
oil-driven economy and diversifying to other sources of income; 
training the army and police; reforming defense institutions; 
and especially promoting the rule of law, especially in 
prisons, which we know are incubators of violent extremism.
    The United States also has an opportunity to re-engage with 
Libya society in areas like municipal governance, civil society 
organizations, media, and education. But proposed cuts to 
American foreign aid programs on this front would deprive us of 
this opportunity. So, too, would a ban on Libyan visitors to 
the States.
    Counterterrorism efforts in Libya, whether ISR, border 
control, direct action, or training and equipping of local 
forces must always reinforce the building of inclusive, durable 
governance.
    The United States must also ensure that any 
counterterrorism engagement with local Libyan groups does not 
inadvertently worsen conflict by privileging one faction over 
another.
    Mr. Chairman, committee Members, my travels to Libya have 
left me with a strong appreciation for Libyans' resilience. The 
political fissures that wrack the country are not unbridgeable.
    Contrary to some alarmist accounts, Libya has not fallen to 
extremism. But the United States needs to act now to avert a 
looming crisis that could have far-reaching effects for its 
interests beyond the country's borders.
    Thank you for the opportunity to speak with you here today.
    [The prepared statement of Dr. Wehrey follows:]
                 Prepared Statement of Frederic Wehrey
                             March 29, 2017
    Chairman King, Ranking Member Rice, committee Members, I am 
grateful for this opportunity to speak with you today about the 
extremist threat from North Africa.
    At the intersection of the Middle East, Africa, and Europe, the 
countries of North Africa and the Maghreb comprise a vitally important 
region that casts a long shadow on surrounding areas and, especially, 
on the security of the Mediterranean basin. The extremist challenge 
from this region is especially dire given the numbers of fighters who 
went to Iraq and Syria to fight with the self-proclaimed Islamic State 
in Iraq and Syria (ISIS) and al-Qaeda and who are now returning.
    But beyond the threat of returning jihadists, it is the weakness of 
states in the region that presents the most significant and long-term 
driver of extremism. Since the Arab uprisings in 2011, most states in 
the region are now significantly weaker, unable to meet the basic 
demands of their citizens, and facing mounting economic pressures in an 
era of sustained low oil prices.
    Beset by fraying social contracts, the dashed hopes of the Arab 
Spring, and diminished opportunities for employment, some youth of the 
region have fallen prey to the appeal of jihad peddled by the Islamic 
State and al-Qaeda. The jihadists' critiques of state-led corruption 
and the abuses of the judiciary and police have also resonated 
strongly; heavy-handed government policies have often fueled the very 
radicalism they purport to quash. Added to this are broad swathes of 
ungoverned land and porous borders, where extremists have established 
logistical hubs and training camps, often negotiating access with 
marginalized tribal communities or co-opting existing smuggling 
networks.
    Finally, a key enabler of jihadism is state collapse and the 
outbreak of open armed conflict. Anywhere there is an established 
insurgency or civil war, we can expect the emergence of transnational 
jihadists who insert themselves among and within the warring parties 
and often recruit combatants to their ranks through superior funding, 
ideological motivation, and firepower.
    I will focus my remarks on Libya, a failed state that embodies a 
witches' brew of these afflictions and that poses the most immediate 
extremist challenge. Despite the successful Libyan-led campaign against 
the ISIS stronghold in Sirte, along with other successes by different 
Libyan armed groups against ISIS pockets in the West and East, the 
country remains at risk. Scattered ISIS members are regrouping and al-
Qaeda-affiliated fighters who defected to ISIS are now returning back 
to al-Qaeda-linked groups, more experienced and battle-hardened. Vast 
portions of its southern deserts remain a thoroughfare for the movement 
of fighters and arms to the Sahel and beyond.
    But more importantly, Libya's worsening political conflict, fueled 
in part by regional meddling and a contest for oil resources, has 
pushed it to the brink of civil war. This disastrous outcome would 
provide yet another opening for ISIS, al-Qaeda, or some new permutation 
to arise.
    To prevent such a scenario, Mr. Chairman, it is important the 
United States, working in tandem with the Europeans and regional 
states, redouble its diplomatic efforts to find a durable and inclusive 
political solution to Libya's conflict. At the same time, it should be 
ready to assist on a broad array of functions, to include the 
rebuilding the security sector, diversifying Libya's economy, advancing 
the rule of law, and supporting civil society. Any near-term 
counterterrorism (CT) actions inside Libya should reinforce the longer-
term goals of political unity and inclusive governance, and great care 
should be taken to ensure that CT engagement does not inadvertently 
worsen factional conflict by privileging one group over another.
    My remarks draw from visits to Libya over last 2 years to areas of 
conflict marked by a jihadist presence: Sirte, Benghazi, Sabratha, 
Tripoli, and southern Libya.
                       how jihadism grew in libya
    Libya has a long-standing tradition of jihadism stretching back to 
the Qadhafi era that saw waves of volunteers going to Afghanistan and 
then Iraq, where some developed ties to al-Qaeda and what would later 
become al-Qaeda in Iraq (AQI) and ISIS. These migrations belie the 
popular notion that Qadhafi kept a lid on extremism: To the contrary, 
economic neglect and repression at home helped fuel radicalization 
among certain neighborhoods and communities, whose participation in 
jihad on foreign battlefields was in some sense a transference of their 
frustrations against the regime.
    In 2011 and 2012, scores of Libyan youths went to Syria and Iraq, 
some of whom returned to establish the nucleus of the Islamic State in 
the eastern city of Derna, displacing existing Islamist armed groups. 
From there, the group spread to the city of Sirte, in the oil-rich 
center of Libya and established cells in Sabratha to the west, Tripoli, 
as well as attaching itself to existing Islamist and jihadist 
combatants in Benghazi. It then set about implementing the draconian 
style of governance it had practiced in Raqqa and Mosul, assaulting oil 
facilities to hasten the demise of the State, and attacking the 
facilities of police and militias who posed a threat. The Islamic 
State's leadership soon directed foreign aspirates to proceed directly 
to its North African outpost rather than Syria and Iraq. Foreigners 
played a crucial role in its expansion in Libya, especially jihadists 
from Tunisia (some of whom arrived to train for subsequent attacks 
against their homeland), the Mahreb and the Sahel, and military and 
governance advisors from Iraq and the Gulf.
    It is important to note two dynamics about the rise of ISIS in 
Libya that have strong implications for the future of jihadism in 
Libya.
    First, Islamist and jihadist communities after the 2011 revolution 
engaged in a series of fierce debates about strategies and priorities, 
to include whether to affiliate themselves with the post-Qadhafi State 
and to participate in elections, and whether and when to use violence. 
Developments in neighboring states, namely the closing of political 
space and military-led crackdown on political Islamists in Egypt, 
strongly influenced the outcomes of those debates in favor of more 
anti-state and radical actors. At home, a number of developments swayed 
the debate as well. The most important of these was the outbreak of 
open armed conflict in Libya in 2014 between the so-called Dawn and 
Dignity camp, abetted by opposing blocs of regional states (Turkey and 
Qatar for the former; Egypt, the UAE, and Jordan for the latter) 
provided further space for the rise of radical jihadists, especially 
the Islamic State, to expand. For nearly 2 years, the two opposing Dawn 
and Dignity factions were more focused on fighting each other than on 
dealing with the extremist menace that gathered in their midst.
    Second, the Islamic State in Libya won support among communities 
and tribes that had been politically marginalized in the post-Qadhafi 
political order or threatened by local rivals. This was especially 
apparent in Sirte, a city that had suffered after the revolution 
because of its affiliation with the Qadhafi regime. Here, members of 
historically loyalist tribes, the Warfalla and Qadhadhafa, welcomed the 
Islamic State as a form of self-protection against abuses from the 
neighboring city of Misrata, which had assaulted Sirte at the end of 
the revolution and exacted revenge against it inhabitants. Similarly, 
some local Islamist militias in Benghazi cooperated with the Islamic 
State on the battlefield because they faced a shared enemy, the self-
styled Libyan National Army (LNA) forces of General Khalifa Hifter.
    Finally, jihadists from al-Qaeda in the Islamic Maghreb and other 
groups based in the Sahel have exploited weak governance and dire 
economic conditions in Tuerag tribal areas of southern Libya for 
logistics and training. Their fighters draw upon a long history of 
local knowledge stretching back to Sahelian insurgencies of the 1990's 
and Algeria's civil war. After the revolution, these groups established 
links with local armed groups and jihadists in the north, particularly 
the northeast in Benghazi, Derna, and Ajdabiya. Ansar al-Sharia trained 
fighters loyal to the seasoned Algerian jihadist Mukhtar Belmokhtar, 
prior to their January 2013 attack on the Tiguentourine gas facility in 
Amenas, Algeria.
    Local sympathizers and collaborators in southwestern Libya have 
facilitated some of this transnational presence and movement. That 
said, the Tuaregs' political and communal opponents in Libya have often 
exaggerated the depth and scope of extremist penetration, particularly 
in town of Ubari and farther west. The jihadist presence is mostly 
logistical and the result of weak administrative and police control in 
the south, rather than wide-spread support. Where jihadi relationships 
exist with local armed groups and smugglers, it is often transactional, 
resulting from a shared interest in keeping borders uncontrolled. Aside 
from this presence, the penetration of radical ideology into Libyan 
Tuareg communities or into the south's social fabric more broadly is 
minimal.
    Taken in sum, these three dynamics underscore the fact that the 
radical jihadist current in Libya is neither constant nor immutable. It 
ebbs or expands according to the local economic and political 
conditions, government capacity, and conflict in the country. This is 
why American engagement with a broad range of tools is so important in 
denying jihadists the chance to remerge.
            risks of renewed conflict and resurgent jihadism
    Last fall, Libyan forces loosely affiliated to a U.N.-backed 
Government of National Accord (GNA) in Tripoli, backed by American 
airpower and Western special operations, scored a hard-won victory 
against the ISIS stronghold in the central city of Sirte. Elsewhere 
across the country, Libyans ejected ISIS cells and fighters from Derna 
and Benghazi in the east, from Tripoli, and from the town of Sabratha 
near the Tunisian border.
    Today, ISIS is no longer a territorial force in Libya in any 
meaningful sense. That said, its demise presents a number of dangers.
    First, remnants of ISIS could still reconstitute themselves and sow 
trouble. Already, fighters have fled to the desert valleys south of 
Sirte, where they've tried to regroup in small encampments like the one 
the United States bombed on January 18 of this year. The group is said 
to have a residual presence around the western town of Sabratha, a 
long-time hub for Tunisian jihadists, and its clandestine cells are 
still capable of attacking in and around the Tripoli, already wracked 
by intra-militia fighting. This poses a potential danger for the return 
of foreign embassies and businesses to the capital.
    Beyond these specific threats, Libya remains an attractive host to 
jihadism, whether from ISIS, al-Qaeda, or some new variant. The 
conditions are ripe: A long legacy of jihad, economic despair, a 
governance vacuum, and worsening polarization that could leave some 
communities feeling as if they have no recourse but violence. Some 
tribes in Sirte, such as the Qadhadhafa and Warfalla, see the Misratan-
led victory against ISIS as less of a liberation and more of a 
conquest--and it was their grievances against Misratan domination that 
gave ISIS its opening in the first place.
    Most importantly, though, the struggle against the Islamic State 
has given way to a renewed National-level conflict. Western diplomats 
had hoped that fighting ISIS could serve as a springboard for political 
unity among these warring camps.
    In fact, the opposite has happened.
    Local campaigns against ISIS across the country were pell-mell and 
carried out by disparate and hostile armed groups without any unifying 
government authority. For example, rival jihadists in Derna ejected the 
Islamic State, and in the western coastal town of Sabratha, local 
militias involved in migrant trafficking helped lead the campaign. In 
Sirte, the militias from the powerful city of Misrata that defeated 
ISIS were only loosely tethered to the GNA in Tripoli--and many in fact 
fiercely opposed it. Now that ISIS is gone, some have turned their guns 
on the GNA.
    In Benghazi, Hifter's LNA has largely defeated ISIS and other 
jihadist groups but, in the process, it severely ruptured the city's 
social fabric, displacing thousands of families and unleashing 
exclusionary forces such as tribalism and ultraconservative Salafism. 
Across the east, Hifter has replaced elected municipal councils with 
military governments and cracked down on civil society and freedom of 
the press. Disturbing evidence has surfaced of war crimes committed by 
soldiers under his command, such as the exhumation and abuse of enemy 
corpses and summary executions of both combatant prisoners and 
civilians. None of this is a recipe for enduring stability or success 
against radicalism. And indeed, Islamists evicted by his campaign have 
already waged attacks against his forces outside of Benghazi and in the 
oil crescent.
    Most ominously, though, the campaign against ISIS has helped 
embolden Hifter and his supporters to make a renewed push for National 
domination with the capture of major oil facilities in Sirte (though 
not uncontested) and repeated threats to invade Tripoli.
    This looming danger, Mr. Chairman, demands immediate engagement 
from the United States. Having expended considerable military effort in 
helping Libyan forces wrest territory from the Islamic State last year, 
the United States should now turn its attention to ensuring the country 
does not slip into civil war and building a cohesive government, while 
at the same time dealing with residual and emerging jihadist pockets.
                     what can the united states do?
    Sticking to the mantra of supporting the GNA in Tripoli, as 
Washington and Western governments have done over the past year, is no 
longer a viable option. But neither is the seemingly easy solution of 
backing a military strongman such as Hifter.
    Hifter has no realistic prospect of stabilizing Libya through 
military rule. His Libyan National Army is neither national nor an 
army. Even in the east, the bulk of the LNA's forces are drawn from 
civilian fighters--militias of varying backgrounds that are 
increasingly disguised as formal army units. In the west and south, the 
LNA units have a distinctly tribal composition, provoking suspicion 
among neighboring communities that view them as little more than tribal 
militias. Because of their geographic concentration in the east, they 
are not useful partners in tackling the flow of migrant smuggling, 
which is mostly based along a western strip of coast stretching from 
Misrata to the Tunisian border.
    The idea that Hifter's forces could take over Tripoli and rebuild 
the Libyan State is thus highly implausible. Indeed, encouraging Hifter 
to expand his reach toward Tripoli risks triggering a war over the 
capital that could drag on for years. With a third of the country's 
population living in the greater Tripoli area, such a conflict could 
cause displacement and humanitarian suffering on a scale not seen to 
date in Libya. It would also offer opportunities for jihadist 
mobilization. Non-Islamist armed groups in Tripoli would join forces 
with Islamist-leaning fighters to confront Hifter. As in the case of 
Benghazi, the most extreme and irreconcilable jihadist elements would 
invariably rise to the fore.
    Even if Hifter were able to establish control over Tripoli, his 
rule would cause more, not less, radicalization. Like Egypt's al-Sisi, 
Hifter makes no distinction between ISIS, al-Qaeda, and the Muslim 
Brotherhood (whose Libyan branch has supported the GNA's formation). 
His stated goal of killing, jailing, or exiling Islamists of all types 
risks provoking moderate, pro-state Islamists into going underground 
and allying themselves with radical jihadists. Meanwhile, doctrinaire 
Salafis promoted and encouraged by Hifter--who preach absolute loyalty 
to a sitting ruler--would further extend their influence, and enforce 
their harsh interpretation of Sharia law more widely.
    In sum, unification through military action is not realistic in 
Libya. Instead, the United States, in conjunction with regional states, 
should support a renewed push for a political settlement. This requires 
a number of things.
    First, it necessitates the deterrence of any moves toward military 
escalation by exerting credible pressure on the warring parties, to 
include the threat of sanctions and exclusion from any future security 
assistance.
    Second, it requires rebuilding the negotiating architecture, with 
regional states taking the lead. The challenge will be brokering a 
common platform for dialog among states with vested interests in Libya. 
How to deal with an increasingly assertive Russia will pose a 
particular difficulty. Recent initiatives by regional states like 
Tunisia and Algeria should be encouraged, but they need to be 
transferred into a more coherent framework. A small group of states, 
closely coordinating with each other, could act as mediators and, 
eventually, witnesses and guarantors to an agreement.
    The U.S. role in such a process could be to provide strong and 
explicit support for the mediating consortium. Most importantly, it 
would require putting pressure on the regional states still backing 
Hifter like the Emirates and Egypt and, more recently, Russia. Every 
effort should be made to broker a deal that includes the general within 
the framework of a civilian-controlled military. But if Hifter proves 
recalcitrant, the United States must be willing to push his regional 
and international backers to end their support.
    Beyond the Herculean task of forging a political compact, the 
United States faces the enormous task of helping whatever new Libyan 
government emerges to succeed by delivering on basic services, 
security, and, especially, economic growth.
    An immediate priority is securing the capital of Tripoli, which 
means reaching an agreement among militias to remove their forces and 
heavy weaponry outside civilian areas, and to make way for a protection 
force that can be built up over time with training and support from the 
outside. Another imperative is safeguarding key strategic assets like 
oil facilities, airports, and ports from factional conflict. Here, a 
number of options could be explored such as an agreement for de-
militarization or protection by a neutral, third-party force.
    The new Libyan government will need enormous help on the economic 
front, in setting up an equitable and rational system for the dispersal 
of oil revenues to employees and to municipalities, while working to 
diversify to other sectors. The development of alternative livelihood 
sources is especially important in countering migrant smuggling, 
especially in the south, where young men are drawn into smuggling 
networks because of the absence of alternatives.
    The judicial sector is another key area of assistance, along with 
prisons, particularly with regard to captured Islamic State fighters 
and jihadists returning from abroad. Many are currently incarcerated in 
militia-run prisons with little or no judicial oversight, where they 
are reportedly tortured or subjected to religious rehabilitation 
programs that, by themselves do not prevent recidivism. Local 
communities and, especially, meaningful opportunities for employment or 
education provide the best hopes for post-prison reintegration.
    The challenge of rebuilding Libya's police and army will likely be 
a multi-year and even decades-long investment, given the decrepit state 
of the regular army under Qadhafi's long reign and the plethora of 
armed groups today. A training effort in 2013-14 by the United States, 
Britain, Turkey, and Italy to build a national army--the so-called 
general purpose force--failed in part because the Libyan government was 
divided among itself, with some factions favoring militias and because 
there was no unified military structure or institutions for recruits to 
join. Those recruits that did complete the training returned to Libya 
and were either put on leave or melted back into militias.
    Future training programs risk repeating these mistakes, unless the 
new government agrees on a roadmap for building a unified and 
professional military, delineating its geographic divisions and 
functions, while at the same time formulating strategy for demobilizing 
and re-integrating militias. This requires a degree of political 
consensus, which Libya has hitherto lacked. Once that is reached, the 
United States can assist in helping Libyan defense institutions in such 
areas as planning, payroll, and logistics through an intense advisory 
effort, possibly under the auspices of an expanded Defense Institution 
Reform Initiative (DIRI).
    Mr. Chairman, the United States also has an enormous opportunity to 
re-engage with Libyan society through assistance on municipal level 
governance, civil society, media, and education. These sorts of 
programs are an important corollary to the development of formal 
political, security, and economic institutions which, given their 
decrepit condition under Qadhafi, is likely to be a generational 
endeavor. And Libya possesses enormous human capital that could benefit 
from such engagement, itself a cause for guarded optimism: A literate 
and educated population, small in size, geographically concentrated, 
and largely lacking in the stark and sometimes existential ethnic, 
sectarian, and linguistic divides that afflict other Middle Eastern 
states. But proposed cuts to American foreign aid programs on this 
front would deprive us of this opportunity, with likely damaging 
results for future stability.
    On a similar note, I would like to add that the ban on the travel 
of Libyan citizens to the United States is not only morally 
reprehensible, but self-defeating with regard to goals in the country. 
It deprives the United States to opportunities for important 
engagements and exchanges with visiting scholars, students, officials, 
and citizens--engagements that are all the more important since Libya 
is closed off to American diplomats. But more importantly, it 
represents a profound betrayal of American values and of the hopes 
ordinary Libyans attached to America ever since the 2011 intervention.
    Mr. Chairman, in my repeated travels to Libya I've enjoyed the 
hospitality and protection of countless Libyans. In Sirte, Sabratha, 
Tripoli, and Benghazi, I've seen first-hand the sacrifices Libyan young 
men made in battling the Islamic State. Despite popular depictions, the 
vast majority of Libyans have rejected extremism in all of its forms. I 
therefore urge the immediate repeal of this law, for Libya and the 
other affected countries.
    Mr. Chairman, committee Members, I thank you for the opportunity to 
testify today, and I look forward to your questions.

    Mr. King. Thank you, Dr. Wehrey. Appreciate it very much.
    I will begin with my questioning. Which of the groups do 
you think represents the most dangerous, long-term threat to 
the United States between ISIS and al-Qaeda?
    Dr. Porter.
    Mr. Porter. I have asked this question multiple times, and 
I also asked it to my cadets when I was teaching at West Point, 
and it comes down to the different strategies that the 
different groups employ, whether it is the Islamic State or its 
affiliates around the world or al-Qaeda.
    In my opinion, while the Islamic State is burning very 
brightly, it is also burning very quickly. Al-Qaeda has 
employed a more conservative, longer-term strategy and is 
likely to be more enduring of an organization than the Islamic 
State will be.
    It is more likely--Mr. Alkhouri mentions that there is a 
less rigorous recruiting process for al-Qaeda. I would argue 
that it is less aggressive in its recruiting because it is more 
selective in its recruiting. The membership of al-Qaeda, I 
think, is more capable than the membership of the Islamic State 
over the longer term.
    So in North Africa, the more enduring threat to the United 
States and to U.S. National interests overseas is without a 
doubt al-Qaeda in the Islamic Maghreb, and not the Islamic 
State.
    Mr. King. Dr. Pham.
    Mr. Pham. I would pick up where my friend, Dr. Porter, left 
off and say that I would agree with him. In the Sahel and parts 
south, what we see is al-Qaeda embedding itself within, picking 
up local grievances, local groups and multiplying, where 
necessary, local front groups that the identities shift.
    For example, the Peul or Fulani peoples of the region, who 
straddle the entire region, have increasingly seen and 
witnessed an al-Qaeda-linked group emerge, the Macina 
Liberation Front, which has now merged into this group that you 
cited earlier, Mr. Chairman, this group for the support of 
Islam and Muslims, but still also operates independently at 
times when convenient.
    Attacks not only in Mali, Niger, Burkina Faso, but we are 
seeing increasingly attacks in Nigeria and even parts farther 
south than the Boko Haram have, targeting largely predominately 
Christian communities in Nigeria.
    Mr. King. Mr. Alkhouri.
    Mr. Alkhouri. I believe both of them pose a significant 
threat. I think, though, al-Qaeda in the Islamic Maghreb poses 
a bigger threat to Western civilians and interests in the 
region, meaning in North Africa, the Sahel, and the Sahara. But 
I believe in the long term, ISIS' message has really been 
extremely disseminated across the West a lot, a much more 
powerful message than AQIM.
    In 2015 alone, ISIS released between 750 to 800 videos, 
unlike AQIM which released only a couple of dozen of them. 
These videos have largely concentrated on indoctrinating 
individuals in the West and inciting them. These videos will 
continue to be a recruitment tool, an indoctrination tool for 
Westerners for decades to come.
    So I believe that ISIS, in the long term, its message is a 
lot more aggressive in targeting the West than al-Qaeda's.
    Mr. King. Dr. Wehrey.
    Mr. Wehrey. Well, just to second what was said, I think 
AQIM poses the more enduring threat, I think because of its 
focus on embedding in societies in this region and its focus on 
governance. But I would just caution that much of this is 
transactional. So, again, I think its maneuverability is 
somewhat limited on what kind of groups it can co-opt.
    Certainly, it is a threat to American interests in the 
Sahel in West Africa. In Libya, at least, I would argue ISIS 
could try to stage a comeback through spectacular attacks, 
especially if there is any return of Western embassies or the 
United Nations to the capital. ISIS could try to make its 
presence known through attacks there.
    Mr. King. Thank you.
    Again, I would ask the four of you, how significant is the 
recruiting on-line propaganda in this region? How would you 
compare what al-Qaeda is doing there and ISIS compared to on-
line in the rest of the world, you know, as far as targeting?
    Mr. Alkhouri.
    Mr. Alkhouri. I believe, as I mentioned earlier, ISIS has a 
much more aggressive call for attacks, and its operations on-
line, essentially, I would say, when looking at AQIM's 
operations on-line, it has only two channels that operate on-
line. Their followers are only in the low hundreds.
    When I look at ISIS channels on-line, they have over 50 of 
them, and they operate, you know, across encrypted-messaging 
platforms as well as the deep, dark web.
    I have been following ISIS' operations on-line since its 
inception. I would say that it has really dominated the 
internet, not only in its dissemination of propaganda, but 
actually its use of technology to incite others, provide them 
with advice on how to evade scrutiny and essentially operate 
very comfortably in the West.
    So I would say ISIS has a much more dominating presence 
online than al-Qaeda or al-Qaeda in the Islamic Maghreb.
    Mr. King. Anybody else want to comment?
    Dr. Pham.
    Mr. Pham. I would agree with Mr. Alkhouri that on-line, but 
I would caution the subcommittee that on-line is just one 
dimension of media. Where al-Qaeda perhaps has an advantage as 
an ideology and its ideological roots is the fact that it is 
built on a matrix that has been developed over years of foreign 
money, foreign influence, mosques, and social networks.
    So in many respects, this is an area where on-line is one 
thing, but we have very low literacy rates as well. So access 
to the internet is lower and so there are other ways of social 
messaging that we should be aware of.
    Mr. King. Dr. Porter.
    Mr. Porter. In fact, Dr. Pham took the words right out of 
my mouth. I think, you know, when we think about the on-line 
recruitment among Islamic State or al-Qaeda in the Islamic 
Maghreb in North Africa, we have to bear in mind that internet 
penetration rates in the Sahel, and particularly in Niger, 
Chad, Mali, and especially in northern Mali and northern Niger, 
are low.
    That is going to be a natural or inherent barrier for 
Islamic State or al-Qaeda on-line recruitment methods in those 
regions. As Dr. Pham also pointed out, there are other 
mechanisms on the ground that these organizations can use to 
generate followers.
    Now conversely, internet penetration rates, despite the 
instability and turmoil in Libya, are fairly good. Likewise, 
internet penetration rates in Morocco are also very good, which 
comes part and parcel of Morocco's economic development.
    So it poses a double-edged sword. On the one hand, you have 
economic opportunities generated by telecommunications 
developments, but on the other hand, you know, you have the 
risk posed by on-line communications and on-line recruitment. 
Thank you, sir.
    Mr. King. OK.
    Dr. Wehrey.
    Mr. Wehrey. Just to echo what was said, I think the, you 
know, on-line penetration and also, you know, media in general 
can sort of sensitize people. But I think the ultimate 
recruitment, and this is stemming from a lot of the interviews 
I have done in Libya, is really based on social groups and sort 
of neighborhood influences.
    You look at al-Qaeda groups like Ansar al-Sharia, they were 
very effective in promoting a certain culture with youth camps, 
social works, and from there it was an easy path to armed 
jihad.
    Mr. King. Thanks.
    Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Porter, I would just like to start with you. You had 
said in your testimony that the greatest threat in North Africa 
is injustice and the lack of rule of law, or, you know, or 
commitment to justice and the rule of law are foundations of 
any properly functioning government.
    All last year we heard a lot of America first, America 
first, and it has yet to be seen how that is going to translate 
from a campaign slogan to a governing party. But what effect is 
that going to have on how receptive people in North Africa are 
going to be to our intervention there in the various different 
ways that we intervene?
    Mr. Porter. Thank you, ma'am. It is a very pertinent and, 
to be frank, difficult question. I think depending on the types 
of programs that the United States initiates overseas in, and 
particularly in North Africa, which is the subject of today's 
subcommittee hearing, for the most part, U.S. engagement in the 
region is positively received.
    It is received well by the Chadian armed forces, the 
Nigerian armed forces, the Malian armed forces. So military aid 
is welcomed by those host countries, and I think that has 
yielded dividends in counterterrorism campaigns in North Africa 
and the Sahel.
    In addition, parallel to that, the United States aid 
programs and development programs through USAID and through 
State Department are also well-received. They pay dividends in 
a different way.
    I think, you know, one of the things that we should 
emphasize here today, and speaking more broadly about the 
current budgetary environments on the current foreign policy 
environment in Washington, is that, as I said in my testimony, 
there is no strictly military solution to counterterrorism. 
That removing terrorists from the battlefield only slows the 
group's evolution. It does not eliminate the group.
    What eliminates the group is changing the conditions on the 
ground. The military does not do that, and nor should they. It 
is not their job. That job falls to State Department. I think 
this is as important a component of counterterrorism as the 
military is. Thank you very much, ma'am.
    Miss Rice. So that leads to my next question, that the 
Trump administration has proposed a 28 percent cut to the State 
Department, which would devastate foreign aid programs. What 
say you about that? I mean what effect is that going to have on 
the non-military programs that you were just talking about?
    Mr. Porter. A negative one.
    Miss Rice. How do we address that? How do we make the point 
that--I mean there are members of the administration, the 
Secretary of State, the Secretary of Defense, who have talked 
about this. In what ways, how is this being received, if at 
all, by the countries that you are talking about that rely on 
foreign aid from the United States? What is their take on this?
    Mr. Porter. To the best of my knowledge, ma'am, there is a 
sense of anxiety among North African capitals about what the 
retreat of U.S. State Department programs, USAID programs in 
their countries will have. In particular, there are concerns in 
Tunisia about the good governance programs that the United 
States is supporting there.
    There are concerns in Morocco. Morocco does have a constant 
battle against Islamic State supporters within their own 
borders. To Morocco's credit, it is doing a very good job on 
the counterterrorism front, but it needs help on rule of law 
and good governance issues. Likewise, Algeria, and then the 
Sahel states even more so.
    So this will have a deleterious effect on the good 
governance rule of law environment, and I think it will 
aggravate the sense of social injustice that upon which salafi 
jihadi groups feed. Thank you, ma'am.
    Miss Rice. Thank you.
    Dr. Wehrey, a question for you. How valuable is a strong 
European Union, right? We are talking today about the threat 
not just to the United States, to the terrorism that is going 
on and growing in North Africa, but also to Europe. In your 
opinion, how important is a strong European Union? Or is it not 
to kind of combatting, doing their part to combat terrorism in 
the North African region?
    Mr. Wehrey. Thank you, ma'am. I think it is, you know, 
absolutely essential and especially in a place like Libya where 
the United States can't bear the burden on its own. I mean, 
after the 2011 revolution, the European countries had a number 
of, you know, programs to address various aspects of Libya's 
governance and security. They are now engaged on the border 
issue.
    But I think, and this speaks to your previous question, I 
think they do require some U.S. leadership behind them. So the 
United States can lend certain capabilities here, which is why, 
to echo what Dr. Porter said, it is so important that we stay 
involved. But, no, I mean the European Union is absolutely 
essential.
    Miss Rice. Thank you.
    Thank you, Mr. Chairman.
    Mr. King. Mr. Keating from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    You had mentioned before that this is more of a direct 
threat to Europe. Could you comment particularly on threats to 
Europe directly from this area, particularly southern Europe, 
where countries like Italy, most of the migration is coming 
from Northern Africa?
    Could you really, any of you, or all of you hopefully, 
comment on what the nature of those threats are? What the 
United States and what our allies there can do to try and 
counter that?
    Mr. Porter. Sir, thank you. Thank you for your question. As 
I said in my oral testimony, the threat posed by jihadi salafi 
organizations in North Africa to Europe is much greater than 
that posed to the United States simply because of geographic 
proximity.
    You know, when I brief the FBI or ICE, a couple throwaway 
facts, you know, the Strait of Gibraltar separating Morocco 
from southern Spain at its narrowest is 8 kilometers wide. A 
flight from Algiers, the capital of Algeria, to Marseille, 
which is the second largest French city, is about the same 
length and time as the New York-D.C. shuttle.
    So North Africa is in Europe's backyard. That poses a grave 
concern for European countries, especially those on the shores 
of the Mediterranean.
    I do want to address what I think is a red herring, which 
is the fear that salafi jihadi terrorists will embed themselves 
with refugees or immigrants trying to cross the Mediterranean 
and illegally penetrate Europe's borders.
    You know, on the one hand, Islamic State and al-Qaeda in 
the Islamic Maghreb have sufficient resources not to have to 
throw themselves into a rickety dinghy and try and cross the 
Mediterranean. They can easily buy a plane ticket with a clean 
passport from a third-party country. There is no need to take 
the risk of trying to cross the Mediterranean.
    In addition, Islamic State and al-Qaeda in the Islamic 
Maghreb have likely supporters in Europe. Many of those 
supporters, as we have seen in the case of the Paris attacks, 
the Brussels attacks, the Nice attacks, have connections to the 
North African diaspora in Europe.
    So the threat, I think, is substantial, even with the fluid 
movement of peoples back and forth across the Mediterranean, 
but not necessarily through illegal channels and more and more 
likely through legal channels such as airplane tickets, 
ferries, and car crossings. Thank you, sir.
    Mr. Keating. Anyone else want to comment on that threat in 
Europe?
    Mr. Pham. Sir, thank you for your question. I would add to 
what Dr. Porter said, also, highlight the threat to European 
interests and personnel, including military and diplomatic 
personnel throughout this region in the region itself.
    In particular, France has--our allies there have a 
tremendous network of business and other contacts in the region 
that are there. The French lead the peacekeeping efforts in 
Mali.
    There are German units, even Swedish units in Mali, which 
has turned into the bloodiest U.N. peacekeeping operation 
anywhere, the deadliest because of the on-going instability in 
the northern part of the country.
    So I would add that there is the threat there. Many of the 
victims in the al-Qaeda-linked attacks in Cote d'Ivoire, 
Burkina Faso, Mali were European citizens. So there is a threat 
to Europeans in that area.
    One other low note I would add to that is there is the 
downside of the North African diaspora in Europe, but there is 
also the upside that some of the North African countries, 
Morocco in particular, have extraordinarily capable, not only 
counterterrorism but counter-radicalization programs driven not 
just by security services but by religious leaders and social 
networks, that help not only in their own country, but 
throughout this region, and increasingly, even reaching back to 
Europe as well.
    Mr. Keating. OK. Just a comment that yesterday in the 
Foreign Affairs Committee we had a hearing regarding the 
budget, the foreign aid budget. I share a very optimistic view 
that the present budget will not be the budget that we will 
endorse or support here in the House. That is a bipartisan 
statement yesterday, and a very strong one.
    But what about the role with our kind of assistance on 
empowering women in these regions to a greater extent? We have 
found in many areas that that is more successful, the money 
gets where it should, goes to the health and goes toward 
children. Does anyone want to comment on how spearheading some 
of those funds empowering women to be more involved in that 
area could be successful?
    Mr. Porter. I think it should be duly noted that you are 
asking a question about empowering women to an all-male panel. 
But----
    Mr. Keating. Well----
    Mr. Porter [continuing]. I will do my best.
    Mr. Keating. Well, maybe that is part of the problem that--
--
    Mr. Porter. Roger that, sir.
    Mr. Keating [continuing]. That we should be better prepared 
to answer those things as men. But go ahead.
    Mr. Porter. Or there should be more women sitting on this 
side of the table. But, sir, thank you very much for your 
question.
    Yes, I think it is 100 percent correct, and I saw some 
information yesterday that there is a quantifiable decreased 
likelihood of terrorist attacks or the emergence of jihadi 
salafi groups in countries in which women are more fully 
integrated into the economic and public and government life of 
the country. I can get you further statistics to support that.
    Mr. Keating. OK.
    Mr. Porter. I just don't have off the top of my head, sir.
    Mr. Keating. Yes. We have some and I would appreciate any 
more.
    Yes, sir.
    Mr. Pham. Just in the case of Libya, our support to women's 
civil society groups after the revolution, and the support of 
other countries, I think, was absolutely essential in creating 
a sort of momentum against armed groups and a counterweight to 
violence.
    So you see a lot of the civil protests against militias, 
not necessarily against--against extremists, too, but against--
militias were, in fact, led by women's groups. So I think it is 
tremendously empowering.
    The other dimension is in a lot of these marginalized 
communities, especially in the south where young men fall prey 
to extremism or get involved in smuggling, I mean women's, you 
know, roles can be incredibly useful, I think, in sort of 
curtailing that impulse.
    Again, with returning jihadists, we can't just throw them 
all in prison. There has to be some sort of integration program 
into their communities after justice is served. So there again 
I think women's groups can play an essential role here.
    Mr. Keating. I yield back. Thank you, Mr. Chairman.
    Mr. King. The gentleman from Texas, Mr. Hurd.
    Mr. Hurd. Thank you, Chairman, and thank you all for being 
here. This is an important topic. I actually only have one 
question, and it is a 30,000-foot view question, and I would 
love to hear everybody's opinion on it.
    Dr. Pham, maybe we start with you and just go down the 
line? When it comes specifically to terrorism in North Africa, 
what day do we celebrate? What day do we get to raise our hands 
and say we won?
    Can we imprison and kill everyone? I don't think so. So 
help me understand what is that end-point, that end-state that 
if we achieve we are going to say we solved the problem? Is 
that a fair question?
    Dr. Wehrey, you want to? It seemed like you are ready to 
answer. We can maybe start with you and go down the other way.
    Mr. Wehrey. Sure. I think it is an excellent question. I 
think we need to be very surgical and discrete in terms of 
identifying, you know, what groups really pose a threat to us 
because I think in a lot of these countries, you have 
traditions of religious conservatism. You have militancy. This 
has been going back decades. Now on top of that, you have these 
named terrorist groups, ISIS and al-Qaeda.
    You know, the question is these groups are very good at 
marbling into one another, and the question is how do we defeat 
those groups that matter to us? I think, you know, the question 
really is have we eliminated groups that have both the will and 
the capacity to threaten the interests of our allies, the 
economic interests, the personnel of our allies?
    Now, are we going to defeat, ``extremism'' in places like 
eastern Libya? We are not. Or are we going to completely, you 
know, eliminate illiberal extremist ideology in some of these 
places? We are not.
    So again, I don't think there is ever going to be a day 
where we are going to declare, you know, victory. We shouldn't 
widen the circle to the extent that we are involved in this 
sort of never-ending war.
    Mr. Alkhouri. Thank you for the question. The question is 
whether we are tackling terrorist groups and the word 
terrorism, or are we talking about extremism, because I believe 
extremism is a much bigger issue.
    I think that terrorist groups really capitalize on the 
issue of extremism that they have a lot of people have been 
bred up with, you know, for many years, and it doesn't take him 
long to get that extremism up and get these individuals to 
actually carry out acts of terrorism.
    But I think part of the solution, or at least the way I see 
it, that economic opportunities are a major part of the 
solution. I think that the region, North Africa and the Sahel 
at large, there is a high unemployment rate in many of these 
places, especially in Libya.
    If we look at de-radicalization programs, they essentially 
do not exist. We are not only talking about de-radicalization 
programs, meaning individuals who have already been radicalized 
and you put them through programs, but also we are talking 
about the necessity for anti-radicalization programs, programs 
that should exist prior to individuals actually having gone to 
the, you know, off that threshold.
    We are also talking about society building, and I think 
that is extremely important because they don't want to just see 
programs dedicated to, you know, to potential radical 
individuals, but also the society at large.
    If we are missing vital, you know, basic necessities in 
certain societies, then specific groups can capitalize on that, 
provide these necessities or these basic needs to the 
individuals in this society, and then, you know, take advantage 
of that, indoctrinate them and so on.
    Finally, I would say a major part of cutting off these 
groups is cutting off their finances. I think that the United 
States has succeeded in large part in cutting off the finances 
of al-Qaeda and ISIS.
    But also this is a problem that we keep seeing as 
individuals are dealing with digital currency, as individuals 
are still taking advantage of the banking system and taking 
advantage of fraud. We are seeing a nexus between jihadist 
terrorist groups and cyber-criminal groups. So that would be 
essential to tackle that problem.
    Mr. Porter. Sir, thank you for your question. You know, as 
I said in my written testimony, you know, in counterterrorism 
there is no mission accomplished. There is just continuing to 
accomplish the mission. There is no winning. There is just 
mitigating the risk to what we consider to be a tolerable 
level. That is it.
    I mean, combatting terrorism is hard. Counterterrorism is 
hard. The solutions exist along a continuum of military 
approaches and non-military approaches. You know, I think, you 
know, we have seen some progress in some North African 
countries. The threat is not uniform across North Africa.
    I don't think any country, and I don't mean to be facetious 
or to treat your question glibly, but I don't think any 
country, despite the successes that it is making in combatting 
terrorism, ever celebrates. I think a prime example of this is 
Algeria, which has struggled with terrorism since the 1990's.
    During the 1990's, terrorism was an egregious and horrible 
problem that left more than 150,000 dead. Today, when you 
travel to Algeria, especially in and around the capital, but 
also along the coast, you rarely think about terrorism.
    Now, is that celebratory, or is that cause for a 
celebration? No, but it is a satisfactory outcome. Does 
terrorism still exist in Algeria? Yes, to a severely mitigated 
extent.
    So I think, you know, it is a continuous and on-going and 
difficult process where there is no victory. There is just a 
satisfactory outcome. Thank you, sir, for your question.
    Mr. Pham. Just very briefly, sir, I would make two points. 
First, I think we are not going to have success, as my 
colleagues have said, but what we can do successfully is to 
lower the risk by lowering first the threat, the frequency and 
likelihood of these events, the vulnerability, the likelihood 
that when these events occur, they will be successful and 
lowering the costs of each event, even if successful, exerts.
    We can do that by helping our allies, which leads me to my 
second point, which is that I think one measure of a successful 
policy in the region is the extent to which we can have 
governments in place that are legitimate in the eyes of their 
people.
    Legitimacy does not mean necessarily, although it is often 
expressed as such, but not necessarily electoral, winning 
majorities at the ballot box.
    It is governments that are accepted by their people that 
provide basic security and services and can exert control to a 
large measure across their National territory. It is a long 
road to that, but it is certainly a significant step toward de-
risking.
    Mr. King. Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Thank you to all our panelists for joining us today. One 
question that has come up with increasing frequency is the 
question of whether or not we designate the Muslim Brotherhood 
in Egypt as part of a broader strategy of getting tougher on 
terrorism.
    Obviously, the Muslim Brotherhood is not a monolithic 
organization, but it has goals that are antithetical to our own 
foreign policy. It espouses the establishment of a global 
caliphate. Its charter says that death in the way of Allah is 
the ultimate end for its members.
    Help us think through, sort-of, the second and third order 
effects of designation. Would that enhance our counterterrorism 
effort in Egypt and more broadly across North Africa and indeed 
the Middle East as well? For the entire panel?
    Mr. Porter. Well, thank you for your question. Just to 
begin quite simply, if you increase the number of terrorists by 
designating people that were not previously terrorists, then 
you make your counterterrorism problem more difficult.
    But I think a more nuanced answer is that I am not entirely 
convinced that the threshold for designating a group a 
terrorist group is that they are antithetical to the U.S. 
foreign policy overseas. In addition, there is, as you also 
mentioned, the Muslim Brotherhood is a nuanced group that does 
embrace a range of ideologies and is engaged in a range of 
activities throughout North Africa.
    In terms of second and third order effects of designation 
of the Muslim Brotherhood as a foreign terrorist organization, 
I was speaking with a client yesterday, and I was speaking with 
another client last week who have businesses. These are U.S. 
companies with businesses in North Africa that employ foreign 
nationals on their staff and to whom they pay salaries.
    It is guaranteed in our conversations with these 
representatives of these companies, it is guaranteed that among 
their staff overseas are members of the Muslim Brotherhood. 
Designating the Muslim Brotherhood as an FTO would then leave 
these U.S. corporations vulnerable to accusations of material 
support for terrorism.
    In addition, it would raise the bar extensively for U.S. 
corporations doing business overseas in terms of KYC, again, 
running the risk of exposing U.S. corporations to material 
support for terrorism.
    So I think the implications, particularly for U.S. foreign 
direction overseas are enormous, in addition to the fact that I 
don't think the Muslim Brotherhood genuinely qualifies as a 
foreign terrorist organization. But thank you, sir, for your 
question.
    Mr. Gallagher. Thank you.
    Can I go to Dr. Wehrey just because we had many a 
productive debate and discussion when I was but a lowly staffer 
on the Senate Foreign Relations Committee on Tunisia and Libya? 
So I would be interested in your thoughts on the topic.
    Mr. Wehrey. Well, I think the second- and third-order 
effects I think would be, quite frankly, catastrophic, 
especially in a place like Libya where the Muslim Brotherhood 
is backing the U.N.-backed Government of National Accord in 
Tripoli, through which we are working to counter ISIS.
    I think designating it would create a whole new class of 
political losers in Libya, people that are shut out of the 
political process, and that is a prime recruiting pool for 
ISIS. So I think it would actually widen the circle of 
terrorists that we are trying to combat.
    Mr. Gallagher. Thank you.
    Dr. Pham, quickly since my time is expiring and since I 
apologize for being late to the hearing, given your extensive 
work in Africa and given some conversations we have had at, you 
know, putting Africa in the front view versus the rearview 
mirror, has there anything that hasn't been discussed today 
about terrorism in Africa, or an area that we are not paying 
enough attention to that you think we should pay more attention 
to on this subcommittee?
    Mr. Pham. Thank you very much, Mr. Gallagher, for that 
question. I think two things that we need to pay more attention 
to. One is the seamless nature and throughout this hearing, my 
fellow panelists and I have discussed how things have moved 
north-south from the Mediterranean shore down into Africa.
    Department of Defense treats all of Africa as a whole. 
Since 20 of January, so does the National Security Council. It 
makes sense. Threats move north-south. Economics works in the 
same direction, but the rest of the whole of government still 
draws a line and a lot falls through that chasm in the middle.
    The second point I would make is that we would do well to 
work with partners. We have got effective partners in the 
region, but we don't always work and coordinate.
    Morocco, for example, has a highly effective counter-
radicalization program. Mr. Keating earlier asked about women. 
Morocco trained--it is the only Muslim country that requires 
the training of a quota of women religious leaders and 
scholars.
    It has agreements with countries throughout the region to 
train imams in moderate forms of Islam as a counter to the 
Muslim Brotherhood or more radical forms. So working with them 
should be a part of our agenda.
    Mr. Gallagher. Thank you.
    Thank you, gentlemen. Appreciate your time.
    Mr. King. Thank you, Mr. Gallagher.
    Let me thank all the witnesses for their valuable testimony 
and the Members for their questions. The Members of this 
subcommittee may have some additional questions to the 
witnesses. I will ask you to respond to those in writing.
    Miss Rice, do you have any----
    Miss Rice. No.
    Mr. King. OK. Pursuant to committee rule VII(D), the 
hearing record will be held open for 10 days. Without 
objection, the subcommittee stands adjourned.
    [Whereupon, at 11:09 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Ranking Member Bennie G. Thompson for J. Peter Pham
    Question 1a. Economic and political insecurity seems to be a common 
occurrence across North Africa. In your opinion, how does this regional 
and state fragmentation pose long-term challenges for the United 
States?
    Question 1b. How can the United States and its allies in the region 
disrupt the recruiting efforts of local al-Qaeda and the Islamic State 
affiliates that take advantage of this turmoil?
    Answer. The Maghreb and the adjacent Sahel are textbook examples of 
the threat that weak states can present to the international community 
in general and, more specifically, to the interests of United States 
and its allies. The region is an almost ideal environment for extremist 
groups with transnational ambitions, whether ISIS fighters smarting 
from defeats on the battlefields of Iraq and Syria or al-Qaeda 
militants seeking to reassert the preeminence of their organization 
within the global jihadist movement. The challenge posed by the various 
militant groups operating in the Sahel is directly linked to their 
ability to exploit myriad local conflicts, including social, economic, 
and political marginalization, as well as the fragile condition of many 
of the states in the region.
    As I noted in my prepared statement, the challenge posed by these 
jihadist groups and their efforts to recruit in this region cannot be 
countered except in an integrated fashion, with solutions that embrace 
a broader notion of human security writ large, encompassing social, 
economic, and political development. Moreover, to be effective, these 
solutions also must transcend national and other artificial boundaries 
that cut across the region. Obviously, this is not--and should not be--
a task just for the United States, but is one which it is in America's 
strategic interest to play its part and, indeed lead.
    Question 2. In your opinion, what is the most important base of the 
Islamic State and al-Qaeda in North Africa?
    Answer. The Sahel, rather than the Maghreb--where, with the 
exception of Libya, there are strong states that have shown their 
ability to resist not only al-Qaeda, but also ISIS, encroachments--is 
the most promising base for affiliates of both the so-called Islamic 
State and al-Qaeda, especially as fighters return to Africa from the 
Levant and link up with others of their ilk displaced from Sirte and 
other places on the Mediterranean littoral and make their way to the 
Fezzan and other points south.
    Question 3. How would you measure the extent of Islamic State and 
al-Qaeda fighters that have fled fighting zones in the Middle East to 
North Africa?
    Answer. The countries of the Maghreb, especially Tunisia, have 
contributed foreign fighters to the battlefields of Syria and Iraq at 
higher rates per capita than almost any others. Thus one can expect 
that the defeat of ISIS in Syria and Iraq will lead many of those 
militants who survive to make their way back to Africa and many of 
these will, in turn, find the Sahel a particularly opportune 
environment. The Sahel is one of the poorest majority-Muslim regions in 
the world. It is also home to the largest expanse of contiguous 
ungoverned spaces on the African continent: Many of the governments in 
the region are weak and their capacity to assert authority--much less 
provide real services--beyond their capital cities and a smattering of 
urban centers is extremely limited at best. These fragile states 
present the returning jihadists both a tempting vulnerability to 
exploit in the short term and a tantalizing opportunity to create a new 
hub for operations over the long term.
    Question 4. The United States spends a great deal on training and 
equipment for allies to help combat terrorism. In your opinion, which 
countries in the region should the United States be focusing most of 
its efforts on?
    Question 4a. Is this a more cost-effective option than deploying 
U.S. forces and limit the need for future U.S. intervention?
    Answer. While compelling cases can be made for U.S. cooperation 
with almost every country in the region, two stand out for their 
strategic significance. Given its population (the largest in Africa, 
including both the continent's largest Muslim and Christian 
communities) and its economic importance (the second-largest economy on 
the continent, having lost the No. 1 slot to South Africa last year due 
to a recession), Nigeria is without a doubt a pivotal country on whose 
security and stability not only the Sahel, but much of West Africa 
depends.
    Also important is Morocco, a long-standing ``major non-NATO ally'' 
of the United States. Morocco's whose aggressive, multi-pronged 
approach to countering radical ideology and terrorism has much to 
commend it as does the kingdom's efforts to assist other countries in 
North and West Africa in the same fight. The potential of the U.S.-
Morocco Framework for Cooperation, signed during the U.S.-Africa 
Leaders Summit in 2014 and aimed at developing Moroccan training 
experts as well as jointly training civilian security and 
counterterrorism forces with other partners in the Maghreb and the 
Sahel in recognizing a ``triangular'' approach, needs to be better 
appreciated and developed. The North African country is an instance of 
where some resources can have a multiplier effect.
    Questions From Ranking Member Kathleen M. Rice for J. Peter Pham
    Question 1. What are your opinions on the President's travel ban 
and its potential effects in North Africa?
    Answer. The only North African country affected by the travel ban 
is Libya, where the practical effects may be somewhat limited at the 
current time: The country has three self-styled ``governments'' 
competing for power as well as numerous other factions, without even 
counting the jihadist groups linked to ISIS or al-Qaeda. Even apart 
from the advisability or not of the travel ban as a policy, one 
question that needs to be asked is how in the very constrained 
circumstances of a country like that the consular functions, including 
the vetting of potential travelers, can even be carried out effectively 
enough to assure that anyone granted entry into the United States does 
not, in fact, pose a threat to our citizens and homeland. Much of the 
work done by the dedicated men and women of the Foreign Service is art, 
not science. And I wonder whether they have the access necessary to 
form correct judgments in cases where security limits their access to 
the community.
    Question 2. On March 9, 2017, General Thomas D. Waldhauser, head of 
U.S. Africa Command, acknowledged in his testimony to the Senate Armed 
Services Committee that there have been signs of Russian security and 
political interference inside of Libya. In your opinion, how does this 
affect U.S.-led and U.S.-backed operations currently in Libya?
    Answer. I do not have access to the information that General 
Waldhauser has at his disposal, but clearly security and military 
interference by Russia--or any outside country not allied with us--
further complicates an already fraught situation and, potentially, 
undermines both the leverage that the United States and our partners 
have as well as our overall strategic objectives.
     Questions From Representative Mike Gallagher for J. Peter Pham
    Question 1a. Camp Lemonnier in Djibouti is our largest permanent 
military installation in Africa and is critical to our counterterrorism 
operations throughout Africa, as well as the Middle East. Just a few 
miles away, a Chinese naval base is being constructed and is slated for 
completion this summer. Publicly, Chinese officials maintain this base 
is strictly to aid their anti-piracy missions and is not a base, but 
rather a ``logistical support facility.'' During a briefing with 
reporters on March 27, AFRICOM Commander and Marine Corps Gen. Thomas 
Waldhauser said, ``There are some very significant operational security 
concerns,'' in response to a question about the new Chinese base. This 
is China's first permanent overseas military outpost, which carries 
added significance. How can this new proximity to the Chinese affect 
our CT missions in the region?
    Question 1b. How will their foreign policy goals conflict with our 
own?
    Answer. Not only do I share General Waldhauser's preoccupation 
about what he described diplomatically as ``some very significant 
operational security concerns'' about the Chinese ``logistical support 
facility,'' but I would go a step further and say that the placement of 
mainland China's first overseas military base in Djibouti represents a 
strategic revolution in the country's military posture in the region. 
Not only will the proximity of Chinese forces permit them to have a 
literal front-row seat to our counterterrorism and other operations out 
of Camp Lemonier--and those of our French allies nearby as well as the 
anti-piracy efforts of the Japanese Self-Defense Forces, also based in 
the vicinity--but the location also affords them significant advantages 
in the region. Consider, for example, the Shaanxi Y-8, the workhorse 
reconnaissance aircraft deployed by Chinese forces, has an effective 
range of approximately 2,500 kilometers without refueling; from 
Djibouti, Chinese planes can cover the entirety of the Arabian 
Peninsula, almost to the Syrian and Iraqi borders with Turkey, to the 
northeast; all of Egypt, Sudan, South Sudan, and most of eastern Libya, 
to the northwest; half of the Democratic Republic of the Congo to the 
west and all the way to the Mozambique Channel to the south; and most 
of the western Indian Ocean to the east.
    Question 2a. AFRICOM has been partnering with Tunisian military and 
intelligence assets to improve their CT&I capabilities and help secure 
their borders. However, according to the Center for Strategic and 
International Studies, somewhere between 6,000-7,000 Tunisians have 
travelled to Syria and Iraq to join rebel and terrorist groups in those 
conflict zones. The Wall Street Journal reports that ``As many as 
15,000 others have been barred from international travel because 
Tunisia's government suspects them of planning to follow suit.'' 
Another report, citing a U.S. CT official in Tunisia, says as many as 
1,000 Tunisians are under domestic surveillance within the country. 
Given these numbers, how can we expect the Tunisians to adequately 
address these issues and implement a successful CT strategy?
    Question 2b. What more can we do to implement and improve upon 
AFRICOM's existing partnership with Tunisia?
    Answer. Not only has Tunisia sent more fighters to join the so-
called Islamic State than any other country, but Tunisians have also 
gone abroad to join al-Qaeda in the Islamic Maghreb and other jihadist 
groups. Moreover, these fighters have already begun to focus their 
attacks on their own homeland, with the country being hit by more than 
50 terrorist attacks in the last 3 years, many coming from militants 
operating in Libya. While the Africa Command has been trying to build 
up the capabilities of our Tunisian partners, who were designated a 
``major non-NATO ally'' in 2015, the military effort alone will not 
suffice for the scale of the challenge faced. The country's police 
forces and judicial system also need strengthening. The government also 
lacks a comprehensive counter-radicalization program, to say nothing of 
mechanisms for deradicalization and reintegration. Here Tunisia may 
benefit from help from neighbors like Morocco, which have much more 
mature efforts in this regard.
    Question 3. The Libya-Italy migrant route was described in late 
2016 as the major migrant route into Europe, surpassing the notorious 
path from Turkey to Greece that was used by approximately 850,000 
migrants in 2015. In light of this, what is your assessment of the 
threat of ISIS or other extremists exploiting this heavily-used migrant 
route by blending in with the hundreds of thousands of refugees 
crossing the Mediterranean, and either launching an attack in Europe or 
travelling to the United States?
    Answer. While I would not rule out the possibility that migrant 
routes, especially the Libya-Italy passage where the overwhelmed 
Italian authorities seem to have taken a laissez-faire attitude of 
passing the challenge onward, may be exploited by ISIS and other 
jihadist groups to infiltrate terrorists into Europe and beyond, I 
would be much more concerned about the reach that these extremists 
already enjoy in diaspora communities in Europe, from whence they have 
already recruited and to which fighters may be returning.
    Question 4. President Trump's proposed budget includes significant 
cuts to the State Department as well as USAID. In his posture statement 
in early March before the Senate Armed Services Committee, AFRICOM 
commander Gen. Waldhauser specifically praised these two arms of our 
non-military foreign policy, saying, ``Diplomacy and development are 
key efforts, and our partnership with the Department of State and USAID 
is key to achieve enduring success.'' As it specifically relates to 
North Africa, what programs have these two agencies put in place to aid 
our CT efforts in that region?
    Answer. Once again, General Waldhauser has succinctly made the 
point. While AFRICOM certainly needs adequate resources to meet the 
extraordinary challenges which have arisen in recent years within its 
area of responsibility, it can only do so as part of a whole-of-
government approach with both diplomatic and development components. 
For example, as I noted in my prepared statement, it is still nothing 
short of mind-boggling that in Nigeria there is no U.S. diplomatic 
presence north of the capital of Abuja, thus leaving the northern part 
of the country--an area that is home to more than 90 million 
predominantly Muslim people who would, by themselves, constitute 
Africa's third most-populous country--entirely without of an American 
diplomatic presence (and the on-going intelligence and other monitoring 
capabilities that come with such a mission).
  Questions From Ranking Member Bennie G. Thompson for Geoff D. Porter
    Question 1a. Economic and political insecurity seems to be a common 
occurrence across North Africa. In your opinion, how does this regional 
and State fragmentation pose long-term challenges for the United 
States?
    Question 1b. How can the United States and its allies in the region 
disrupt the recruiting efforts of local al-Qaeda and the Islamic State 
affiliates that take advantage of this turmoil?
    Answer. Response was not received at the time of publication.
    Question 2. In your opinion, what is the most important base of the 
Islamic State and al-Qaeda in North Africa?
    Answer. Response was not received at the time of publication.
    Question 3. How would you measure the extent of Islamic State and 
al-Qaeda fighters that have fled fighting zones in the Middle East to 
North Africa?
    Answer. Response was not received at the time of publication.
    Question 4. The United States spends a great deal on training and 
equipment for allies to help combat terrorism. In your opinion, which 
countries in the region should the United States be focusing most of 
its efforts on?
    Question 4b. Is this a more cost-effective option than deploying 
U.S. forces and limit the need for future U.S. intervention?
    Answer. Response was not received at the time of publication.
   Question From Ranking Member Kathleen M. Rice for Geoff D. Porter
    Question. What are your opinions on the President's travel ban and 
its potential effects in North Africa?
    Answer. Response was not received at the time of publication.
    Questions From Representative Mike Gallagher for Geoff D. Porter
    Question 1a. Camp Lemonnier in Djibouti is our largest permanent 
military installation in Africa and is critical to our counterterrorism 
operations throughout Africa, as well as the Middle East. Just a few 
miles away, a Chinese naval base is being constructed and is slated for 
completion this summer. Publicly, Chinese officials maintain this base 
is strictly to aid their anti-piracy missions and is not a base, but 
rather a ``logistical support facility.'' During a briefing with 
reporters on March 27, AFRICOM Commander and Marine Corps Gen. Thomas 
Waldhauser said, ``There are some very significant operational security 
concerns,'' in response to a question about the new Chinese base. This 
is China's first permanent overseas military outpost, which carries 
added significance. How can this new proximity to the Chinese affect 
our CT missions in the region?
    Question 1b. How will their foreign policy goals conflict with our 
own?
    Answer. Response was not received at the time of publication.
    Question 2a. AFRICOM has been partnering with Tunisian military and 
intelligence assets to improve their CT&I capabilities and help secure 
their borders. However, according to the Center for Strategic and 
International Studies, somewhere between 6,000-7,000 Tunisians have 
travelled to Syria and Iraq to join rebel and terrorist groups in those 
conflict zones. The Wall Street Journal reports that ``As many as 
15,000 others have been barred from international travel because 
Tunisia's government suspects them of planning to follow suit.'' 
Another report, citing a U.S. CT official in Tunisia, says as many as 
1,000 Tunisians are under domestic surveillance within the country. 
Given these numbers, how can we expect the Tunisians to adequately 
address these issues and implement a successful CT strategy?
    Question 2b. What more can we do to implement and improve upon 
AFRICOM's existing partnership with Tunisia?
    Answer. Response was not received at the time of publication.
    Question 3. The Libya-Italy migrant route was described in late 
2016 as the major migrant route into Europe, surpassing the notorious 
path from Turkey to Greece that was used by approximately 850,000 
migrants in 2015. In light of this, what is your assessment of the 
threat of ISIS or other extremists exploiting this heavily-used migrant 
route by blending in with the hundreds of thousands of refugees 
crossing the Mediterranean, and either launching an attack in Europe or 
travelling to the United States?
    Answer. Response was not received at the time of publication.
    Question 4. President Trump's proposed budget includes significant 
cuts to the State Department as well as USAID. In his posture statement 
in early March before the Senate Armed Services Committee, AFRICOM 
commander Gen. Waldhauser specifically praised these two arms of our 
non-military foreign policy, saying, ``Diplomacy and development are 
key efforts, and our partnership with the Department of State and USAID 
is key to achieve enduring success.'' As it specifically relates to 
North Africa, what programs have these two agencies put in place to aid 
our CT efforts in that region?
    Answer. Response was not received at the time of publication.
  Questions From Ranking Member Bennie G. Thompson for Laith Alkhouri
    Question 1a. Economic and political insecurity seems to be a common 
occurrence across North Africa. In your opinion, how does this regional 
and state fragmentation pose long-term challenges for the United 
States?
    Answer. Socioeconomic and political insecurities contribute to the 
marginalization of many individuals in North Africa; regional and state 
fragmentation adds extra layers of uncertainty and creates mistrust 
between locals and governing bodies. Terror groups like al-Qaeda and 
ISIS have capitalized on these factors, in many ways offering a sense 
of belonging to individuals who have suffered socioeconomic struggles 
and political marginalization. The concepts of brotherhood and 
connectedness around one goal are powerful images that ISIS exploits to 
recruit individuals who feel they do not have a purpose. When terror-
affiliated networks take control of towns--running schools, traffic, 
and prisons--they are able to conduct grassroots indoctrination. ISIS's 
Libya faction acted for 2 years as a de facto governing body until the 
recent victories of the Libyan government.
    Question 1b. How can the United States and its allies in the region 
disrupt the recruiting efforts of local al-Qaeda and the Islamic State 
affiliates that take advantage of this turmoil?
    Answer. The approach of the United States and its allies toward 
counter-terrorism in North Africa has largely relied upon regional 
governments with minimal direct intervention; however, it is not clear 
whether the current policy will pivot towards militarily addressing 
ISIS affiliates outside Iraq and Syria. On April 26, 2017, the United 
States conducted an operation against ISIS positions in Afghanistan, in 
which two U.S. soldiers were killed. The operation came 2 weeks after 
the United States dropped the Massive Ordnance Air Blast (MOAB) on ISIS 
positions in the same district, Achin, in Nangarhar Province. This 
denotes a potential increase in operations against ISIS outside its 
Middle East territory. It remains to be seen whether this targeting 
might expand to include North Africa and the Sahel.
    Animosity toward the United States is at the epicenter of the 
terror groups' campaigns in North Africa and the Sahel. Many among the 
youth that ISIS governed are at great risk of becoming extremists and 
committing violence against the United States or its interests abroad. 
Furthermore, al-Qaeda in the Islamic Maghreb (AQIM) poses a great 
threat regionally, especially towards soft targets.
    Question 2. In your opinion, what is the most important base of the 
Islamic State and al-Qaeda in North Africa?
    Answer. As ISIS has been struggling to maintain control over 
territory--having already lost several key cities, with more poised to 
fall--its central operations command likely moved to more secure 
territory. ISIS's top spokesman, for example, was killed in Aleppo, 
Syria, while top aides to Abu Bakr al-Baghdadi were killed in Raqqa, 
Syria and Anbar, Iraq, among other places. Today, ISIS's so-called 
``Euphrates Province''--the group's only transnational territory, 
spanning from al-Bukamal in eastern Syria to al-Qa'im in western Iraq--
is a main route for fighter and weapons smuggling. It is likely that 
ISIS commanders, and possibly leadership, are present in that area.
    Question 3. How would you measure the extent of Islamic State and 
al-Qaeda fighters that have fled fighting zones in the Middle East to 
North Africa?
    Answer. It is likely that hundreds of ISIS foreign fighters have 
changed their positions, been killed in battle, or attempted--with a 
number possibly succeeding--to return home. North Africa has produced 
thousands of fighters for ISIS; some returnees, in my opinion, pose a 
significant risk to National security. The United States has a more 
sophisticated tracking system of potential returnees than many other 
countries; in a number of cases, U.S. law enforcement has prevented 
individuals who were in the process of joining ISIS from doing so. For 
example, in 2015, U.S. authorities stopped two men from a three-man 
cell in New York, namely Akhror Saidakhmetov and Abdurasul Juraboev, 
from joining ISIS prior to their departure. The higher risk stems from 
individuals who specifically return home with plans to fundraise, 
organize, or execute terrorist attacks.
    Question 4a. The United States spends a great deal on training and 
equipment for allies to help combat terrorism. In your opinion, which 
countries in the region should the United States be focusing most of 
its efforts on?
    Answer. In my opinion, the United States should dedicate critical 
counter-terrorism aid to Libya, Mali, and Nigeria. These countries have 
struggled with the persistent threat of terror groups, which have, at 
various points, captured and controlled territory in these countries.
    Question 4b. Is this a more cost-effective option than deploying 
U.S. forces and limit the need for future U.S. intervention?
    Answer. While cost-effective analysis of interventionist engagement 
is outside my field of expertise, I'd add that U.S. military 
intervention in North Africa can and will create significant backlash 
from the regional populaces, which could in turn highly jeopardize U.S. 
relations with allies in North Africa. Joint intelligence and military 
tactics are avenues to better address certain terrorist threats, and 
incorporating anti-radicalization strategies may help diminish the 
effect of jihadist propaganda and lessen its influence.
    Question 5. In your testimony, you stated that the Islamic State 
has not been able to establish a strong presence in Tunisia due to the 
government cracking down on terrorist activity. In your opinion, what 
is Tunisia doing that could be equally applied to other countries in 
North Africa to deter and defeat the terror threat?
    Answer. After two ISIS attacks took place in Tunisia in 2015, 
killing and wounding dozens of tourists, the Tunisian government 
adopted a new strategy that aims to significantly diminish the threat 
of terrorism. This strategy involves prevention through intelligence 
gathering, amplification of the security and law enforcement 
apparatuses, and implementing a judicial process to swiftly prosecute 
suspected terrorists. In addition, al-Qaeda's militants in the Chaambi 
Mountains appear to have been forced to significantly reduce the number 
of their attacks, given their confinement to a small area in central-
west Tunisia. Although the long-term effects of the government's 
strategy remain to be seen, in the short term, the country has 
experienced fewer terrorist plots and attacks from 2016 until today; 
for now, this framework appears to be working for Tunisia. In theory, 
Tunisia's counter-terrorism strategy could be applied to other 
countries in the region; however, schismatic political environments, 
such as that in Libya, will create obstacles to implementing an 
effective strategy.
   Questions From Ranking Member Kathleen M. Rice for Laith Alkhouri
    Question 1. What are your opinions on the President's travel ban 
and its potential effects in North Africa?
    Answer. President Trump's travel ban, in my opinion, does not have 
a positive effect on countering the threat of terrorism at home or 
abroad. In more ways than one, the ban has likely created regional 
distrust toward the United States as a world leader, and has likely 
contributed to the marginalization of regional governments who highly 
depend on U.S. leadership in foreign policy and military engagements. 
The ban sends a message of divisiveness to populaces who view--or once 
viewed--the United States as the country of immigrants, tolerance, and 
human rights. The ban can only add to the gap between the United States 
and regional countries and their populaces. Bridging this gap would 
require a tremendous leadership role by the current administration.
    Question 2. Several countries in North Africa have an abundance of 
resources such as oil reserves. Over the years, there have been reports 
of terror groups controlling oil fields and kidnapping or extorting 
engineers across the region. What security recommendations would you 
make to the United States and its allies to better protect foreign 
workers and economic interests from this common terror method?
    Answer. There are a number of procedures and measures that would 
likely contribute to countering the terror threat against foreign 
employees and economic interests in North Africa. I recommend the 
following:
  <bullet> Intelligence gathering and coordination with local and State 
        security apparatuses. Information regarding the terror 
        landscape in certain cities and towns, particularly in remote 
        areas in which a number of gas and oil plants are located, is 
        crucial to understanding which groups operate in which areas, 
        and what their ideologies and goals are. This includes 
        identifying gaps in preexisting security measures--whether 
        increasing the number of guards, equipping security forces with 
        new technology, and/or amplifying the number of confidential 
        human intelligence sources. The latter is critical in gathering 
        information on the plans and movements of terror networks.
  <bullet> Increase coordination with embassies and consulates in host 
        countries. Coordinating with regional governments in regards to 
        security gaps is imperative; it offers country representatives 
        an idea of what sort of aid and military assistance regional 
        forces need in order to prevent any potential attacks.
  <bullet> Empowering and enhancing the capabilities of regional 
        governments' quick response teams--or Quick Reaction Forces 
        (QRFs)--is essential to addressing terror incidents. There will 
        likely be a lag time in U.S. security forces responding to 
        terror incidents where Americans might be at risk. As such, 
        local forces must be empowered and enabled to tackle terror 
        incidents as they unfold, setting the stage for American and 
        allied forces to swiftly intervene.
    It is vital to create trust, or bridge the trust gap, with locals 
and regional forces; in many ways, this can help QRFs in obtaining 
critical information prior to and in the early stages of terror 
incidents.
    Questions From Representative Mike Gallagher for Laith Alkhouri
    Question 1a. Camp Lemonnier in Djibouti is our largest permanent 
military installation in Africa and is critical to our counterterrorism 
operations throughout Africa, as well as the Middle East. Just a few 
miles away, a Chinese naval base is being constructed and is slated for 
completion this summer. Publicly, Chinese officials maintain this base 
is strictly to aid their anti-piracy missions and is not a base, but 
rather a ``logistical support facility.'' During a briefing with 
reporters on March 27, AFRICOM Commander and Marine Corps Gen. Thomas 
Waldhauser said, ``There are some very significant operational security 
concerns,'' in response to a question about the new Chinese base. This 
is China's first permanent overseas military outpost, which carries 
added significance. How can this new proximity to the Chinese affect 
our CT missions in the region?
    Answer. China's construction of its first naval base overseas 
suggests that its goals revolve around protecting its current and 
future economic interests; China has heavily invested in Africa at 
large, and thousands of Chinese workers are employed across North 
Africa and the Sahel region. The security concerns here revolve around 
intelligence gathering and military responses toward issues and 
incidents concerning both the United States and China, i.e., responding 
to incidents taking place in locations where American and Chinese 
workers might be present. This is a potential scenario in which 
conflicts may arise; however, looking at the larger picture, the 
likelihood is that U.S. counter-terrorism missions in the regions will 
not be impacted by the presence of the Chinese base, at least in the 
short term. The U.S. mission is more entrenched in the region due to 
its longer presence. In other words, the proximity to the Chinese will 
have very little to no effect on the U.S. mission at this time.
    Question 1b. How will their foreign policy goals conflict with our 
own?
    Answer. The new Chinese base is likely not the country's last in 
the region. China's military expansion in an area that is critical to 
the interests of the United States is somewhat disconcerting; it begs 
the question of whether Beijing aims to assert and advance Chinese 
military prowess in the region, and whether this could potentially 
overshadow U.S. missions. It also presents the question of whether the 
Chinese mission will in any way conduct counterintelligence and spy 
activities that might affect, or directly target, the U.S. mission.
    Question 2a. AFRICOM has been partnering with Tunisian military and 
intelligence assets to improve their CT&I capabilities and help secure 
their borders. However, according to the Center for Strategic and 
International Studies, somewhere between 6,000-7,000 Tunisians have 
travelled to Syria and Iraq to join rebel and terrorist groups in those 
conflict zones. The Wall Street Journal reports that ``As many as 
15,000 others have been barred from international travel because 
Tunisia's government suspects them of planning to follow suit.'' 
Another report, citing a U.S. CT official in Tunisia, says as many as 
1,000 Tunisians are under domestic surveillance within the country. 
Given these numbers, how can we expect the Tunisians to adequately 
address these issues and implement a successful CT strategy?
    Question 2b. What more can we do to implement and improve upon 
AFRICOM's existing partnership with Tunisia?
    Answer. Tunisia's counter-terrorism procedures since mid-2016 
appear to have been successful at subduing the rise of jihadism and 
diminishing the number of terror plots and attacks. The terrorism 
threat facing Tunisia from jihadi returnees is likely going to be the 
country's primary security concern over the next 6 months, due to both 
the high number of Tunisians who joined ISIS in Iraq and Syria, as well 
as the potential deployment of Tunisian terror operatives who joined 
ISIS in Libya back home. We can expect that terror suspects will slip 
through the cracks and possibly plot attacks in Tunisia. We should 
advise the Tunisian government to have the following steps in place to 
adequately address the terror concerns:
  <bullet> Coordination with regional governments whose borders have 
        been used as travel routes or crossing points into Iraq and 
        Syria, such as Turkey, and soliciting updates on any Tunisian 
        nationals traveling in and out of Turkey.
  <bullet> Enhancing border and customs apparatuses to intercept 
        Tunisians who have spent considerable periods of time in Iraq 
        and Syria and investigating the purpose of their trips; 
        monitoring the activities of individuals inside Tunisia who 
        have connected with Tunisians in Iraq and Syria; and 
        legislation that would lead to the arrests and prosecution of 
        suspects found to be providing material support to terrorist 
        groups.
  <bullet> Coordination with North African governments, particularly 
        Algeria and Libya, to secure borders through which terror 
        suspects and operatives might cross.
    Question 3. The Libya-Italy migrant route was described in late 
2016 as the major migrant route into Europe, surpassing the notorious 
path from Turkey to Greece that was used by approximately 850,000 
migrants in 2015. In light of this, what is your assessment of the 
threat of ISIS or other extremists exploiting this heavily-used migrant 
route by blending in with the hundreds of thousands of refugees 
crossing the Mediterranean, and either launching an attack in Europe or 
travelling to the United States?
    Answer. Migrant routes are of immense interest to terror groups, 
but the threat from terror group operatives and extremists posing as 
migrants has been minimal. Part of the reason is that it takes a long 
period of time for migrants to prepare their papers, and they must pass 
through a stringent process before they can settle in Western 
countries. Terror groups do not appear to have developed such a nuanced 
strategy, instead relying on ad hoc attacks and self-radicalized 
individuals. This, however, does not mean that ISIS might not exploit 
these routes in the future. Reasonably, terror operatives might pass 
into the West undetected and potentially plot an attack, but the degree 
to which these routes could be exploited is insignificant when compared 
to ISIS-orchestrated and inspired attacks that partly rely on 
communication between ISIS apparatuses in the Middle East and potential 
Western radicals at home. The threat from the latter scenario is 
significantly higher.
    Question 4. President Trump's proposed budget includes significant 
cuts to the State Department as well as USAID. In his posture statement 
in early March before the Senate Armed Services Committee, AFRICOM 
commander Gen. Waldhauser specifically praised these two arms of our 
non-military foreign policy, saying, ``Diplomacy and development are 
key efforts, and our partnership with the Department of State and USAID 
is key to achieve enduring success.'' As it specifically relates to 
North Africa, what programs have these two agencies put in place to aid 
our CT efforts in that region?
    Answer. One of USAID's main counterterrorism policies is the ``The 
Development Response to Violent Extremism and Insurgency,'' which aims 
at identifying and tackling conduits of violent extremism. This policy 
includes educational programs, women and youth empowerment, and working 
with local communities to address approaches to better governance, 
among others. Part of the program is the Maghreb-Sahel Capacity 
Building for Countering Violent Extremism (CVE), which in many ways 
helps in grassroots anti-radicalization efforts. USAID's efforts will 
prove critical in areas where violent extremists have become 
entrenched; helping the local populations understand and ultimately 
reject violent extremist ideologies is critical.
  Questions From Ranking Member Bennie G. Thompson for Frederic Wehrey
    Question 1. In your testimony, you noted that the Islamic State in 
Libya no longer remains a territorial force, however, you believe that 
this presents us with many challenges. Can you further explain those 
challenges and how the Islamic State can still create acts of terror in 
Libya? How should the United States respond?
    Answer. The self-proclaimed Islamic State in Libya has dispersed to 
scattered ``pools'' of militants in the country's desert interior and 
in several Western cities. The possibility of these networks regrouping 
into operational cells and conducting attacks remains high. 
Specifically, the Islamic State may seek to demonstrate its continued 
presence and viability through a high-visibility attack. Such an attack 
would likely be aimed at eroding the already weak authority of the 
Government of National Accord (GNA) in Tripoli, either by attacking the 
Government itself or a commercial entity. Police and military 
facilities, oil and energy infrastructure, and foreign commercial 
interests are all possible targets. Should Western diplomats and 
multilateral organizations return to the capital, those too would be at 
risk. Presently, the best strategy for disruption of such attacks by 
clandestine networks is one rooted in intelligence and investigation. 
The United States and its Western allies should provide assistance and 
training to GNA-controlled policing bodies. In tandem, robust and 
persistent surveillance of Libya's vast interior and potential 
terrorist lines of supply or encampments can prevent the Islamic State 
from regrouping and reconstituting itself.
    Question 2a. Economic and political insecurity seems to be a common 
occurrence across North Africa. In your opinion, how does regional and 
state fragmentation pose long-term challenges for the United States?
    Answer. The United States should continue to adopt a holistic, 
whole-of-Government approach to counterterrorism that addresses the 
social and economic grievances fueling jihadism. A huge part of the 
jihadist appeal focuses on state-led corruption and abuses in the 
judicial sector--these areas need to be part of the United States and 
allied assistance effort. Train-and-equip programs and border security 
are only one part of the broader challenge.
    Question 2b. How can the United States and its allies in the region 
disrupt the recruiting efforts of local al-Qaeda and the Islamic State 
affiliates that take advantage of this turmoil?
    Answer. Response was not received at the time of publication.
    Question 3. In your opinion, what is the most important base of the 
Islamic State and al-Qaeda in North Africa?
    Answer. The most important base for al-Qaeda in the Islamic Maghreb 
remains the southwest corner of Libya, Algeria, and Niger. This 
uncontrolled region has long offered the group a logistics pipeline, 
safe haven, and a space to train. The Islamic State's North African 
presence was significantly degraded after the Libyan-led campaign last 
summer and fall and the U.S. strike outside of Sirte in January 2017. 
That said, Libya offers the Islamic State the most promising space to 
regroup.
    Question 4. How would you measure the extent of the Islamic State 
and al-Qaeda fighters that have fled fighting zones in the Middle East 
to North Africa?
    Answer. In key countries, my estimates based on official, host-
country estimates and reliable open source reporting indicates roughly 
200-500 returnees for Morocco and Libya and up to 1,000-1,500 for 
Tunisia alone. The number from Algeria is small--63 according to a 2015 
Algerian government figure. I would assess the number of total 
returnees to be about 2,000-2,500 in total for the Maghreb, excluding 
Egypt.
    Question 5a. The United States spends a great deal on training and 
equipment for allies to help combat terrorism. In your opinion, which 
countries in the region should the United States be focusing most of 
its efforts on?
    Answer. Tunisia should be a focus given the numbers of Tunisian 
youth who have joined the Islamic State and al-Qaeda. In tandem, 
counterterrorism assistance to the Sahelian countries to the south--
namely Chad and Niger--remains vital. This remains a cost-effective 
strategy, provided it is accompanied by broader efforts to reform host-
nation institutions, rule-of-law, and especially address the economic 
and social grievances that fuel jihadism. Simply providing unit-level 
training and more weapons to local partners will not be enough: These 
states have serious problems at the level of ministries, 
interoperability, prisons, judiciaries, and, especially, in meeting the 
aspirations of their increasingly restive youth populations.
    Question 5b. Is this a more cost-effective option than deploying 
U.S. forces and limit the need for future U.S. intervention?
    Answer. Response was not received at the time of publication.
   Question From Ranking Member Kathleen M. Rice for Frederic Wehrey
    Question. What are your opinions on the President's travel ban and 
its potential effects in North Africa?
    Answer. Any attempt to ban travelers to the United States using 
blanket criteria such as country of origin or religion, or via 
excessive and intrusive vetting will have a counter-productive effect 
on the broader fight against terrorism. It deprives the United States 
access to vital sources of influence and information--the people of the 
region. It also plays into the hands of the jihadists' narrative of an 
anti-Islamic West.
    Questions From Representative Mike Gallagher for Frederic Wehrey
    Question 1a. Camp Lemonnier in Djibouti is our largest permanent 
military instillation in Africa and is critical to our counterterrorism 
operations throughout Africa, as well as the Middle East. Just a few 
miles away, a Chinese naval base is being constructed and is slated for 
completion this summer. Publicly, Chinese officials maintain this base 
is strictly to aid their anti-piracy missions and is not a base, but 
rather a ``logistical support facility.'' During a briefing with 
reporters on March 27, AFRICOM Commander and Marine Corps Gen. Thomas 
Waldhauser said, ``There are some very significant operational security 
concerns,'' in response to a question about the new Chinese base. This 
is China's first permanent overseas military outpost, which carries 
added significance. How can this new proximity to the Chinese affect 
our CT missions in the region?
    Question 1b. How will their foreign policy goals conflict with our 
own?
    Answer. The Chinese facility does not pose an immediate threat to 
American counterterrorism partnerships and missions in Africa, aside 
from operational security challenges. Insofar as the base represents 
another step in China's expanding presence in Africa, it adds to 
growing concerns about Beijing's mercantilist, blank-check support for 
authoritarian rulers on the continent, which runs counter to the United 
State's aim of promoting the rule of law, transparency, and 
accountability--all important facets of a holistic counterterrorism 
strategy.
    Question 2a. AFRICOM has been partnering with Tunisian military and 
intelligence assets to improve their CT&I capabilities and help secure 
their borders. However, according to the Center for Strategic and 
International Studies, somewhere between 6,000-7,000 Tunisians have 
travelled to Syria and Iraq to join rebel and terrorist groups in those 
conflict zones. The Wall Street Journal reports that ``As many as 
15,000 others have been barred from international travel because 
Tunisia's government suspects them of planning to follow suit.'' 
Another report, citing a U.S. CT official in Tunisia, says as many as 
1,000 Tunisians are under domestic surveillance within the country.
    Given these numbers, how can we expect the Tunisians to adequately 
address these issues and implement a successful CT strategy?
    Question 2b. What more can we do to implement and improve upon 
AFRICOM's existing partnership with Tunisia?
    Answer. Tunisia desperately needs a broad-based strategy for 
addressing these returnees, which includes freeing up space in prisons 
and more importantly devising a rehabilitation program that relies on 
community influencers, family, and vocational training. AFRICOM's 
existing programs have focused on five lines of effort: Air-ground 
capacity, counterterrorism, intelligence, border security, and defense 
institution building, to include the development of a National military 
strategy. Tunisia still needs more assistance in terms of joint 
cooperation among the different services, intelligence fusion, and de-
confliction between the ministries of defense and interior. AFRICOM's 
assistance should be closely synchronized with those of other agencies, 
whether under the framework of the Security Governance Initiative (SGI) 
or some revised, whole-of-Government framework.
    Question 3. The Libya-Italy migrant route was described in late 
2016 as the major migrant route into Europe, surpassing the notorious 
path from Turkey to Greece that was used by approximately 850,000 
migrants in 2015. In light of this, what is your assessment of the 
threat ISIS or other extremists exploiting this heavily-used migrant 
route by blending in with the hundreds of thousands of refugees 
crossing the Mediterranean, and either launching an attack in Europe or 
travelling to the United States?
    Answer. I believe it is unlikely that the Islamic State or other 
extremists will try to infiltrate the flow of migrants traversing the 
Mediterranean because of the extreme risks of the crossing and because 
most of their attacks in Europe and America have been conducted by 
home-grown extremists.
    Question 4. President Trump's proposed budget includes significant 
cuts to the State Department as well as USAID. In his posture statement 
in early March before the Senate Armed Services Committee, AFRICOM 
commander Gen. Waldhauser specifically praised these two arms of our 
non-military foreign policy, saying ``Diplomacy and development are key 
efforts, and our partnership with the Department of State and USAID is 
key to achieve enduring success.'' As it specifically related to North 
Africa, what programs have these two agencies put in place to aid out 
CT efforts in that region?
    Answer. USAID's jobs training and matching program has been an 
effective tool addressing radicalization in Tunisia. Similar community-
level outreach programs have been effective in Libya, especially 
municipal-level aid, entrepreneurship, and small-business development. 
Broader support to civil society forms an important deterrent and 
counterweight to the jihadists' narrative and appeal.

                                 [all]
</pre></body></html>
